No.

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
MATTHEW GUARNIERI
Assistant to the Solicitor
General
H. THOMAS BYRON III
EDWARD HIMMELFARB
MICHAEL SHIH
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

If the President declares “a national emergency in accordance with the National Emergencies Act (50 U.S.C.
1601 et seq.) that requires use of the armed forces,” the
Secretary of Defense has express statutory authority to
“undertake military construction projects * * * not
otherwise authorized by law that are necessary to support such use of the armed forces.” 10 U.S.C. 2808(a).
“Such projects may be undertaken only within the total
amount of funds that have been appropriated for military
construction, including funds appropriated for family
housing, that have not been obligated.” Ibid. In 2019,
following the President’s declaration of a national emergency requiring the use of the armed forces at the
southern border, the then-Secretary of Defense authorized 11 military construction projects involving border
barriers pursuant to Section 2808. The questions presented are as follows:
1. Whether respondents have a cognizable cause of
action to obtain review of the Secretary’s compliance
with Section 2808 in reprioritizing appropriated but unobligated funds for the military construction projects
being authorized.
2. Whether the Secretary exceeded his statutory authority under Section 2808 in reprioritizing appropriated funds for the military construction projects being
authorized.

(I)

PARTIES TO THE PROCEEDING

Petitioners are Donald J. Trump, in his official capacity as President of the United States; Steven T.
Mnuchin, in his official capacity as Secretary of the
Treasury; Christopher C. Miller, in his official capacity
as Acting Secretary of Defense; David Bernhardt, in his
official capacity as Secretary of the Interior; Chad F.
Wolf, in his official capacity as Acting Secretary of
Homeland Security; Ryan D. McCarthy, in his official
capacity as Secretary of the Army; Kenneth J.
Braithwaite, in his official capacity as Secretary of the
Navy; Barbara M. Barrett, in her official capacity as
Secretary of the Air Force; the United States; the Department of the Treasury; the Department of Defense;
the Department of the Interior; and the Department of
Homeland Security. *
Respondents are the Sierra Club; the Southern Border Communities Coalition; and the States of California, Colorado, Hawaii, Maryland, New Mexico, New
York, Oregon, Virginia, and Wisconsin.

Acting Secretary Miller and Secretaries Braithwaite and Barrett are substituted as parties for their predecessors in office pursuant to Rule 35.3 of the Rules of this Court.
*

(II)

RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
Sierra Club v. Trump, No. 19-cv-892 (May 24, 2019)
(preliminary injunction in Section 8005 litigation)
Sierra Club v. Trump, No. 19-cv-892 (June 28, 2019)
(partial final judgment in Section 8005 litigation)
California v. Trump, No. 19-cv-872 (June 28, 2019)
(same)
Sierra Club v. Trump, No. 19-cv-892 (Dec. 11, 2019)
(partial final judgment in Section 2808 litigation)
California v. Trump, No. 19-cv-872 (Dec. 11, 2019)
(same)
United States Court of Appeals (9th Cir.):
Sierra Club v. Trump, Nos. 19-16102 and 19-16300
(July 3, 2019) (denying stay pending appeal of
Section 8005 injunction)
Sierra Club v. Trump, Nos. 19-16102 and 19-16300
(June 26, 2020) (affirming in Section 8005 appeal)
California v. Trump, Nos. 19-16299 and 19-16336
(June 26, 2020) (same)
Sierra Club v. Trump, Nos. 19-17501, 19-17502, and
20-15044 (Oct. 9, 2020) (affirming in consolidated
Section 2808 appeals)
Supreme Court of the United States:
Trump v. Sierra Club, No. 19A60 (July 26, 2019)
(granting stay of Section 8005 injunction)
Trump v. Sierra Club, No. 20-138 (Oct. 19, 2020)
(granting certiorari in Section 8005 litigation)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction ................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
A. Statutory background ............................................... 4
B. The challenged projects............................................ 4
C. Prior proceedings ...................................................... 8
1. The Section 8005 litigation................................. 8
2. The Section 2808 litigation............................... 11
Reasons for granting the petition ............................................. 16
I. The decision below is incorrect .................................... 17
A. Respondents lack any cause of action to obtain
judicial review of whether the Secretary
exceeded his authority under Section 2808 .......... 17
B. The Secretary fully complied with Section 2808 ... 28
II. The questions presented warrant review.................... 32
Conclusion ................................................................................... 34
Appendix A — Court of appeals opinion (Oct. 9, 2020) ......... 1a
Appendix B — District court order granting in part and
denying in part plaintiffs’ motions for
partial summary judgment and denying
defendants’ motions for partial
summary judgment (Dec. 11, 2019) ....... 104a
Appendix C — Court of appeals order (Oct. 26, 2020) ...... 173a
Appendix D — Court of appeals order (Dec. 30, 2019) ..... 175a
Appendix E — Constitutional and statutory provisions .... 177a
TABLE OF AUTHORITIES

Cases:
Armstrong v. Exceptional Child Ctr., Inc.,
575 U.S. 320 (2015).......................................18, 19, 26, 27, 32
Ayestas v. Davis, 138 S. Ct. 1080 (2018) ....................... 15, 31
(V)

VI
Cases—Continued:

Page

Bennett v. Spear, 520 U.S. 154 (1997)................ 25, 26, 27, 28
Bond v. United States, 564 U.S. 211 (2011) ........................ 25
Boston Stock Exch. v. State Tax Comm’n,
429 U.S. 318 (1977).............................................................. 26
Clarke v. Securities Indus. Ass’n, 479 U.S. 388
(1987) .............................................................................. 19, 27
Commissioner v. Heininger, 320 U.S. 467 (1943) .............. 31
Dalton v. Specter, 511 U.S. 462 (1994)........................... 23, 24
Gonzaga Univ. v. Doe, 536 U.S. 273 (2002)......................... 27
Grupo Mexicano de Desarrollo, S. A. v. Alliance
Bond Fund, Inc., 527 U.S. 308 (1999) ............................... 26
Hernandez v. Mesa, 140 S. Ct. 735 (2020) .......................... 27
Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118 (2014) ......................................... 18, 25, 26
Lujan v. National Wildlife Fed’n, 497 U.S. 871
(1990) .................................................................................... 28
Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209 (2012) ........ 13, 18, 21, 22
Thompson v. North Am. Stainless, LP, 562 U.S. 170
(2011) .............................................................................. 18, 27
Trump v. Sierra Club, 140 S. Ct. 1 (2019),
mot. to lift stay denied, 140 S. Ct. 2620 (2020) ..... 3, 7, 9, 10
United States v. Apel, 571 U.S. 359 (2014) .......................... 30
Valley Forge Christian Coll. v. Americans United
for Separation of Church & State, Inc.,
454 U.S. 464 (1982).............................................................. 26
Winter v. Natural Res. Def. Council,
555 U.S. 7 (2008) ................................................................. 32
Youngstown Sheet & Tube Co. v. Sawyer,
343 U.S. 579 (1952).............................................................. 24
Ziglar v. Abbasi, 137 S. Ct. 1843 (2017) ........................ 20, 27

VII
Constitution, statutes, regulation, and rules:

Page

U.S. Const.:
Art. I:
§ 8, Cl. 3 (Dormant Commerce Clause) ................... 26
§ 9, Cl. 7 (Appropriations Clause) ................... passim
Art. III .............................................................................. 20
Art. VI, § 9 (Supremacy Clause) .................................... 26
Amend. I (Establishment Clause) ................................. 26
Administrative Procedure Act, 5 U.S.C. 701
et seq. .................................................................................... 10
5 U.S.C. 702 ...................................................................... 18
Department of Defense Appropriations Act, 2019,
Pub. L. No. 115-245, Div. A, Tit. VIII, § 8005,
132 Stat. 2999 ............................................................. passim
National Emergencies Act, 50 U.S.C. 1601 et seq. ............... 4
50 U.S.C. 1631 .................................................................... 5
10 U.S.C. 284 .....................................................3, 6, 8, 17, 177a
10 U.S.C. 284(a) ..................................................................... 17
10 U.S.C. 284(b)(7) ................................................... 6, 17, 180a
10 U.S.C. 2801(a) ................................................4, 14, 29, 186a
10 U.S.C. 2801(c)(4) ......................................4, 14, 29, 30, 187a
10 U.S.C. 2808 ...................................................... passim, 182a
10 U.S.C. 2808(a) ................................................. passim, 188a
10 U.S.C. 2808(b) ..................................................... 4, 20, 188a
31 U.S.C. 9705(g)(4)(B) ........................................................... 6
25 C.F.R. 151.10(f ) ................................................................. 22
Fed. R. Civ. P. 54(b) ............................................................. 12
Fed. R. App. P. 41(d)(2)(B) ................................................... 16
Fed. R. App. P. 41(d)(2)(B)(ii) .............................................. 15
Sup. Ct. R. 10(c) .................................................................... 32

VIII
Miscellaneous:

Page

84 Fed. Reg. 4949 (Feb. 20, 2019) ...................................... 4, 5
Gov’t Accountability Office, Department of
Defense—Availability of Appropriations for
Border Fence Construction, B-330862, 2019 WL
4200949 (Comp. Gen. Sept. 15, 2019) .................................. 5
H.R. Rep. No. 200, 103d Cong., 1st Sess. (1993) .................. 6
Memorandum on Securing the Southern Border of
the United States, 2018 Daily Comp. Pres. Doc.
(Apr. 4, 2018) ......................................................................... 5

In the Supreme Court of the United States
No.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of Donald J.
Trump, President of the United States, et al., respectfully petitions for a writ of certiorari to review the judgment of the United States Court of Appeals for the
Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a103a) is reported at 977 F.3d 853. The order of the district court (App., infra, 104a-172a) is reported at 407
F. Supp. 3d 869. Additional related opinions and orders
are described in the government’s petition for a writ of
certiorari in Trump v. Sierra Club, cert. granted,
No. 20-138 (Oct. 19, 2020) (20-138 Pet.), and reproduced
in the appendix to that petition.

(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
October 9, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Section 2808 of Title 10 of the United States Code
provides in pertinent part:
In the event of a declaration of war or the declaration by the President of a national emergency in
accordance with the National Emergencies Act
(50 U.S.C. 1601 et seq.) that requires use of the armed
forces, the Secretary of Defense, without regard to any
other provision of law, may undertake military construction projects, and may authorize the Secretaries
of the military departments to undertake military construction projects, not otherwise authorized by law
that are necessary to support such use of the armed
forces. Such projects may be undertaken only within
the total amount of funds that have been appropriated
for military construction, including funds appropriated
for family housing, that have not been obligated.
10 U.S.C. 2808(a). Other pertinent constitutional and
statutory provisions are reproduced in the appendix to
this petition. App., infra, 177a-191a.
STATEMENT

In February 2019, the President declared a national
emergency requiring the use of the armed forces at the
southern border. In the event of such a declaration,
Congress has expressly authorized the Secretary of Defense to use previously appropriated but unobligated
military construction funds to undertake military construction that is, in the Secretary’s judgment, necessary
to support the use of the armed forces in the emergency.

3
10 U.S.C. 2808(a). Here, the Secretary determined that
11 military construction projects—building barriers at
the border with respect to military installations—are
necessary to support the use of the armed forces in connection with the national emergency. The district court
held that respondents have a cause of action to challenge the Secretary’s Section 2808 determinations and
that the projects the Secretary authorized are unlawful.
The court permanently enjoined the government from
“using military construction funds appropriated for
other purposes” for the projects, but stayed the injunction pending appeal in deference to this Court’s order
staying the same district court’s injunction in earlier
related litigation. App., infra, 172a; see Trump v. Sierra Club, 140 S. Ct. 1 (2019), mot. to lift stay denied,
140 S. Ct. 2620 (2020). A divided panel of the court of
appeals affirmed. App., infra, 1a-103a.
The same panel of the court of appeals had also previously affirmed the same district court’s judgments in
litigation between the same parties but concerning different construction projects, undertaken pursuant to
10 U.S.C. 284 using funds transferred under Section
8005 of the Department of Defense Appropriations Act,
2019 (DoD Appropriations Act), Pub. L. No. 115-245,
Div. A, Tit. VIII, 132 Stat. 2999. On October 19, 2020,
this Court granted the government’s petition for a writ
of certiorari to review the judgments in those cases.
Trump v. Sierra Club, No. 20-138. This petition seeks
plenary review of the Ninth Circuit’s follow-on judgment concerning the Section 2808 projects; in the alternative, the government respectfully requests that this
petition be held pending the Court’s disposition of the
Section 8005 case and then disposed of as appropriate.

4
A. Statutory Background

Section 2808 authorizes the Secretary of Defense to
reprioritize appropriated military construction funds
that “have not been obligated,” in order to undertake
certain military construction projects that are “not otherwise authorized by law,” when the President declares
a “national emergency * * * that requires use of the
armed forces.” 10 U.S.C. 2808(a). Pursuant to such a
declaration, the Secretary, “without regard to any other
provision of law, may undertake military construction
projects * * * that are necessary to support such use
of the armed forces.” Ibid.
As used here, the term “military construction”
means “any construction, development, conversion, or
extension of any kind carried out with respect to a military installation,” as well as “any acquisition of land.”
10 U.S.C. 2801(a). The term “military installation”
means a “base, camp, post, station, yard, center, or
other activity under the jurisdiction of the Secretary of
a military department.” 10 U.S.C. 2801(c)(4).
When the Secretary decides to undertake military
construction under Section 2808, the statute requires
the Secretary to “notify * * * the appropriate committees of Congress of the decision,” and of “the estimated
cost of the construction projects.” 10 U.S.C. 2808(b).
B. The Challenged Projects

1. a. This case arises from actions taken by the Department of Homeland Security (DHS) and the Department of Defense (DoD) in the wake of the President’s
declaration of a national emergency on the southern
border under the National Emergencies Act, 50 U.S.C.
1601 et seq. See 84 Fed. Reg. 4949 (Feb. 20, 2019). In
that declaration, the President determined that “[t]he

5
current situation at the southern border presents a border security and humanitarian crisis that threatens core
national security interests” of the United States. Ibid.
The President explained that the border is “a major entry point for criminals, gang members, and illicit narcotics,” and that the federal government continues to be
unable to stem the tide of “large-scale unlawful migration” across the border. Ibid. The President had previously ordered DoD to support DHS in securing operational control of the southern border, including through
the deployment of the National Guard. See Memorandum on Securing the Southern Border of the United
States, 2018 Daily Comp. Pres. Doc. 2 (Apr. 4, 2018). In
his February 2019 declaration, the President determined that “it is necessary for the Armed Forces to provide additional support to address the crisis,” and he
specifically made 10 U.S.C. 2808 available to allow the
Secretary of Defense to undertake military construction as necessary to support the use of the armed forces
in connection with the emergency. 84 Fed. Reg. at 4949;
see 50 U.S.C. 1631.
The President’s determination that the crisis at the
southern border warranted using the armed forces and
authorizing the Secretary of Defense to undertake military construction projects was in keeping with a substantial history of DoD assistance at the border, including through the construction of physical barriers. Congress has “long vested [DoD] with authority to construct fences” along the border. Gov’t Accountability
Office, Department of Defense—Availability of Appropriations for Border Fence Construction, B-330862,
2019 WL 4200949, at *13 (Comp. Gen. Sept. 15, 2019).
For example, military personnel were integral to building the first modern border barrier near San Diego,

6
California, in the early 1990s. See H.R. Rep. No. 200,
103d Cong., 1st Sess. 330-331 (1993) (describing DoD’s
role).
Military personnel deployed to the southern border
during the current emergency have performed a broad
range of administrative, logistical, and operational
tasks in support of DHS. Gov’t C.A. E.R. 128-131.
These activities include installing vehicle and pedestrian barriers; placing concertina wire along the border
and at ports of entry; and operating aerial and mobile
surveillance equipment to detect activity along the border. Id. at 212-213, 216-218. As of August 2019, DoD
had approximately 5540 personnel supporting DHS’s
border-security mission. Id. at 125.
b. After the President’s declaration, the government
took a number of steps in sequence to address the emergency at the southern border through the construction
of physical barriers.
First, the Secretary of the Treasury authorized the
use of certain asset-forfeiture funds for border-barrier
construction, pursuant to his authority to obligate such
funds for “law enforcement activities.” 31 U.S.C.
9705(g)(4)(B). Those actions are not at issue here.
Second, DHS submitted a request to DoD for DoD’s
assistance pursuant to 10 U.S.C. 284, which authorizes
DoD to provide “support for the counterdrug activities”
of other departments or agencies upon request. See 20138 Pet. 6-7. Section 284 authorizes DoD to provide assistance in the form of “[c]onstruction of roads and
fences and installation of lighting to block drug smuggling corridors across international boundaries of the
United States.” 10 U.S.C. 284(b)(7). The then-Acting
Secretary of Defense approved DHS’s request with respect to several high-priority construction projects in

7
drug-smuggling corridors. 20-138 Pet. 7-8. To ensure
adequate funds to complete the projects, he also invoked his authority under Section 8005 of the DoD Appropriations Act to transfer funds between DoD appropriations. Ibid. The Section 8005 transfers are the subject of the injunction that this Court stayed in Sierra
Club, 140 S. Ct. at 1, and are at issue in the recently
granted case, Trump v. Sierra Club, supra (No. 20-138).
Third, the then-Secretary of Defense authorized certain military construction projects under 10 U.S.C.
2808—the provision at issue here. Specifically, on September 3, 2019, the Secretary determined that undertaking 11 barrier-construction projects along the southern border was necessary to support the use of the
armed forces in connection with the President’s declaration of a national emergency. Gov’t C.A. E.R. 89, 9293. Based on the advice of the Chairman of the Joint
Chiefs of Staff, see id. at 202-207—and after input from
DHS, the U.S. Army Corps of Engineers, and the Department of the Interior—the Secretary determined
that constructing barriers in the specified areas will
“deter illegal entry, increase the vanishing time of those
illegally crossing the border” (i.e., the time that passes
before a person who illegally crosses the border can no
longer be apprehended), and “channel migrants to ports
of entry,” id. at 92. The Secretary further determined
that the barriers will support the use of the armed
forces by reducing “demand for DoD personnel and assets at the locations where the barriers are constructed
and [will] allow the redeployment of DoD personnel and
assets to other high-traffic areas on the border without
barriers.” Ibid. The Secretary accordingly found that
the barriers will serve as “force multipliers” that will

8
enhance military capabilities and allow DoD to support
DHS more efficiently and effectively. Ibid.
To fund the Section 2808 projects, the Secretary approved the use of up to $3.6 billion in previously appropriated but unobligated military construction funds.
Gov’t C.A. E.R. 93. The 11 projects, which involve 175
miles of border-barrier construction, include (1) two
projects on the Barry M. Goldwater Range, a longstanding military installation in Arizona that is used for livefire and weapons exercises by U.S. military pilots;
(2) seven projects on federal land transferred to Army
jurisdiction; and (3) two projects on non-public land,
which has not yet been acquired. App., infra, 6a. The
projects are located in Arizona, California, New Mexico,
and Texas. Ibid.
C. Prior Proceedings

Respondents are two groups of plaintiffs that brought
suit in the Northern District of California to challenge
the government’s construction of physical barriers
along the southern border. The Sierra Club, a national
environmental group, and the Southern Border Communities Coalition, an organization focused on border
issues (collectively, Sierra Club), brought one of the
suits; California and several other States brought the
other. The district court addressed the plaintiffs’ allegations on a rolling basis.
1. The Section 8005 litigation

The district court first addressed the Section 284
projects that were funded through transfers under Section 8005. In June 2019, the court granted Sierra Club’s
request for a permanent injunction barring use of the
transferred funds for the Section 284 projects. See 20-

9
138 Pet. App. 174a-188a. The court reasoned that Sierra Club has an equitable cause of action to pursue its
challenge, and therefore (in the court’s view) need not
satisfy the zone-of-interests requirement, and that the
Acting Secretary exceeded his authority under Section
8005. See 20-138 Pet. 9-10. The court also entered a
declaratory judgment in favor of California and New
Mexico on essentially the same basis, while declining to
grant a duplicative injunction. Id. at 13.
A divided panel of the court of appeals declined to
stay the district court’s Section 8005 injunction. 20-138
Pet. App. 206a-299a. The majority characterized Sierra
Club’s claims as “alleging a constitutional violation,” id.
at 234a, on the theory that any use of funds improperly
transferred under Section 8005 would violate the Appropriations Clause, id. at 236a & n.16 (citing U.S.
Const. Art. I, § 9, Cl. 7). The majority reasoned that
“[t]o the extent” the zone-of-interests requirement applies to Sierra Club’s claims, “it requires [the court] to
ask whether [p]laintiffs fall within the zone of interests
of the Appropriations Clause, not of [S]ection 8005,” id.
at 264a. The court then found that Sierra Club’s
claimed aesthetic and recreational interests were within
the zone of interests protected by the Appropriations
Clause. Id. at 266a-267a. The majority also agreed with
the district court that Section 8005 likely did not permit
the disputed transfers. Id. at 236a-237a. Judge N.R.
Smith dissented. Id. at 274a-299a.
On July 26, 2019, this Court granted the government’s application for a stay of the injunction pending
appeal and, if necessary, certiorari. 140 S. Ct. at 1. The
Court stated that “[a]mong the reasons” for granting
the stay “is that the Government has made a sufficient
showing at this stage that [Sierra Club has] no cause of

10
action to obtain review of the Acting Secretary’s compliance with Section 8005.” Ibid. Justice Breyer concurred in part and dissented in part, and Justices Ginsburg, Sotomayor, and Kagan dissented. Id. at 1-2.
A divided (and different) panel of the court of appeals
later affirmed in the Section 8005 litigation, issuing two
substantially similar opinions addressing Sierra Club’s
challenge and the parallel challenge by California and
New Mexico. See 20-138 Pet. App. 1a-77a (Sierra Club);
id. at 78a-173a (California). The panel majority concluded that Sierra Club “has both a constitutional and
an ultra vires cause of action” to challenge the Section
8005 transfers, based on reasoning analogous to that in
the motions panel’s earlier opinion denying a stay. Id.
at 19a. The majority also concluded that California and
New Mexico have a cause of action under the Administrative Procedure Act (APA), 5 U.S.C. 701 et seq., after
determining that those States’ asserted environmental
and sovereign interests are within the zone of interests
protected by Section 8005. 20-138 Pet. App. 100a-106a.
In both cases, the majority concluded that the challenged transfers did not comply with a proviso in Section 8005. See id. at 17a, 109a-117a. Judge Collins dissented in both cases. Id. at 40a-77a, 119a-173a.
On October 19, 2020, this Court granted the government’s petition for a writ of certiorari to consider the
Ninth Circuit’s judgments in both of the parallel Section
8005 challenges. The questions presented are:
1. Whether [Sierra Club, California, and New
Mexico] have a cognizable cause of action to obtain
review of the Acting Secretary’s compliance with
Section 8005’s proviso in transferring funds internally between DoD appropriations accounts.

11
2. Whether the Acting Secretary exceeded his
statutory authority under Section 8005 in making the
transfers at issue.
20-138 Pet. I.
2. The Section 2808 litigation

a. On December 11, 2019, in a single opinion, the district court granted partial final judgment to Sierra Club
and to California, Colorado, Hawaii, Maryland, New
Mexico, New York, Oregon, Wisconsin, and Virginia
(collectively, the States) in their parallel challenges to
the Section 2808 projects. App., infra, 104a-172a; see
id. at 105a n.1.
The district court first determined that respondents
may “seek equitable relief through an implied cause of
action under the Constitution” to challenge the Section
2808 projects. App., infra, 118a-119a. The court based
that determination on the reasoning of the Ninth Circuit motions panel that had declined to stay the district
court’s earlier injunction—notwithstanding this Court’s
order granting a stay of the same injunction. See id. at
119a-123a. In particular, the district court reasoned
that respondents’ challenge “is ‘fundamentally a constitutional’ claim,” premised on the allegation that expending funds for military construction in violation of Section 2808 would in turn violate the Appropriations
Clause. Id. at 123a (citation omitted). And the court
found that respondents’ asserted “environmental, professional, aesthetic, and recreational interests” are
within the zone of interests protected by the Appropriations Clause. Id. at 124a (citation omitted).
The district court then determined that the challenged projects violate Section 2808 because, in the
court’s view, nine of the projects are not being carried
out with respect to a military installation, as Section

12
2808 requires. App., infra, 136a-144a. 1 The court also
held that, contrary to the judgment of the Secretary of
Defense, the projects are not “necessary” to support the
use of the armed forces, as Section 2808 also requires.
Id. at 145a-151a.
The district court granted Sierra Club’s request for
an injunction and permanently enjoined DoD and DHS
from “using military construction funds appropriated
for other purposes to build a border wall in the” specified project areas. App., infra, 172a. In deference to
this Court’s stay, however, the district court stayed its
Section 2808 injunction pending appeal. Ibid.; see id. at
169a. The court denied the States’ “duplicative request”
for an injunction as “moot,” id. at 157a, and entered partial final judgment under Federal Rule of Civil Procedure 54(b), see App., infra, 169a-171a.
b. The government appealed in both cases, and the
States cross-appealed the denial of their request for an
injunction. App., infra, 9a. The court of appeals consolidated the appeals for briefing and argument. 19-17501
C.A. Doc. 32, at 3 (Jan. 24, 2020). The court also denied
Sierra Club’s request to lift the stay of the Section 2808
injunction. App., infra, 175a-176a.
c. On October 9, 2020, a divided panel of the court of
appeals—the same panel that had decided the earlier
Section 8005 merits appeals—affirmed in the consolidated Section 2808 appeals. App., infra, 1a-64a. Judge
Collins again dissented. See id. at 65a-103a.
The panel majority held that the States have a cause
of action under the APA to challenge the Secretary’s actions. App., infra, 34a. The majority recognized that
Respondents do not dispute that the two Section 2808 projects
occurring on the Barry M. Goldwater Range are being carried out
with respect to a military installation. See App., infra, 51a n.10.
1

13
“Section 2808 constitutes the relevant statute for the
zone of interests test” for that APA claim. Id. at 35a. It
concluded that the zone of interests protected by Section 2808 includes the States’ asserted “economic interests” in the military construction projects from which
the Secretary redirected money to fund the Section 2808
projects. Id. at 37a. The majority also understood this
Court’s decision in Match-E-Be-Nash-She-Wish Band
of Pottawatomi Indians v. Patchak, 567 U.S. 209 (2012),
to establish that “neighbors” are generally within the
zone of interests protected by a statute that “deals with
land use”—a principle it took to support finding that at
least California and New Mexico have a cause of action,
as States neighboring the “border wall construction
projects.” App., infra, 38a. The majority also held that
Sierra Club has a cause of action “under the Appropriations Clause,” ibid., and it reasoned that Sierra Club’s
asserted interests are within the zone of interests protected by the Appropriations Clause, “[t]o the extent”
the zone-of-interests test applies, id. at 40a, because
“Sierra Club is an organization within the United States
that is protected by the Constitution,” id. at 41a.
On the merits, the panel majority concluded that the
Section 2808 projects were not “necessary to support”
the “use of the armed forces,” as the statute requires,
because the projects were purportedly designed only to
make it more “efficient” for the military to assist
“DHS—a civilian law enforcement agency.” App., infra, 46a-47a. The majority declined to defer to the Secretary of Defense’s contrary judgment about military
necessity, stating that the projects were not “actually
necessary” even if they were “designed to improve effectiveness and efficiency.” Id. at 48a. The majority
also agreed with the district court’s conclusion that nine

14
of the projects did not qualify as “military construction”
under Section 2808 because they were not “carried out
with respect to a military installation,” as the statute
requires. Id. at 49a (citation omitted). The majority
recognized that the statute defines a “military installation” to include “a base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military department.” Ibid. (quoting
10 U.S.C. 2801(a) and (c)(4)) (emphasis added). The
government maintained that “the land on which the projects would be built has been brought under military jurisdiction and assigned to a military installation—Fort
Bliss in El Paso, Texas.” Id. at 50a. But the majority
dismissed that assignment as merely an “administrative
convenience,” id. at 52a, insufficient to satisfy Section
2808. The majority further reasoned that the definition
of “military installation” in Section 2801(c)(4) indicates
that any “ ‘other activity’ ” must be “similar to bases,
camps, posts, stations, yards, or centers” in order to
qualify as a military installation, id. at 54a-55a—a limitation the majority found not satisfied here, see id. at
55a-58a.
Judge Collins dissented. App., infra, 65a-103a. Like
the majority, he would have held that respondents have
a cause of action, although he would have located the
cause of action for both Sierra Club and the States
solely in the APA. Id. at 77a-84a. Unlike the majority,
however, he would have held that respondents’ “claims
fail on the merits because DoD properly invoked § 2808
in undertaking these 11 projects.” Id. at 84a. He explained that the projects will be carried out with respect
to “ ‘military installation[s]’ ” because they “involve an
‘activity under the jurisdiction’ of a military Secretary,”
id. at 89a (citation omitted), having been placed under

15
the jurisdiction of the Secretary of the Army as part of
Fort Bliss. See id. at 89a-94a.
Judge Collins would have further held that “the Secretary properly determined that the construction projects here are ‘necessary to support such use of the
armed forces.’ ” App., infra, 97a (citation omitted). He
explained that “necessary” as used in Section 2808 does
not connote “absolutely needed” but rather “ ‘important
or strongly desired.’ ” Id. at 95a (quoting Ayestas v. Davis, 138 S. Ct. 1080, 1093 (2018)). And he found that
standard “easily satisfied” because the President had
declared a national emergency requiring the use of the
armed forces to support DHS at the border and the Section 2808 projects will “permit ‘DoD to provide support
to DHS more efficiently and effectively,’ ” as the Secretary had determined. Id. at 97a.
d. In its opinion, the court of appeals stated that the
district court’s stay of its own injunction pending appeal
“is terminated,” and the court of appeals dismissed a renewed motion to lift the stay, filed by Sierra Club, as
“moot.” App., infra, 62a. Sierra Club subsequently
moved to “clarify” that the court of appeals intended
those directives to take effect before the issuance of the
mandate. 19-17501 C.A. Doc. 112-1, at 1 (Oct. 15, 2020).
The government opposed that motion and filed a crossmotion to stay issuance of the mandate pending the filing and disposition of a petition for a writ of certiorari,
which the government committed to filing by November
18, 2020. 19-17501 C.A. Doc. 113-1, at 1 (Oct. 19, 2020).
The government noted in its cross-motion that, pursuant
to Federal Rule of Appellate Procedure 41(d)(2)(B)(ii),
“such a stay [of the mandate] would then remain in effect until the Supreme Court’s final disposition” of the
petition. 19-17501 C.A. Doc. 113-1, at 15; see Fed. R.

16
App. P. 41(d)(2)(B) (providing that a stay pending certiorari may be extended beyond 90 days by giving notice
to the circuit clerk of the filing of a petition, “in which
case the stay continues until the Supreme Court’s final
disposition”). On October 26, 2020, the court of appeals
denied Sierra Club’s motion and granted the government’s cross-motion to stay the mandate. App., infra,
173a-174a.
REASONS FOR GRANTING THE PETITION

Congress has empowered the Secretary of Defense,
during a national emergency requiring the use of the
armed forces, to authorize “military construction projects * * * not otherwise authorized by law,” funded
through reprioritization of amounts appropriated for
military construction, if the Secretary determines that
the projects “are necessary to support such use of the
armed forces.” 10 U.S.C. 2808(a). After the President
declared a national emergency at the southern border
requiring the use of the armed forces and made Section
2808 available, the Secretary determined that 11 military construction projects to build barriers at the border were necessary to support the use of the armed
forces during the emergency. The court of appeals
erred in holding that respondents have a cause of action
to obtain judicial review of those national-security
spending determinations and further erred in holding
that the Secretary’s determinations exceeded his authority under Section 2808.
The court of appeals’ reasoning with respect to
whether respondents have a cause of action paralleled
the reasoning that the same panel employed in the prior
proceedings involving Sierra Club, California, and New
Mexico. The court concluded there that the plaintiffs
have a cause of action to obtain judicial review of the

17
Secretary’s transfers of funds between DoD appropriations accounts, pursuant to Section 8005 of the DoD Appropriations Act, to fund border-barrier construction
projects undertaken in response to DHS’s request for
counterdrug assistance, see 10 U.S.C. 284(a) and (b)(7).
This Court recently granted the government’s petition
for a writ of certiorari to review the court of appeals’
judgments in those Section 8005 cases. Trump v. Sierra
Club, No. 20-138 (Oct. 19, 2020). The same course is
warranted here. At a minimum, the Court should hold
this petition pending its disposition of the Section 8005
dispute, which is likely to shed significant light on
whether respondents have a viable cause of action.
I. THE DECISION BELOW IS INCORRECT
A. Respondents Lack Any Cause Of Action To Obtain
Judicial Review Of Whether The Secretary Exceeded
His Authority Under Section 2808

Respondents are not proper parties to bring suit
claiming that the Secretary exceeded his authority under Section 2808 in reprioritizing appropriated military
construction funds for the military construction projects he authorized. Respondents cannot invoke any express or implied cause of action to do so because their
asserted interests are not even arguably within the zone
of interests protected by Section 2808. Section 2808 authorizes the Secretary of Defense, in the event of a presidential declaration of a national emergency requiring
the use of the armed forces, to use unobligated military
construction funds to “undertake military construction
projects, not otherwise authorized by law that are necessary to support such use of the armed forces.”
10 U.S.C. 2808(a). The recreational, aesthetic, environmental, and sovereign interests that respondents assert
are entirely outside the contemplation of Section 2808.

18
Nor can respondents avoid that conclusion by invoking
the Appropriations Clause. Respondents have no constitutional claim distinct from their challenge to whether
the Secretary exceeded the statutory authority conferred in Section 2808. In any event, the zone-of-interests requirement would apply no differently to an implied equitable cause of action asserting a violation of the
Appropriations Clause premised on non-compliance with
Section 2808.
1. The “zone-of-interests” requirement limits the
plaintiffs who “may invoke [a] cause of action” authorized by Congress. Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 129-130 (2014). It reflects the common-sense intuition that Congress does
not intend to extend a cause of action to “plaintiffs who
might technically be injured in an Article III sense but
whose interests are unrelated to the statutory prohibitions” they seek to enforce. Thompson v. North Am.
Stainless, LP, 562 U.S. 170, 178 (2011). “Congress is
presumed to ‘legislate against the background of ’ the
zone-of-interests limitation,” which excludes putative
plaintiffs whose interests do not “ ‘fall within the zone of
interests protected by the law invoked.’ ” Lexmark, 572
U.S. at 129 (brackets and citations omitted).
Under this Court’s interpretation of the APA’s express cause of action, 5 U.S.C. 702, a plaintiff ’s asserted
interest need only be “arguably within the zone of interests” of the provision to be enforced; suit is foreclosed
only where the asserted interest is “marginally related
to or inconsistent with the purposes implicit in the [provision].” Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians v. Patchak, 567 U.S. 209, 224, 225
(2012) (citations omitted). But where a plaintiff asserts
an implied cause of action in equity, see Armstrong v.

19
Exceptional Child Ctr., Inc., 575 U.S. 320, 327-328
(2015), this Court has suggested that a heightened zoneof-interests standard applies, requiring the plaintiff to
be the intended beneficiary of the provision to be enforced. See Clarke v. Securities Indus. Ass’n, 479 U.S.
388, 400 n.16 (1987).
Here, under either the APA or an implied cause of
action, respondents are not proper plaintiffs because
their asserted interests are entirely unrelated to their
claim that the Secretary’s determination under Section
2808 violated the statute. Sierra Club has asserted that
construction of fencing and roads on land under military
jurisdiction along the southern border, using military
construction funds made available under Section 2808,
will impair its members’ “environmental, aesthetic, and
recreational interests” in the project areas. App., infra,
41a. The States have asserted that construction of the
challenged military construction projects will harm the
environment in California and New Mexico and will impair the States’ “quasi-sovereign interests” in the enforcement of state law. Id. at 18a, 20a.
Nothing about Section 2808’s text or context suggests that Congress even arguably intended to permit
enforcement of the statute by parties who, like respondents here, assert that the challenged military construction projects would indirectly result in harm to their
recreational, aesthetic, environmental, scientific, or
quasi-sovereign interests. Section 2808 does not require the Secretary to consider those kinds of interests
before using military construction funds. Indeed, it expressly empowers the Secretary to use these funds for
specific types of military construction projects that are
“not otherwise authorized by law” and to do so “without
regard to any other provision of law.” 10 U.S.C. 2808(a).

20
Moreover, Congress conditioned the Secretary’s authority on judgments about national security that are
uniquely within the Executive Branch’s expertise and
that courts and third parties are ill-suited to second
guess—e.g., that the projects “are necessary to support
such use of the armed forces.” Ibid.; see Ziglar v. Abbasi, 137 S. Ct. 1843, 1861 (2017) (cautioning that courts
should be “reluctant to intrude upon the authority of the
Executive in military and national security affairs”) (citation omitted).
Section 2808(b)’s congressional-notification requirement confirms that the statute is primarily, if not exclusively, intended to protect Congress’s interests in the
appropriations process. For example, if Congress disagrees with a particular use of funds under the statute
after receiving notice of it, Congress may enact legislation to prohibit such a use, restrict funding for such projects in future appropriations acts, or modify DoD’s authority under Section 2808.
Permitting any private party who meets the bare
minimum of Article III injury to bring suit to challenge
a project under Section 2808 could often be antithetical
to the interests of Congress. Opportunistic litigation by
private parties (or States) may frustrate the flexibility
that Congress intended to confer in granting Section
2808 authority to the Secretary. Private enforcement
of Section 2808 also runs the risk of excessive courtordered remedies even for minor or technical violations—
which Congress itself may well have viewed as inconsequential, or at least insufficient to warrant the wastefulness of bringing to a halt projects for which funds have
already been expended.
2. The court of appeals erred in holding that the
States satisfy the zone-of-interests requirement for

21
Section 2808. App., infra, 34a-38a. The States contend
that they are within the zone of interests because the
Secretary’s invocation of Section 2808 has led to a diversion of funding from other projects in those States, and
the panel majority concluded that the States are therefore “either the intended beneficiaries of [Section 2808],
or at the very least, their interests are unlikely to frustrate the purpose of the statute.” Id. at 37a. The panel
majority also held that because Section 2808 involves
land use, the States are “neighbors to the use,” id. at
38a (citation omitted), who are within the zone of interests under Patchak, 567 U.S. at 227-228.
Both conclusions are mistaken. Section 2808 allows
only the expenditure of unobligated funds—i.e., funds
for which no prior binding commitment existed. Moreover, even with respect to planned military construction
projects for which funds had not yet been obligated, the
States in which those projects would occur have no particular vested interest in the projects; the funds would
not have gone to the States themselves. And nothing in
the text or context of Section 2808 suggests that Congress intended to permit enforcement of the statute’s
limitations by States who assert that reprioritization of
military construction funds under Section 2808 during a
national emergency would, for example, indirectly diminish the States’ tax revenue. Section 2808 gives the
Secretary broad authority to authorize military construction projects when the Secretary determines that
the projects will meet the needs of the armed forces,
without regard to the effect on any third party’s aesthetic, recreational, or environmental interests. Indeed, Section 2808(a)’s “without regard to” clause expressly authorizes DoD to bypass all other legal

22
requirements—including federal and state environmental statutes—that might otherwise limit DoD’s exercise
of its military construction authority.
The court of appeals’ reliance on this Court’s decision in Patchak was also misplaced. In Patchak, this
Court was careful to identify the particular category of
plaintiffs whose interests were sufficiently related to
the context and purpose of the statute at issue to allow
litigation to enforce the statute’s provisions. The plaintiff there was “a nearby property owner” whose own
property would be damaged by the contemplated use of
nearby land acquired for an Indian tribe to operate a
casino. Patchak, 567 U.S. at 224. Because the “context
and purpose” of the relevant statute served “to foster
Indian tribes’ economic development,” this Court concluded that the statute required the Secretary of the Interior to “take[] title to properties” on behalf of Indian
tribes “with at least one eye directed toward how tribes
will use those lands.” Id. at 226. The Court also emphasized that the governing regulations “require[d] the
Secretary to consider * * * the ‘potential conflicts of
land use which may arise.’ ” Ibid. (quoting 25 C.F.R.
151.10(f )). Only because the government was obligated,
before acquiring land to benefit Indian tribes, to consider potential conflicts that could result from the range
of possible land uses, did the Court conclude that “a
neighboring landowner” was within the zone of interests “to bring suit to enforce the statute’s limits.” Id. at
227. Section 2808 imposes no similar constraints with
respect to neighboring land owners. 2
For similar reasons, Judge Collins erred in concluding, in his
dissenting opinion, that the interests asserted by respondents are
within the zone of interests protected by the limitations in Section
2808 that respondents allege were violated. Judge Collins observed
2

23
3. As for Sierra Club, neither the district court nor
the court of appeals actually determined that its asserted recreational and aesthetic interests in the project areas are within the zone of interests protected by
Section 2808. The lower courts instead reasoned that
Sierra Club has a cause of action under the Appropriations Clause and need only come within the zone of interests protected by that Clause. See App., infra, 38a41a, 123a-124a. That reasoning is fatally flawed.
a. Sierra Club does not and cannot allege any distinct constitutional violation in this case. The Appropriations Clause prohibits expenditures only if not “made
by Law,” U.S. Const. Art. I, § 9, Cl. 7, and thus the gravamen of its claim is necessarily that DoD exceeded the
limits of Section 2808 in using previously appropriated
but unobligated funds for the challenged military construction projects. That claim is nothing more than a
statutory claim recast as a constitutional claim.
The panel majority’s attempt to characterize Sierra
Club’s claim as sounding in the Constitution is contrary
to this Court’s decision in Dalton v. Specter, 511 U.S.
462 (1994). There, the plaintiffs “sought to enjoin the
Secretary of Defense * * * from carrying out a decision
by the President” to close a military facility pursuant to
a federal statute. Id. at 464. The court of appeals had
permitted the suit to proceed on the assumption that
the plaintiffs were effectively seeking “review [of ] a
that, “[o]n its face, § 2808 authorizes the Secretary to undertake
emergency military construction ‘without regard to any other provision of law,’ ” including environmental laws, which he understood
to mean that environmental interests are among the interests protected by Section 2808. App., infra, 82a. But the “without regard
to” clause demonstrates quite the opposite: Congress expressly authorized the Secretary to act without regard to any state or private
interest in the enforcement of environmental laws.

24
presidential decision.” Id. at 467 (citation omitted). After this Court held that the President is not an “agency”
for APA purposes, see id. at 468-469, the court of appeals
adhered to its decision on constitutional grounds—
reasoning, based on Youngstown Sheet & Tube Co. v.
Sawyer, 343 U.S. 579 (1952), “that whenever the President acts in excess of his statutory authority, he also violates the constitutional separation-of-powers doctrine.” Dalton, 511 U.S. at 471.
This Court unanimously rejected that theory. The
Court explained that not “every action by the President,
or by another executive official, in excess of his statutory authority is ipso facto in violation of the Constitution.” Dalton, 511 U.S. at 472. Instead, this Court has
carefully “distinguished between claims of constitutional violations and claims that an official has acted in
excess of his statutory authority.” Ibid. (collecting
cases). The Constitution is implicated if an executive
official relies on it as an independent source of authority
to act, as in Youngstown, or if the official relies on a
statute that itself violates the Constitution. See id. at
473 & n.5. But claims alleging simply that an official has
“exceeded his statutory authority are not ‘constitutional’ claims.” Id. at 473.
The same reasoning fully applies here. This dispute
concerns whether the Secretary “exceeded his statutory authority” in reprioritizing appropriated funds for
the disputed construction projects authorized under
Section 2808, and “no ‘constitutional question whatever’
is raised,” “ ‘only issues of statutory interpretation.’ ”
Dalton, 511 U.S. at 473-474 & n.6 (citation omitted).
The Secretary did not invoke the Constitution as a basis
to transfer funds, and although Sierra Club has argued
that the government’s interpretation of Section 2808

25
would raise constitutional issues, it does not challenge
the constitutionality of Section 2808.
The court of appeals did not discuss Dalton in the
decision below. And the court erred in relying instead
on this Court’s decision in Bond v. United States, 564
U.S. 211 (2011), to support the notion that Sierra Club
may assert a claim directly under the Appropriations
Clause. See App., infra, 39a-40a. In Bond, the defendant in a criminal prosecution raised a separation-ofpowers challenge to the prosecution. 564 U.S. at 222224. The Court did not suggest that the defendant also
had an affirmative cause of action to initiate a suit to
challenge government action. Moreover, the Court emphasized that “[a]n individual who challenges federal
action on [federalism] grounds” is subject to “prudential rules[] applicable to all litigants and claims.” Id. at
225. At the time, the zone-of-interests was characterized
as a “prudential standing rule,” Bennett v. Spear,
520 U.S. 154, 161 (1997), and it remains a generally applicable limitation on the right to sue, Lexmark, 572 U.S.
at 125.
On Sierra Club’s own theory of the case, no violation
of the Appropriations Clause has occurred unless the
Secretary exceeded his authority under Section 2808.
See App., infra, 40a-41a (“Because the diversion of
funds was not authorized by the terms of Section 2808,
it is unconstitutional.”). As the panel majority noted,
“[a]lthough the terms of Section 2808 are different from
Section 8005, Section 2808’s role here is analogous to
the role of Section 8005 in the prior appeal.” Id. at 39a.
Thus, as in the Section 8005 litigation, Dalton is controlling on this issue. Sierra Club’s claim is a statutory
claim, not a constitutional claim.

26
b. In any event, the Appropriations Clause itself
“certainly does not create a cause of action,” Armstrong,
575 U.S. at 325, much less one that lacks a zone-ofinterests requirement. Like the Supremacy Clause—the
provision at issue in Armstrong—the Appropriations
Clause “is silent regarding who may enforce [it] in court,
and in what circumstances they may do so.” Ibid. Rather than flowing from the Appropriations Clause itself,
“[t]he ability to sue to enjoin unconstitutional actions by
* * * federal officers is the creation of courts of equity.”
Id. at 327.
The panel majority was mistaken to suggest that the
zone-of-interests requirement does not “appl[y] at all”
to judicially implied causes of action. App., infra, 40a.
To the contrary, the zone-of-interests requirement is
“ ‘of general application,’ ” reflecting a limitation on appropriate plaintiffs that “Congress is presumed” to intend in authorizing suit in federal court. Lexmark, 572
U.S. at 129 (quoting Bennett, 520 U.S. at 163). This
Court’s statement in Lexmark that the requirement applies to all “statutorily created” causes of action, ibid.,
encompasses judicially implied equitable causes of action, because the equitable powers of federal district
courts are themselves conferred by statute, see Grupo
Mexicano de Desarrollo, S. A. v. Alliance Bond Fund,
Inc., 527 U.S. 308, 318 (1999). Lexmark therefore did
not silently abrogate this Court’s precedents recognizing that the zone-of-interests requirement applies to equitable actions seeking to enjoin constitutional violations. See, e.g., Valley Forge Christian Coll. v. Americans United for Separation of Church & State, Inc., 454
U.S. 464, 469, 475 (1982) (Establishment Clause); Boston Stock Exch. v. State Tax Comm’n, 429 U.S. 318, 320
n.3 (1977) (Dormant Commerce Clause).

27
Implied equitable suits are instead subject to “express and implied statutory limitations,” Armstrong,
575 U.S. at 327, and the zone-of-interests requirement
reflects Congress’s presumed refusal to accept the “absurd consequences [that] would follow” “[i]f any person
injured in the Article III sense by a [statutory or constitutional] violation could sue,” even where the person’s interests are entirely unrelated to the provision
being enforced, Thompson, 562 U.S. at 176-177. Congress would be even less likely to accept such absurd
results under its statutory grant of equity jurisdiction
than under the APA. See Hernandez v. Mesa, 140
S. Ct. 735, 747 (2020) (“It would be ‘anomalous to impute
. . . a judicially implied cause of action beyond the
bounds Congress has delineated for a comparable express cause of action.’ ”) (brackets and citation omitted).
If anything, this Court has indicated that, in light of the
heightened separation-of-powers concerns with judicially implied causes of action, see Abbasi, 137 S. Ct. at
1855-1858, it would be appropriate to apply a more rigorous zone-of-interests standard requiring that the provision at issue be intended for the “especial benefit” of
the plaintiff seeking to enforce it, Clarke, 479 U.S. at
400 n.16 (citation omitted); see Gonzaga Univ. v. Doe,
536 U.S. 273, 283-285 (2002).
c. Finally, neither the Appropriations Clause nor an
equitable “ultra vires” theory alters the conclusion that
the focus of the zone-of-interests requirement is Section
2808. The zone-of-interests requirement must be applied “by reference to the particular provision of law
upon which the plaintiff relies.” Bennett, 520 U.S. at
175-176. The Appropriations Clause provides that appropriations must be “made by Law,” U.S. Const. Art.

28
I, § 9, Cl. 7, and respondents do not dispute that the obligation of funds properly used for military construction
under Section 2808 would satisfy that requirement. Because a violation of Section 2808 is thus a necessary element of their claim, that is the “provision whose violation forms the legal basis for [the] complaint.” Bennett,
520 U.S. at 176 (quoting Lujan v. National Wildlife
Fed’n, 497 U.S. 871, 883 (1990)) (emphasis omitted).
In concluding otherwise, the panel majority ruled
that the constitutionality of the challenged executive action turns on whether the Secretary complied with Section 2808. App., infra, 40a-41a. But that is precisely the
point: whether the Secretary’s conduct was unlawful
turns entirely on his compliance with Section 2808, not
the Appropriations Clause. Sierra Club’s (and the
States’) asserted interests must fall within the zone of
interests protected by Section 2808 to maintain this
suit. They do not.
B. The Secretary Fully Complied With Section 2808

In any event, the court of appeals erred in holding
that the challenged construction violates Section 2808.
In light of the President’s declaration of a national
emergency requiring the use of the armed forces at the
southern border, Section 2808 authorizes the Secretary
to use appropriated but unobligated military construction funds for the 11 projects at issue. Each project will
take place with respect to a military installation, and the
Secretary of Defense has concluded—after consultation
with the Chairman of the Joint Chiefs of Staff—that
these projects are necessary to support the use of the
armed forces deployed in connection with the national
emergency. The court of appeals erred in secondguessing those determinations.

29
1. The panel majority erred in concluding that the
projects were not “military construction” under Section
2808 on the ground that they were not being “carried
out with respect to a military installation.” 10 U.S.C.
2801(a). That phrase “means a base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military department or, in the
case of an activity in a foreign country, under the operational control of the Secretary of a military department or the Secretary of Defense, without regard to the
duration of operational control.” 10 U.S.C. 2801(c)(4).
Two of the projects at issue here will be built on the
Barry M. Goldwater Range, an Air Force and Marine
Corps bombing range, that is indisputably a military installation. Gov’t C.A. E.R. 94. The remaining projects
will be built on land under the jurisdiction of the Secretary of the Army, assigned to and made a part of Fort
Bliss, id. at 75, which is an existing military “base,”
10 U.S.C. 2801(c)(4). Although the project areas are not
contiguous to the existing lands that comprise Fort
Bliss, military installations often include non-contiguous
property. For example, the Special Forces site in Key
West, Florida, is assigned to and therefore part of Fort
Bragg, North Carolina, while the Green River Test
Complex in Utah is assigned to and part of the White
Sands Missile Range in New Mexico. Gov’t C.A. E.R.
69 (listing additional examples). DoD has long administered Fort Bragg and the White Sands Missile Range
as single “military installation[s].” Ibid.
The panel majority dismissed the military assignment of the project areas to Fort Bliss as a mere “administrative convenience” and stated that no “functional nexus” exists here to support the assignment.
App., infra, 52a. But Section 2808 does not require any

30
“functional nexus,” a term that appears nowhere in the
statute. Moreover, even if the lands assigned to Fort
Bliss were not part of a “base,” the term “military installation” includes any “other activity under the jurisdiction of the Secretary of a military department.”
10 U.S.C. 2801(c)(4). While the panel majority read the
phrase “or other activity” to mean something that had
to be akin to a base, camp, post, station, yard, or center,
App., infra, 54a-55a, Judge Collins correctly pointed
out that an “activity” simply refers to “places under military jurisdiction, because activities under military jurisdiction necessarily occur there,” id. at 90a (dissenting opinion). As this Court explained in United States
v. Apel, 571 U.S. 359 (2014), the statutory term “ ‘military installation’ ” is generally “synonymous with the
exercise of military jurisdiction,” id. at 368 (citation
omitted). The project areas are thus military installations as this Court has understood that term.
2. The panel majority also erred in concluding that
the projects were not “necessary” to support the use of
the armed forces for purposes of Section 2808. That
conclusion was based on two mistaken rationales.
First, the panel majority reasoned that the projects
are intended to support DHS, “a civilian agency,” rather than the military. App., infra, 42a. That reasoning
takes an unduly narrow view of the purpose of the projects. The military has long had a role in helping law
enforcement agencies to secure the border. As Judge
Collins observed in his dissenting opinion, “military
support for DHS’s mission is the relevant ‘use of the
armed forces’ that has been declared by the President,”
and “the fact that the construction furthers that mission
weighs decidedly in favor of finding that it is ‘necessary
to support such use of the armed forces.’ ” Id. at 98a

31
(quoting 10 U.S.C. 2808(a)). A federal court does not
“get[] to substitute its own view of when the armed
forces are needed in a national emergency for the view
of the President as stated in [an] emergency declaration.” Ibid.
Second, the panel majority reasoned that “necessary” means “ ‘absolutely needed.’ ” App., infra, 43a (citation omitted). That too was error. The Secretary
found that the projects are “force multipliers” that allow the armed forces to be used more efficiently, Gov’t
C.A. E.R. 92, and his finding satisfies the necessity requirement. As this Court explained in Ayestas v. Davis,
138 S. Ct. 1080 (2018), the term “ ‘necessary’ ” need not
mean “ ‘essential,’ ” and “in ordinary speech, the term is
often used more loosely to refer to something that is
merely important or strongly desired.” Id. at 1093; cf.
Commissioner v. Heininger, 320 U.S. 467, 468, 471 (1943)
(construing the statutory term “ ‘necessary’ ” business
expenses to include expenses that are “appropriate and
helpful” to a business). And imposing a judicially enforceable strict necessity requirement in this context
would be anomalous. The task of assessing how a particular military construction project will benefit military forces during an ongoing deployment is exactly the
kind of judgment that the Secretary is uniquely equipped
to make, and that courts have routinely refused to overrule. See App., infra, 98a (Collins, J., dissenting) (criticizing the panel majority’s interpretation as “rest[ing]
on the implicit view that this court gets to substitute its
own view” of military necessity, and stating that
“[n]othing in § 2808(a) assigns us that task”).
At a minimum, the Secretary’s assessment of military necessity is entitled to substantial deference. See
App., infra, 96a (Collins, J., dissenting) (citing Winter

32
v. Natural Res. Def. Council, 555 U.S. 7, 24 (2008)). The
Secretary of Defense determined that the military construction projects at issue here are important to support the use of the armed forces in connection with the
national emergency, in which DoD is assisting DHS in
securing the southern border. That is all the term “necessary” requires.
II. THE QUESTIONS PRESENTED WARRANT REVIEW

This case warrants further review for the same reasons that supported the Court’s decision to grant review
in the Section 8005 litigation. The decision below conflicts with relevant decisions of this Court. See Sup. Ct.
R. 10(c). As in its earlier Section 8005 decisions, the
panel majority in this case transformed Sierra Club’s
statutory claim into a constitutional violation, contrary
to this Court’s decision in Dalton. As Judge Collins put
it in his dissent, “any such constitutional violations here
can be said to have occurred only if the construction efforts violated the limitations set forth in § 2808.” App.,
infra, 80a. Recognizing a cause of action under the Appropriations Clause itself would also be contrary to this
Court’s decision in Armstrong, which confirmed that
implied suits to enjoin alleged constitutional violations
by public officials are “the creation of courts of equity”
and are therefore subject to “express and implied statutory limitations.” 575 U.S. at 327. As to the States,
nothing in this Court’s precedents supports finding that
a party who objects to the Secretary’s reprioritizing of
appropriated but unobligated military construction
funds is within the zone of interests of the limits of the
statute invoked by the Secretary to authorize his action.
In addition, the decision below, if allowed to stand,
would frustrate the goals of both the President’s declaration of a national emergency that requires the use of

33
the armed forces and also the reprioritization of military construction funds, which the Secretary determined were “necessary to support such use of the armed
forces.” 10 U.S.C. 2808(a). The Secretary found that
these projects will act as “force multipliers” and will
permit more efficient use of the armed forces. Gov’t
C.A. E.R. 92. Whether the Secretary exceeded his authority under Section 2808 when he authorized the projects at issue is a question of significant practical importance to the Executive Branch’s authority to make
decisions concerning military priorities. Accordingly,
the petition for a writ of certiorari should be granted.
At a minimum, given the overlapping issues presented
here and in the Section 8005 litigation concerning
whether the plaintiffs have a cognizable cause of action
to challenge military spending, the Court should hold
this petition for its decision in the Section 8005 case and
then dispose of the petition as appropriate.

34
CONCLUSION

The petition for a writ of certiorari should be granted.
Alternatively, the petition should be held pending disposition of Trump v. Sierra Club, cert. granted, No. 20-138
(Oct. 19, 2020).
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
MATTHEW GUARNIERI
Assistant to the Solicitor
General
H. THOMAS BYRON III
EDWARD HIMMELFARB
MICHAEL SHIH
Attorneys

NOVEMBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-17501
D.C. No. 4:19-cv-00892-HSG
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; MARK T. ESPER,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
DEFENSE; CHAD. F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY;
STEVEN TERNER MNUCHIN, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE TREASURY,
DEFENDANTS-APPELLANTS
No. 19-17502
D.C. No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA; STATE OF COLORADO; STATE OF
HAWAII; STATE OF MARYLAND; STATE OF NEW
MEXICO; STATE OF NEW YORK; STATE OF OREGON;
STATE OF WISCONSIN; COMMONWEALTH OF VIRGINIA,
PLAINTIFFS-APPELLEES,
AND

STATE OF CONNECTICUT; STATE OF DELAWARE; STATE
OF MAINE; STATE OF MINNESOTA; STATE OF NEW
JERSEY; STATE OF NEVADA; STATE OF ILLINOIS; DANA
NESSEL, ATTORNEY GENERAL, ON BEHALF OF THE PEOPLE OF MICHIGAN; STATE OF MASSACHUSETTS; STATE
OF VERMONT; STATE OF RHODE ISLAND,
PLAINTIFFS

(1a)

2a
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES OF AMERICA;
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF DEFENSE; MARK T. ESPER, IN HIS
OFFICIAL CAPACITY AS ACTING SECRETARY OF
DEFENSE; RYAN D. MCCARTHY, IN HIS OFFICIAL
CAPACITY AS THE SECRETARY OF THE ARMY; KENNETH
J. BRAITHWAITE, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE NAVY; BARBARA M. BARRETT,
IN HER OFFICIAL CAPACITY AS SECRETARY OF THE
AIR FORCE; UNITED STATES DEPARTMENT OF THE
TREASURY; STEVEN TERNER MNUCHIN, IN HIS
OFFICIAL CAPACITY AS SECRETARY OF THE
DEPARTMENT OF THE TREASURY; U.S. DEPARTMENT
OF THE INTERIOR; DAVID BERNHARDT, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE INTERIOR; U.S.
DEPARTMENT OF HOMELAND SECURITY; CHAD
F. WOLF, IN HIS OFFICIAL CAPACITY AS ACTING
SECRETARY OF HOMELAND SECURITY,
DEFENDANTS-APPELLANTS
No. 20-15044
D.C. No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA; STATE OF COLORADO; STATE OF
HAWAII; STATE OF MARYLAND; STATE OF NEW YORK;
STATE OF NEW MEXICO; STATE OF OREGON; STATE OF
COMMONWEALTH OF VIRGINIA; WISCONSIN,
PLAINTIFFS-APPELLANTS,
AND

STATE OF CONNECTICUT; STATE OF DELAWARE; STATE
OF MAINE; STATE OF MINNESOTA; STATE OF NEW
JERSEY; STATE OF NEVADA; STATE OF ILLINOIS; DANA
NESSEL, ATTORNEY GENERAL, ON BEHALF OF THE
PEOPLE OF MICHIGAN; STATE OF MASSACHUSETTS;
STATE OF VERMONT; STATE OF RHODE ISLAND,
PLAINTIFFS

3a
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES OF AMERICA;
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF DEFENSE; MARK T. ESPER, IN HIS
OFFICIAL CAPACITY AS ACTING SECRETARY OF
DEFENSE; RYAN D. MCCARTHY, SENIOR OFFICIAL
PERFORMING THE DUTIES OF THE SECRETARY OF THE
ARMY; KENNETH J. BRAITHWAITE, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE NAVY; BARBARA M.
BARRETT, IN HER OFFICIAL CAPACITY AS SECRETARY
OF THE AIR FORCE; UNITED STATES DEPARTMENT
OF THE TREASURY; STEVEN TERNER MNUCHIN, IN
HIS OFFICIAL CAPACITY AS SECRETARY OF THE
DEPARTMENT OF THE TREASURY; U.S. DEPARTMENT
OF THE INTERIOR; DAVID BERNHARDT, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE INTERIOR; U.S.
DEPARTMENT OF HOMELAND SECURITY; CHAD F.
WOLF, IN HIS OFFICIAL CAPACITY AS ACTING
SECRETARY OF HOMELAND SECURITY,
DEFENDANTS-APPELLEES
[Filed:

Oct. 9, 2020]

Appeal from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Before: THOMAS, Chief Judge, and WARDLAW and COLLINS, Circuit Judges
Opinion by Chief Judge SIDNEY R. THOMAS; Dissent by
Judge COLLINS

4a
THOMAS, Chief Judge:
This appeal presents the question of whether the
emergency military construction authority provided by
10 U.S.C. § 2808 (“Section 2808”) authorized eleven border wall construction projects on the southern border of
the United States. We conclude that it did not. We
also consider whether the district court properly granted
the Organizational Plaintiffs a permanent injunction and
whether the district court improperly denied the State
Plaintiffs’ request for a separate permanent injunction.
We affirm the decision of the district court on both
counts.
I
Following the longest partial government shutdown
in United States history, Congress passed the 2019 Consolidated Appropriations Act (“2019 CAA”) on February
14, 2019. Pub. L. No. 116-6, div. A, 133 Stat. 13 (2019).
Although the President requested $5.7 billion for border
wall construction, the 2019 CAA made available only
$1.375 billion “for the construction of primary pedestrian fencing . . . in the Rio Grande Valley Sector [in
Texas].” On February 15, 2019 the President signed the
2019 CAA into law, but announced that he was “not
happy” with the amount of border wall funding he had
obtained. Remarks by President Trump on the National Security and Humanitarian Crisis on Our Southern Border, White House at 12 (Feb. 15, 2019), https://
perma.cc/5SE7-FS7F (“Rose Garden Remarks”).
On the same day, the President invoked his authority
under the National Emergencies Act, 50 U.S.C. § 1601
et seq. (the “NEA”) to declare that “a national emergency exists at the southern border of the United

5a
States.” See Proclamation No. 9844, 84 Fed. Reg.
4,949 (Feb. 15, 2019). The national emergency proclamation also “declare[d] that this emergency requires
use of the Armed Forces,” and made available “the construction authority provided in [Section 2808].” Id.
The President explained that, even though he had obtained some border wall funding, he declared a national
emergency because although he “could do the wall over
a longer period of time” by going through Congress, he
would “rather do it much faster.” Rose Garden Remarks at 12.
Since February 2019, Congress has attempted to terminate the national emergency on two separate occasions. On March 14, 2019, Congress passed a joint resolution to terminate the emergency declaration, but it
was vetoed the next day by the President, and Congress
failed to override the Presidential veto. See H.R.J.
Res. 46, 116th Cong. (2019); 165 Cong. Rec. H2799,
H2814-15 (2019). On September 27, 2019, Congress
passed a second joint resolution to terminate the emergency declaration, but once again, the President vetoed
this resolution, and Congress failed to override the veto.
See S.J. Res. 54, 116th Cong. (2019); 165 Cong. Rec.
S5855, S5874-75 (2019).
Congress has an ongoing obligation to consider
whether to terminate the emergency every six months,
but the President renewed the declaration of a national
emergency on February 13, 2020. Message to Congress on the Continuation of the National Emergency
with Respect to the Southern Border of the United
States, White House (Feb. 13, 2020).

6a
Although the President’s declaration of a national
emergency was issued in February 2019, the administration did not announce that it had made a decision to
divert the funds until September 3, 2019, when the Secretary of Defense announced that it was necessary to divert $3.6 billion from military construction projects to
border wall construction projects.
The Secretary of Defense announced that the funds
would be diverted to fund eleven specific border wall construction projects in California, Arizona, New Mexico,
and Texas. Altogether, the projects include 175 miles
of border wall. The projects fall into three basic categories: (1) two projects on the Barry M. Goldwater
Range military installation in Arizona, (2) seven projects
on federal public domain land that is under the jurisdiction of the Department of the Interior, and (3) two projects on non-public land that would need to be acquired
through either purchase or condemnation before construction could begin. The first two projects would be
built on the Goldwater Range, and “the remaining nine
will be built on land assigned to Fort Bliss, an Army
base,” with its headquarters in El Paso, Texas.
On September 5, 2019, the Secretary of Defense identified which military construction projects the Department of Defense (“DoD”) intended to defer in order to
fund border wall construction. The Secretary authorized the diversion of funding from 128 military construction projects, 64 of which are located within the United
States, and 17 of which are located within the territory
of the Plaintiff States—California, Colorado, Hawai’i,
Maryland, New Mexico, Oregon, Virginia, and Wisconsin

7a
—totaling over $500 million in funds. 1 Pursuant to
Section 2808, the Secretary authorized the Federal Defendants to proceed with construction without complying with environmental laws.
II
The Organizational Plaintiffs in this case, Sierra Club
and the Southern Border Communities Coalition (“SBCC”)
(collectively, “Sierra Club”) and the State Plaintiffs 2
filed separate suits challenging the Federal Defendants’ 3 anticipated diversion of federal funds to fund border wall construction pursuant to various statutory authorities, including Section 2808. See Sierra Club v.
Trump, No. 19-cv-00892-HSG; California v. Trump, No.
19-cv-00872-HSG.
In both cases, the parties first litigated the claims
challenging the Federal Defendants’ transfer of funds
pursuant to Section 8005 and Section 9002 of the Department of Defense Appropriations Act of 2019, Pub. L. No.
115-245, 132 Stat. 2981 (2018) (“Section 8005”)—the
Although there are 19 total defunded projects within the Plaintiff
States, the States only assert harms from 17 of these projects.
2
Specifically, the action was filed by the following states: California, Colorado, Connecticut, Delaware, Hawai’i, Illinois, Maine,
Maryland, Minnesota, Nevada, New Jersey, New Mexico, New York,
Oregon, the Commonwealth of Virginia, and Attorney General Dana
Nessel on behalf of the People of Michigan. The complaint was
later amended to add the following states: Rhode Island, Vermont,
Wisconsin, and the Commonwealth of Massachusetts.
3
Both lawsuits named as defendants Donald J. Trump, President
of the United States, Patrick M. Shanahan, Former Acting Secretary of Defense, Kirstjen M. Nielsen, former Secretary of Homeland
Security, and Steven Mnuchin, Acting Secretary of the Treasury in
their official capacities, along with numerous other Executive Branch
officials (collectively referenced as “the Federal Defendants”).
1

8a
claims that were the subject of the prior appeals considered by this panel. The parties agreed that while litigating the Section 8005 claims, they would stay the summary judgment briefing schedule as to the Section 2808
funds until the Acting Secretary of Defense and U.S.
Customs and Border Protection (“CBP”) reached a final
decision to fund specific border wall projects using Section 2808. The Secretary of Defense reached this final
decision on September 3, 2019, and the Federal Defendants filed a Notice of Decision in both cases pending before the district court.
Nine states, including California, Colorado, Hawai’i,
Maryland, New Mexico, New York, Oregon, Wisconsin,
and the Commonwealth of Virginia (collectively, the
“States”), filed a motion for partial summary judgment
on their Section 2808 claims on October 11, 2019 in California v. Trump. On the same day, Sierra Club filed
a motion for partial summary judgment on its Section
2808 claims in Sierra Club v. Trump.
On December 11, 2019, in a single opinion addressing
the claims of both State and Sierra Club Plaintiffs, the
district court granted summary judgment and a declaratory judgment to the Plaintiffs on their Section 2808
claims with respect to the eleven border wall construction projects. It granted Sierra Club’s request for a
permanent injunction, enjoining “Defendants Mark T.
Esper, in his official capacity as Secretary of Defense;
and Chad F. Wolf, in his official capacity as Acting Secretary of Homeland Security” as well as “all persons acting under their direction” “from using military construction funds appropriated for other purposes to build a
border wall” in the areas identified as “Yuma Project 2;
Yuma Project 10/27; Yuma Project 3; Yuma Project 6;

9a
San Diego Project 4; San Diego Project 11; El Paso Project 2; El Paso Project 8; Laredo Project 5; Laredo Project 7; El Centro Project 5; and El Centro Project 9.”
The district court denied the States’ “duplicative request for a permanent injunction as moot.” However,
the district court sua sponte stayed the Sierra Club permanent injunction pending appeal pursuant to Fed. R.
Civ. P. 62(c). It explained that “the Supreme Court’s
stay of this Court’s prior injunction order appears to reflect the conclusion of a majority of that Court that the
challenged construction should be permitted to proceed
pending resolution of the merits.” Therefore, the district court determined that “the lengthy history of this
action; the prior appellate record; and the pending appeal before the Ninth Circuit on the merits of Plaintiffs’
Section 8005 claim . . . warrant a stay.” The district court properly considered the relevant factors and
certified its order for immediate appeal pursuant to Fed.
R. Civ. P. 54(b).
The Federal Defendants timely appealed the district
court’s grant of summary judgment and declaratory relief to Sierra Club and the States and the grant of a permanent injunction to Sierra Club. The States timely
cross-appealed the district court’s denial of their request for a permanent injunction.
III
We first provide a brief background of the statutory
framework at issue: the National Emergencies Act.
The NEA empowers the President to declare national
emergencies. It states that “[w]ith respect to Acts of
Congress authorizing the exercise, during the period of
a national emergency, of any special or extraordinary

10a
power, the President is authorized to declare such a national emergency.” 50 U.S.C. § 1621(a). The statute
invoked by the Federal Defendants is one such Act of
Congress that authorizes military construction in the
event of a national emergency. 10 U.S.C. § 2808 provides that
In the event of a declaration of war or the declaration
by the President of a national emergency in accordance with the National Emergencies Act (50 U.S.C.
1601 et seq.) that requires use of the armed forces,
the Secretary of Defense, without regard to any
other provision of law, may undertake military construction projects, and may authorize the Secretaries
of the military departments to undertake military
construction projects, not otherwise authorized by law
that are necessary to support such use of the armed
forces.
Although the NEA empowers presidential action in
national emergencies, it also empowers Congress to check
that action. The NEA’s legislative history makes clear
that it was passed to “[e]nsure that the powers now in
the hands of the Executive will be utilized only in time
of genuine emergency and then only under safeguards
providing for Congressional review,” and that it “[was]
not intended to enlarge or add to Executive power.”
The National Emergencies Act (Public Law 94-412),
Source Book: Legislative History, Text, and Other
Documents 50, 292 (1976) (“NEA Source Book”). Instead it was “an effort by the Congress to establish clear
procedures and safeguards for the exercise by the President of emergency powers conferred upon him by other
statutes.” Id. at 292.

11a
As originally enacted, the NEA allowed Congress to
terminate any national emergency declared by the President by concurrent resolution. See Pub. L. 94-412, 90
Stat. 1255, §202(a)(1) (1976) (“Any national emergency
declared by the President in accordance with this title
shall terminate if . . .
Congress terminates the
emergency by concurrent resolution.”). However, the
landmark Supreme Court decision, INS v. Chadha, 462
U.S. 919, 959 (1983), held that concurrent resolutions are
unconstitutional, thus invalidating Congress’s strongest
check on the President’s emergency powers. In response, Congress amended the NEA to allow for the termination of an emergency declaration if “there is enacted into law a joint resolution terminating the emergency.” 10 U.S.C. § 1622(a)(1). Chadha, therefore,
made it more difficult for Congress to check the President’s use of emergency powers than originally intended.
Until now, Chadha had little impact because, prior to
the President’s declaration of a national emergency on
the southern border, Congress had never once voted to
terminate a declaration of a national emergency. Indeed, Section 2808 has only been invoked once to fund
construction on American soil, and it has never been
used to fund projects for which Congress withheld appropriations. Thus, this case operates against the background of the first serious clash between the political
branches over the emergency powers since the passage
of the NEA in 1976. 4

The U.S. House of Representatives is also involved in this litigation as an amicus curiae supporting the Plaintiffs.
4

12a
IV
We first consider whether Plaintiffs are the proper
parties to challenge the Federal Defendants’ actions.
We conclude that Plaintiffs have Article III standing
and a cause of action to challenge the border wall construction projects.
A
Although the Federal Defendants do not challenge
either the States’ or Sierra Club’s Article III standing,
we have “an independent obligation to assure that
standing exists, regardless of whether it is challenged
by any of the parties.” Summers v. Earth Island Inst.,
555 U.S. 488, 499 (2009). In order to establish Article
III standing, a plaintiff must have (1) suffered an injury
in fact, (2) fairly traceable to the challenged conduct of
the defendant, and (3) likely to be redressed by a favorable judicial decision. Lujan v. Defs. of Wildlife, 504
U.S. 555, 560-61 (1992). When there are multiple plaintiffs, “[a]t least one plaintiff must have standing to seek
each form of relief requested in the complaint.” Town
of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct. 1645,
1651 (2017). At summary judgment, a plaintiff cannot
rest on mere allegations, but “must set forth by affidavit
or other evidence specific facts.” Clapper v. Amnesty
Int’l. USA, 568 U.S. 398, 412 (2013) (internal quotations
and citations omitted). However, these specific facts
“for purposes of the summary judgment motion will be
taken to be true.” Lujan, 504 U.S. at 561.
1
The States put forth three different injuries in support of Article III standing. We conclude that border

13a
wall construction will inflict environmental and quasisovereign injuries in fact upon California and New Mexico and economic injuries in fact upon the remaining
states. We conclude that all nine states have standing.
a
California and New Mexico will suffer injuries similar to those asserted in the prior appeals. States are
“entitled to special solicitude in our standing analysis.”
Massachusetts v. EPA, 549 U.S. 497, 520 (2007). As a
quasi-sovereign, a state “has an interest independent of
and behind the titles of its citizens, in all the earth and
air within its domain.” Georgia v. Tenn. Copper Co.,
206 U.S. 230, 237 (1907). Thus, a state may sue to assert its “quasi-sovereign interest in the health and wellbeing—both physical and economic—of its residents in
general.” Alfred L. Snapp & Son, Inc. v. Puerto Rico,
ex rel., Barez, 458 U.S. 592, 607 (1982). In addition,
“[d]istinct from but related to the general well-being of
its residents, the State has an interest in securing observance of the terms under which it participates in the
federal system.” Id. at 607-08.
California will suffer an injury in fact based on its environmental injuries. California asserts that it “has an
interest in the natural resources of [its] State—such as
wildlife, fish, and water—that are held in trust by the
State for its residents and are protected by state and
federal laws.” If construction occurs, “dozens of sensitive plant and animal species that are listed as ‘endangered,’ ‘threatened,’ or ‘rare’ will be seriously at risk,”
and construction will “create environmental harm.”
For instance, the border wall construction projects will
undermine the recovery of several federally listed en-

14a
dangered species and California Species of Special Concern 5 and damage those species’ habitats. San Diego
Project 4 and 11 fall within the California Floristic Province, one of the world’s biodiversity hotspots, which contains plants not found elsewhere in the United States,
construction will likely have detrimental effects on the
Quino Checkerspot Butterfly, the Coastal California
Gnatcatcher, the Western Burrowing Owl, and vernal
pool habitat and species, among other species.
California has adequately set forth facts and other
evidence, which, taken as true, support these allegations
for the purpose of Article III standing. It has demonstrated that border wall construction will injure its environmental interests.
The proposed construction areas for San Diego Projects 4 and 11 “would cut through designated critical
habitat for the endangered Quino Checkerspot Butterfly,” which has “been documented immediately adjacent
to the border fence and on the surrounding slopes to the
north, well within the proposed project area.” The
A species of special concern is “a species, subspecies, or distinct
population of an animal native to California that currently satisfies
one or more of the following (but not necessarily mutually exclusive)
criteria: is extirpated from the State . . . ; is listed as Federally-,
but not State-, threatened or endangered; meets the State definition
of threatened or endangered but has not formally been listed; is experiencing, or formerly experienced, serious (noncyclical) population declines or range retractions (not reversed) that, if continued or
resumed, could qualify it for State threatened or endangered status;
has naturally small populations exhibiting high susceptibility to risk
from any factor(s), that if realized, could lead to declines that would
qualify it for State threatened or endangered species.” CAL. DEPT.
OF FISH AND WILDLIFE, SPECIES OF SPECIAL CONCERN, https://
wildlife.ca.gov/Conservation/SSC.
5

15a
“proposed work, including resurfacing of the roadways
where the butterfly and its host plants have been found,
will crush and bury diapausing larvae and host plant
seed bank in the area,” causing “irreparable harm to the
Quino Checkerspot Butterfly population and its critical
habitat on Otay Mesa.”
Gnatcatchers are found within the project area for
San Diego Project 4, and construction activities “will result in significant displacement of California gnatcatchers into already diminished and limited habitat areas.”
Because the species is “restricted to coastal southern
California in areas of open coastal sage scrub,” and gnatcatcher “territories average approximately 9 acres,”
gnatcatchers affected by construction “will either be required to move or challenge adjacent pairs for their occupied territories,” ultimately resulting in “a substantial
reduction of the population in the area, and irreparable
harm to the species and its habitat.”
San Diego Project 4 would also harm the Western
Burrowing Owl. The owl is “restricted to the western
U.S. and northern Mexico,” owls occur in the project
area, and eastern Otay Mesa, where San Diego Project
4 is expected to occur, “is the last stronghold for the species in the County.” The “loss of both occupied burrows
and foraging habitat [where construction takes place]
will only hasten [the owl’s] decline.” The owl will be
further impacted because it is “especially sensitive to
construction due to [its] unique behavior,” and it is “easily flushed [from its burrows] by adjacent human disturbance or activities.” “Repeated flushing during periods of incubation or while feeding chicks has extremely

16a
negative effects, including cooling of eggs, reduced feeding of chicks, or increased exposure to predators, reducing the percentage of chicks surviving to adulthood.”
San Diego Project 4 will also impact and harm delicate vernal-pool habitats, which are home to a number
of endangered species, like the San Diego Fairy Shrimp.
The landscape “leading to San Diego 4[] supports numerous vernal pools,” and “[s]everal of these pools occur
within and adjacent to dirt roads that will be utilized by
heavy equipment, and where additional grading, vegetation clearing and filling may occur,” which “would damage vernal pools and cause irreparable harm to the fairy
shrimp and other vernal pool species.”
New Mexico will also suffer an injury in fact based on
its environmental injuries. If the New Mexico Projects
are built, they will “impose environmental harm to the
State” and the damage “would include the blocking of
wildlife migration, flooding, and habitat loss.” The
New Mexico Projects will be built primarily in the “Bootheel” of New Mexico in the Animas and Playas Valleys,
an area in southwestern New Mexico that is a “pinch
point for ecological diversity, migration, and dispersal in
the western North American continent.” Border wall
construction “for the New Mexico Projects will create
fragmented habitat and block wildlife corridors for numerous protected species” such as the white-sided jackrabbit, a rare and threatened species under New Mexico
law, and the jaguar, a federally endangered species.
New Mexico has also adequately set forth facts and
other evidence, which, taken as true, support these allegations for the purpose of Article III standing. It has
demonstrated that border wall construction will injure
its environmental interests.

17a
“Currently, the only area that the white-sided jackrabbit . . . inhabits in the United States is in the
Animas and Playas Valleys, where the proposed El Paso
2 and 8 Projects are being constructed.” The “species
is already in distress and its numbers are falling due to
habitat loss and roadkill incidents from U.S. Border Patrol vehicles which increased dramatically after Customs and Border Protection completed road improvements in 2008.” The current population “is estimated
to be 61 hares.” The hares “cross back and forth”
across the US-Mexico border “to avoid predators, and
to access food, water and mates,” but construction
would block crossings because the border wall’s “steel
concrete-filled bollards [are] spaced four inches apart,”
and “jackrabbits cannot fit through the 4-inch gaps.”
El Paso Project 8 and the eastern portion of El Paso
Project 2 block important habitat corridors for the hare,
including “the sole route the hares can utilize to access
habitat on both sides of the border because they cannot
navigate the mountainous terrain that surrounds the
Animas and Playas Valleys.” Construction would therefore “cut off the last remaining population of the whitesided jackrabbit in the United States,” and “[t]he outlook for the jackrabbit’s survival in New Mexico and the
United States [would be] dismal if El Paso 2 and 8 are
built.”
Likewise, “[c]onstruction of El Paso 2 and 8 will also
harm the federally endangered jaguar . . . as both
projects are immediately adjacent to the jaguar’s critical habitat.” Jaguars have been documented in the region, including on “lands that directly adjoin the location
of El Paso 2 Project in the Animas Valley.” “Habitat
connectivity is critical to the jaguar’s survival,” because

18a
“[t]he jaguar’s survival depends on it being able to access habitat on both sides of the U.S.-Mexican border to
access prey, mate and suitable habitat,” but the “El Paso
Projects impede the jaguar’s recovery by blocking a key
wildlife corridor.”
In addition, California will suffer an injury in fact to
its quasi-sovereign interests. California has alleged that
it has “an interest in its exercise of sovereign power over
individuals and entities within the State, including enforcement of its legal code.” The Federal Defendants
ordinarily would have to comply with various California
laws designed to protect public health and the environment to proceed with construction, but Section 2808 authorizes construction “without regard to any other provision of law,” and the Secretary of Defense has explicitly directed that the projects be undertaken “without
regard to any other provision of law that could impede
. . . expeditious construction.” This impacts California’s ability to enforce its state laws, including, among
others, the Porter-Cologne Water Quality Control
Act, Cal. Water Code §§ 13000-16104, the California
Endangered Species Act, Cal. Fish and Game Code
§§ 2050-2089.26, and California’s state implementation
program under the Clean Air Act, see 42 U.S.C.
§ 7506(c)(1). Thus, California will suffer an injury to
its quasi-sovereign interest in enforcing its own laws, interfering with the terms under which it participates in
the federal system.
California has adequately set forth facts and other
evidence, which, taken as true, support these allegations
for the purpose of Article III standing.

19a
Under California law, the California State Water Resources Control Board and nine regional boards establish water quality objectives and standards, and, for the
California Projects, where the discharge of dredged or
fill material into waters of the United States is expected
to occur, a regional board must ordinarily certify compliance with water quality standards. The record indicates that El Centro Projects 5 and 9 and Yuma Project
6 are “to be constructed, at least in part, in areas under
the jurisdiction of the Colorado River Basin Water
Board.” Therefore, absent the use of Section 2808 authority, these projects “could normally not proceed
without a Section 404 dredge and fill permit issued by
the United States Army Corp of Engineers, which would
in turn compel a Section 401 water quality certification”
by the Colorado River Basin Water Board. The record
further indicates that, “[d]ue to their nature and location
of construction, El Centro Projects 5 and 9, and Yuma
Project 6 normally would also require enrollment in the
State Water Board’s statewide [National Pollutant Discharge Elimination System (NPDES) General Permit
for Storm Water Discharges Associated with Construction and Land Disturbance Activities.]”
Additionally, but for the use of Section 2808, the Federal Defendants would be required to comply with the
Endangered Species Act, which protects species threatened, endangered, or of special concern under California
law and allows California to continue implementing habitat conservation agreements with federal agencies that
impose limitations on habitat-severing projects like the
border wall construction projects. The use of Section
2808 therefore undermines California’s ability to enforce the California Endangered Species Act and the

20a
“policy of the state to conserve, protect, restore, and enhance any endangered species or any threatened species
and its habitat.” Cal. Fish & Game Code § 2052.
Likewise, the use of Section 2808 authority undermines California’s enforcement of its air quality standards. In particular, the Clean Air Act prohibits any
construction within California that does not conform to
California’s State Implementation Program (“SIP”).
40 C.F.R. § 93.150(a). Moreover, local air districts with
jurisdiction over the California Project areas enforce
rules to reduce the amount of fine particulate matter
generated from construction projects by requiring those
responsible to develop and implement a dust control
plan. Although the Federal Defendants assert they “will
implement control measures,” implementing control measures is not the same as implementing a complete dust
control plan, and there is no indication that the Federal
Defendants intend to comply fully with California’s air
quality laws.
New Mexico will also suffer an injury in fact to its
quasi-sovereign interests. The Federal Defendants
would ordinarily have to comply with various New Mexico laws designed to protect public health and the environment. Such laws include the dust control plan New
Mexico adopted under the Clean Air Act and its Wildlife
Corridors Act, N.M. Stat. Ann. §§ 17-9-1-17-9-4. Thus,
New Mexico too suffers an injury to its quasi-sovereign
interest in enforcing its own laws, interfering with the
terms under which it participates in the federal system.
New Mexico has adequately set forth facts and other
evidence, which, taken as true, support these allegations
for the purpose of Article III standing.

21a
Absent the use of Section 2808 authority, the Federal
Defendants would normally be required to comply with
New Mexico’s fugitive dust control rule and the High
Wind Fugitive Dust Mitigation Plan that New Mexico
adopted under the Clean Air Act in order to construct
El Paso Project 2. 40 C.F.R. § 51.930(b); see N.M. Admin. Code §§ 20.2.23.109-112 (mandating that “[n]o person . . . shall cause or allow visible emissions from
fugitive dust sources that: . . . pose a threat to public health . . . interfere with public welfare, including animal or plant injury or damage, visibility or the
reasonable use of property” and “[e]very person subject
to this part shall utilize one or more dust control measures . . . as necessary to meet the requirements of
[this section]”). Although the Federal Defendants assert that they plan to implement control measures, they
have not indicated that they intend to be bound in any
way by New Mexico’s law.
Likewise, the Federal Defendants’ use of Section 2808
authority impedes New Mexico’s ability to implement its
Wildlife Corridors Act, which aims to protect large
mammals’ habitat corridors from human-caused barriers such as roads and walls and requires New Mexico
agencies to create wildlife corridors action plans to protect species’ habitat. 2019 N.M. Laws Ch. 97. Several
important wildlife corridors run through, or adjacent to,
the New Mexico Projects in Hidalgo and Luna Counties.
“El Paso Projects 2 and 8 will . . . block habitat corridors,” in these counties for “wildlife species that currently cross back and forth over the border to access
habitat, vegetation, water and other resources.” “[P]articularly when viewed cumulatively with other recent
border-barrier projects such as El Paso Project 1,” the

22a
loss of wildlife corridors will impede species’ “access to
resources necessary for their survival.”
Moreover, the New Mexico Projects will harm species that New Mexico’s laws were enacted to protect,
such as the white-sided jackrabbit, as previously explained. The Projects will bisect important habitats,
impairing the access of the Mexican wolf to those habitats. In sum, California and New Mexico have adequately shown one or more injuries in fact supported by
facts and evidence.
Turning to the causation requirement, we conclude
that California and New Mexico will suffer both environmental and sovereign injuries that are fairly traceable
to the Federal Defendants’ conduct. The declarations
in support of the environmental harms clearly demonstrate how the proposed construction will harm species,
and Section 2808 itself provides the authority for the
Secretary of Defense to override state environmental
laws.
It is also clear that a favorable judicial decision would
redress California and New Mexico’s asserted injuries.
Without Section 2808 authorization, DoD has no authority to undertake border wall construction, and, if construction is prohibited, California and New Mexico will
not suffer the alleged harms. We therefore conclude
California and New Mexico have Article III standing to
challenge the construction projects on their borders.
b
The remaining states assert theories of economic loss
and the loss of tax revenues as the basis for standing.
Economic loss and the loss of tax revenues can be sufficient to establish Article III injury in fact. See, e.g.,

23a
Wyoming v. Oklahoma, 502 U.S. 437, 447 (1992) (holding that the loss of specific tax revenues conferred
standing); City of Oakland v. Lynch, 798 F.3d 1159,
1163-64 (9th Cir. 2015) (recognizing that an expected
loss of tax revenues constitutes a “constitutionally sufficient” injury for Article III standing); City of Sausalito
v. O’Neill, 386 F.3d 1186, 1194, 1198-99 (9th Cir. 2004)
(recognizing financial harm from decreased tax revenues as a cognizable injury). It may be appropriate to
deny standing where a state claims only that “actions
taken by United States Government agencies . . .
injured a State’s economy and thereby caused a decline
in general tax revenues.” Wyoming v. Oklahoma, 502
U.S. at 448 (citing Pennsylvania v. Kleppe, 533 F.2d 668
(D.C. Cir. 1976), cert. denied, 429 U.S. 977 (1976), as an
example). But where there is “some fairly direct link
between the state’s status as a collector and recipient of
revenues and the legislative or administrative action being challenged,” lost tax revenues can support Article
III standing. Kleppe, 533 F.2d at 672.
The States have each individually alleged that the
Section 2808 diversion of funds will result in economic
losses, including lost tax revenues. The loss of tax revenues here is analogous to those in Wyoming v. Oklahoma. There, Wyoming challenged an Oklahoma law
requiring Oklahoma utility companies using coal-fired
generating plants to blend ten percent Oklahoma coal
with their existing coal sources, which had been purchased almost entirely from Wyoming. Id. at 443, 445.
Wyoming did not sell coal directly, but it imposed a severance tax on any person or company extracting coal
from within its borders. Id. at 442. The Supreme
Court agreed that Wyoming had standing because there
was “a direct injury in the form of a loss of specific tax

24a
revenues.” Id. at 448, 451. Here, the States have alleged analogous, direct injuries in the form of lost tax
revenues resulting from the cancellation of specific military construction projects.
Colorado has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of a Space Control Facility at the Peterson Air Force
Base resulting in an estimated loss of $1 million in state
and local tax revenues.
Hawai’i has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of two projects—a consolidated training facility at the
Joint Base Pearl Harbor-Hickam and security improvements at the Marine Corps base at Kaneohe Bay—
resulting in an estimated loss of $2.5 million in state and
local tax revenues.
Maryland has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of three projects—an expansion of cantonment area
roads at Fort Meade, construction of a hazardous cargo
loading and unloading pad and an explosive ordinance
disposal training range at Joint Base Andrews, and construction of a child development center at Joint Base
Andrews—resulting in an estimated loss of $5 million in
state and local tax revenues.
New Mexico also has standing based on its economic
injury and loss of tax revenues because it faces defunding of two projects—the construction of an air combat
training facility for unmanned vehicles at Holloman Air
Force Base and an Information Systems Facility at
White Sands Missile Range—resulting in an estimated
loss of $9 million in state and local tax revenues.

25a
New York has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of two projects—an Engineering Center and Parking
Structure at the U.S. Military Academy at West Point—
resulting in an estimated loss of $13 million in state and
local tax revenues.
Oregon has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of the construction of an indoor small arms training
range at the Klamath Falls International Airport resulting in an estimated loss of $600,000 in state and local tax
revenues.
Virginia has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of four projects—the construction of a cyber operations
facility at Joint Base Langley-Eustis, the replacement
of two different Hazardous Materials Warehouses at
Norfolk Naval Station in Norfolk and the Norfolk Naval
Shipyard in Portsmouth, and the conversion and repair
of a major Ships Maintenance Facility at the Naval Support Station in Portsmouth—resulting in an estimated
loss of $5 million in state and local tax revenues.
Wisconsin has standing based on its economic injury
and loss of tax revenues because it faces the defunding
of the construction of an indoor small arms training
range at Truax Field resulting in an estimated loss of
$600,000 in state and local tax revenues.
The injuries are “fairly traceable” to the Federal Defendants’ conduct. The States have illustrated that
there is a “line of causation between the [Federal Defendants’] action and [their] harm” that is “more than
attenuated.” Wash. Envtl. Council v. Bellon, 732 F.3d

26a
1131, 1141 (9th Cir. 2013) (citation omitted). The States
have illustrated that the lost revenues stem from identifiable projects, directly linking the States’ statuses as
collectors and recipients of revenues to the challenged
actions. Moreover, the States’ expert calculated the
estimated loss of tax revenues with the widely-used
IMPLAN economic model that takes into account specific details about each defunded military construction
project from the Federal Defendants’ own information
regarding each project. The expert’s “analysis conservatively included only projects within the plaintiff states’
boundaries because the diversion of those projects would
have primary effects on the plaintiff states,” and the
analysis did not consider “the secondary effects of defendants’ diversion of military construction projects located in other states and counties,” thus ensuring that
the calculated losses accounted for here are not too attenuated for purposes of Article III.
A favorable judicial decision barring Section 2808
construction would prevent the military construction
funds at issue from being transferred from projects
within the States to border wall construction projects,
thereby preventing the alleged injuries. Therefore,
the States’ losses, as outlined here, satisfy the demands
of Article III standing. We conclude that all nine states
have standing to challenge the border wall construction
projects.
2
Sierra Club and SBCC also have standing. An organization has standing to sue when “its members would
otherwise have standing to sue in their own right,” and
when “the interests it seeks to protect are germane to

27a
the organization’s purpose.” United Food and Commercial Workers Union Local 751 v. Brown Grp., Inc.,
517 U.S. 544, 553 (1996) (quoting Hunt v. Wash. State
Apple Advert. Comm’n, 432 U.S. 333, 343 (1977)). An
organization may also have standing to sue on its own
behalf when it suffers “both a diversion of its resources
and a frustration of its mission.” La Asociacion de
Trabajadores de Lake Forest v. City of Lake Forest, 624
F.3d 1083, 1088 (9th Cir. 2010) (quoting Fair Housing
of Marin v. Combs, 285 F.3d 899, 905 (9th Cir. 2002)).
The organization “must . . . show that it would have
suffered some other injury if it had not diverted resources to counteracting the problem.” Id.
Sierra Club has standing to sue on behalf of its members. It has alleged that the Federal Defendants’ actions will cause particularized and concrete injuries to
its members. Sierra Club has more than 400,000 members in California, over 9,700 of whom belong to its San
Diego Chapter. Sierra Club’s Grand Canyon Chapter,
which covers the State of Arizona, has more than 16,000
members. Sierra Club’s Rio Grande Chapter includes
over 10,000 members in New Mexico and West Texas.
Sierra Club’s Lone Star Chapter, which covers the State
of Texas, has over 26,100 members, more than 440 of
whom live in the Lower Rio Grande Valley.
These members visit border areas such as: the Tijuana Estuary (California), the Otay Mountain Wilderness (California), the Jacumba Wilderness Area (California), the Sonoran Desert (Arizona), Cabeza Prieta
National Wildlife Refuge (Arizona), the Chihuahan Desert (New Mexico), Santa Ana National Wildlife Refuge
(Texas), the Lower Rio Grande Valley National Wildlife
Refuge (Texas), Bentsen-Rio Grande Valley State Park

28a
(Texas), La Lomita Historical Park (Texas), and the National Butterfly Center (Texas).
Sierra Club’s members obtain recreational, professional, scientific, educational, and aesthetic benefits from
their activities along the U.S.-Mexico border, and from
the wildlife dependent upon the habitat in these areas.
The construction of a border wall and related infrastructure will acutely injure these interests because the Department of Homeland Security (“DHS”) is proceeding
with border wall construction without ensuring compliance with any federal or state environmental regulations
designed to protect these interests.
Sierra Club has adequately set forth facts and other
evidence, which, taken as true, support these allegations
for the purpose of Article III standing.
For instance, Sierra Club member Bill Broyles has a
“substantial professional and personal connection to the
lands identified for construction as projects Yuma 2 and
10/27 (on the Goldwater Range) and Yuma 3 (on Cabeza
Prieta).” He has “written and edited several books and
articles on Cabeza Prieta and the Goldwater Range,”
and he “also co-wrote and co-published a visitor’s guide
to the historic trail, El Camino del Diablo, that the proposed wall parallels and crosses, and that would be
harmed by construction vehicle traffic.” He participated in many meetings sponsored by the Range and
Refuge concerning their management plans over the
years. He believes that the “proposed wall is antithetical to [the] successful cooperative efforts of the Range
and Refuge partners,” and it would “desecrate” the historic El Camino del Diablo. He asserts that harm to
wildlife species, “the incessant lighting associated with
the wall and its construction,” and the “attendant noise

29a
and dust” of construction will harm his enjoyment of
these areas.
Sierra Club member Orson Bevins lives near the
U.S.-Mexico border and states that Yuma Sector Project 6 would “fragment” the vista he usually enjoys.
He also states that the “tall and intrusive pedestrian
barrier would disrupt the desert views and inhibit [him]
from fully appreciating this area,” and that a border wall
“would greatly degrade [his] experience visiting and living in this area.”
Richard Guerrero is a Sierra Club member who resides in San Diego, California, and he hikes the trails in
and around the Otay Open Space Preserve “about once
a month,” and “often hike[s] in areas that are within the
sightline of where [he] understand[s] the government
plans to construct San Diego Project 4.” The “wall
would directly impact [his] ability to enjoy recreating in
this area” by adding “a destructive human-created element to this otherwise peaceful open desert landscape.”
Likewise, Sierra Club member Daniel Watman, who
leads “border tours” through the Otay Mountain Wilderness, will be harmed by San Diego Project 4 and San
Diego Project 11. If San Diego Project 4 is built, he will
“no longer be able to lead [his] border tours because the
purpose of the tours—to see nature continuing unimpeded across the border—would be lost.” Moreover,
he enjoys visiting the bi-national town of Tecate, and he
believes “San Diego 11 project would seriously reduce
the enjoyment [he] get[s] from the area, because seeing
this large, out-of-place wall would mar [his] views of the
beautiful mountain range on the American side” and
“cause extensive and possibly irreparable damage to the
native flora” in the area.

30a
Sierra Club member Robert Ardovino “currently recreate[s] in what [he] understand[s] to be the El Paso
Project 2 and 8 areas,” and has “done so for several decades.” He claims that construction will “drastically
change [his] ability to appreciate [the] views” of the
“sprawling vistas near Antelope Wells,” because the
lighting planned for the construction projects “would
completely change the landscape,” and the construction
would harm the species he appreciates while camping,
“permanently ruin[ing]” his “use and enjoyment of these
areas.”
Thomas Miller is a Sierra Club member who works at
Laredo College conducting environmental research with
students in the Rio Grande Valley, and he asserts that
Laredo Project 7 will injure him “professionally, recreationally, and aesthetically.” For the last 15 years, his
“research has largely focused on the now endangered
Texas Hornshell Mussel.” He is “concerned that [Laredo Project 7] and its construction will destroy essential habitat for freshwater mussels and other species of
plants and animals,” because the “construction process
and the existence of a wall would lead to river siltation
when parts of the desert soil and rocks are displaced”
and could potentially lead to “chemicals polluting the
water sources” in the area. Likewise, Jerry Thompson, a Sierra Club member and Professor of History at
Texas A&M International University, whose research
focuses on “Texas history, border history, and the history of the American Civil War” asserts that Laredo
Project 7 “would be extremely detrimental to [his] research and career as it would foreclose [his] ability to do
site visits and visualize the area before writing about it.”
He has written numerous books about the Texas-Mexico
border, has visited the Laredo 7 Project area around

31a
twenty times in the course of his research, intends to return within the next few years to view the section of the
Rio Grande where Laredo 7 project is slated for construction, and “plan[s] to continue to write about the
Texas-Mexico border.”
Carmina Ramirez is a Sierra Club member who “will
be harmed culturally and aesthetically” if construction
proceeds for El Centro Projects 5 and 9 because she has
spent her entire life in the area surrounding the U.S.Mexico Border, including the El Centro Sector, and she
believes that border wall construction would “obstruct
[the] view [of the Valley area],” “divide [her community],” “further militariz[e] the border,” and “drastically
impact [her] ability to enjoy the local natural environment.” Construction will make her “less likely to hike
Mount Signal and enjoy outdoor recreational activities;
and when [she does] undertake those activities, [her] enjoyment of them will be irreparably diminished.”
Lastly, the interests of Sierra Club’s members in this
lawsuit are germane to the organization’s purpose. Sierra Club is “a national organization . . . dedicated
to exploring, enjoying, and protecting the wild places of
the earth; to educating and enlisting humanity to protect
and restore the quality of the natural and human environment; and to using all lawful means to carry out these
objectives.” Sierra Club’s organizational purpose is at
the heart of this lawsuit, and it easily satisfies this secondary requirement.
SBCC has also alleged facts that support its standing
to sue on behalf of itself and its member organizations.
SBCC alleged that, since the Federal Defendants proposed border wall construction, it has had to “mobilize[]
its staff and its affiliates to monitor and respond to the

32a
diversion of funds and the construction caused by and
accompanying the national emergency declaration.”
These “activities have consumed the majority of SBCC
staff’s time, thereby interfering with SBCC’s core advocacy regarding border militarization, Border Patrol lawenforcement activities, and immigration reform,” but it
has had no choice because it “must take these actions in
furtherance of its mission to protect and improve the
quality of life in border communities.”
SBCC has adequately set forth facts and other evidence, which, taken as true, support these allegations
for the purpose of Article III standing. SBCC Director Vicki Gaubeca has confirmed that the border wall
construction projects have “caused [SBCC] to reduce
the time that [it] devote[s] to [its] core projects,” and
“frustrated SBCC’s mission of advancing the dignity
and human rights of border communities.” SBCC has
“been forced to expend resources on countering the
emergency instead of on [its] other initiatives, including
Border Patrol accountability, community engagement
on local health and education issues, and public education about immigration policies more broadly.”
Moreover, Southwest Environmental Center (“SWEC”),
an organization that forms part of the SBCC, has also
been harmed by the proposed construction. SWEC
was founded “to reverse the accelerating loss of plants
and animals worldwide through protection and restoration of native wildlife and their habitats in the southwest,” and it “has been actively involved in restoring riparian and aquatic habitats along the Rio Grande in
southern New Mexico and west Texas. Border wall
construction projects, however, have “required SWEC
to shift its focus to more urgent, defensive campaigns,”

33a
and “[s]taff time and resources that would normally go
towards [its] longer-term restoration efforts to protect
landscapes and wildlife species . . . are instead being channeled to immediate border wall advocacy.”
Without such defensive efforts, however, the wall will
“cause[] irreversible damage to border lands that
SWEC’s members enjoy and cherish.”
The Texas Civil Rights Project (“TCRP”) is also a
member organization of the SBCC and is comprised of
separate programs, including a Racial and Economic
Justice Program, a Voting Rights Program, and a Criminal Justice Reform Program. The “announcement of
imminent land seizure and ‘military construction’ across
52 miles of borderlands in Laredo, Texas has caused and
will continue to cause TCRP to divert scarce resources
in protection of Texas landowners.” TCRP has had to
expand its operations into Laredo, Texas, even though
Laredo is “a substantial distance from the nearest
TCRP office” in Alamo, Texas, and it is “prohibitive to
directly represent anyone in a region where [TCRP]
do[es] not have a physical TCRP office.” TCRP has
had no choice but to take on this additional burden because declining to represent these landowners would undermine the organization’s goal to fight for a “Texas
where all communities thrive with dignity and justice
and without fear.”
These allegations are sufficient to establish that, if
funds are diverted to the border wall construction projects, Sierra Club members and SBCC will suffer injuries in fact.
Sierra Club and SBCC have also shown that such injuries are “fairly traceable to the challenged action[s] of

34a
the [Federal Defendants], and not the result of the independent action of some third party not before the court.”
Mendia v. Garcia, 768 F.3d 1009, 1012 (9th Cir. 2014)
(quoting Bennett v. Spear, 520 U.S. 154, 167 (1997)).
Section 2808 is the statutory authorization for the construction, and it is therefore the direct cause of the alleged injury.
The injury to Sierra Club and SBCC is likely to be
redressed by a favorable judicial decision. The Federal Defendants have no authority to undertake the border wall projects if the Court holds that Section 2808
does not authorize construction. Thus, Sierra Club and
SBCC have established that they satisfy the demands of
Article III standing to challenge the Federal Defendants’ actions.
B
The Federal Defendants assert that the Plaintiffs do
not have a cause of action. We hold that the States
have a cause of action under the APA and Sierra Club
has a constitutional cause of action.
1
The APA provides for judicial review of “final agency
action for which there is no other adequate remedy in a
court.” 5 U.S.C. § 704. Where a statute imposes obligations on a federal agency but the obligations do not
“give rise to a ‘private’ right of action against the federal
government[,] [a]n aggrieved party may pursue its remedy under the APA.” San Carlos Apache Tribe v.
United States, 417 F.3d 1091, 1099 (9th Cir. 2005). The
States must, however, establish that they fall within the
zone of interests of the relevant statute to bring an APA

35a
claim. See Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians v. Patchak, 567 U.S. 209, 224 (2012)
(“This Court has long held that a person suing under the
APA must satisfy not only Article III’s standing requirements, but an additional test: The interest he asserts must be ‘arguably within the zone of interests to
be protected or regulated by the statute’ that he says
was violated.” (quoting Ass’n of Data Processing Serv.
Org., Inc. v. Camp, 397 U.S. 150, 153 (1970))).
Section 2808 does not confer a private right of action.
Instead, like Section 8005, it delegates a narrow slice of
Congress’s power of the purse to DoD so that it can react quickly in the event of a declaration of war or a declaration of a national emergency. In doing so, the statute imposes certain obligations upon DoD—i.e., DoD
cannot invoke Section 2808 except for military construction that is necessary to support the use of the armed
forces in the event of a declaration of a national emergency that requires the use of the armed forces. The
States argue that DoD did not satisfy these obligations,
and therefore, as aggrieved parties, they may pursue a
remedy under the APA, so long as they fall within Section 2808’s zone of interests.
As a threshold matter, Section 2808 constitutes the
relevant statute for the zone of interests test.
“Whether a plaintiff’s interest is ‘arguably . . . protected . . . by the statute’ within the meaning of the
zone-of-interests test is to be determined not by reference to the overall purpose of the Act in question . . .
but by reference to the particular provision of law upon
which the plaintiff relies.” Bennett, 520 U.S. at 175-76
(emphasis added). Because the States invoke Section

36a
2808’s limitations in asserting their APA claim, this statute defines the relevant zone of interests.
The Supreme Court has clarified that, in the APA
context, the zone of interests test does “not require any
‘indication of congressional purpose to benefit the
would-be plaintiff.’ ” Patchak, 567 U.S. at 225 (quoting
Clarke v. Sec. Indus. Ass’n, 479 U.S. 388, 399-400
(1987)). Furthermore, the Court has repeatedly emphasized that the zone-of-interest test is “not ‘especially
demanding.’ ” Lexmark Int’l Inc. v. Static Control
Components, Inc., 572 U.S. 118, 130 (2014) (quoting
Patchak, 567 U.S. at 225). Instead, for APA challenges, a plaintiff can satisfy the test in either one of two
ways: (1) “if it is among those [who] Congress expressly or directly indicated were the intended beneficiaries of a statute,” or (2) “if it is a suitable challenger
to enforce the statute—that is, if its interests are sufficiently congruent with those of the intended beneficiaries that the litigants are not more likely to frustrate than
to further . . . statutory objectives.” Scheduled
Airlines Traffic Offices, Inc. v. Dep’t of Def., 87 F.3d
1356, 1359 (D.C. Cir. 1996) (alterations in original) (citations omitted). “We apply the test in keeping with
Congress’s ‘evident intent’ . . . ‘to make agency action presumptively reviewable,’ ” and note that “the benefit of any doubt goes to the plaintiff.” Patchak, 567
U.S. at 225 (quoting Clarke, 479 U.S. at 399).
Section 2808’s restrictions constrain DoD’s ability to
fund emergency military construction projects while deferring other military construction projects. The Federal Defendants concede as much, noting that the “limitations in the statute at most reflect constraints on the

37a
decision to fund certain projects while deferring others.” 6
The States are suitable challengers to enforce Section 2808’s limitations because they have asserted such
economic interests here and thus they are either the intended beneficiaries of the statute, or at the very least,
their interests are unlikely to frustrate the purpose of
the statute. Absent the invocation of Section 2808, the
States stood to benefit significantly from federal military construction funding. The Federal Defendants diverted funding from 17 separate military construction
projects within the borders of the Plaintiff States, totaling over $493 million. According to the States’ expert,
the diversion of funds “would result in a total of $366
million in total lost business sales within the States for
the next three calendar years, 2020-2022,” even taking
“into consideration the offsetting benefits to the States
caused by the $1.0 billion of U.S. funds that would be
spent in California and New Mexico to build the proposed border barriers.” 7 Moreover, “the gross regional product (GRP) of the States would be reduced by
When considering the analogous role played by Section 8005,
Judge N.R. Smith, in dissent, acknowledged that a plaintiff who suffered an economic injury as a result of a statutory diversion of funds
would likely have a cause of action to challenge whether the diversion satisfied the terms of the statute. See Sierra Club v. Trump,
929 F.3d 670, 715 (9th Cir. 2019) (N.R. Smith, J., dissenting) (“This
statute [Section 8005] arguably protects Congress and those who
would have been entitled to the funds as originally appropriated; and
as a budgetary statute regarding the transfer of funds among DoD
accounts, it arguably protects economic interests.”).
7
Excluding California from this analysis, the expert estimates
that total would be much greater: the total lost business sales within the remaining states would be $789 million.
6

38a
$165 million as a result of this diversion of military
funds,” and the tax revenues for state and local governments would be reduced by over $36 million. Section
2808’s restrictions ensure that, ordinarily, its authority
cannot be used to divert funding for military construction projects unless the construction satisfies certain
criteria. Therefore, the States fall within the statute’s
zone of interests and can enforce its criteria.
Moreover, Patchak establishes that when a statute
deals with land use, the “neighbors to the use” may sue
and their “interests, whether economic, environmental,
or aesthetic, come within [the statute’s] regulatory ambit.” 567 U.S. at 227-28. Here, Section 2808 is a construction statute. It allows the Secretary of Defense to
“undertake military construction projects,” in “the event
of a declaration of war or the declaration by the President of a national emergency.” 10 U.S.C. § 2808. Construction of this sort naturally requires land use, and
California and New Mexico, as border states immediately adjacent to the border wall construction projects,
are quasi-sovereign neighbors to that use and plainly
fall within its zone of interests.
Therefore, the States fall within Section 2808’s zone
of interests and they have a cause of action to challenge
the construction.
2
The Supreme Court’s decision in Bond, and our decisions in McIntosh and the prior Sierra Club appeal, provide ample support that Sierra Club has a cause of action under the Appropriations Clause to challenge the

39a
Federal Defendants’ use of Section 2808 for border wall
construction. 8
“[I]ndividuals, too, are protected by the operations of
separation of powers and checks and balances; and they
are not disabled from relying on those principles in otherwise justiciable cases and controversies.” Bond v.
United States, 564 U.S. 211, 223 (2011). “[B]oth federalism and separation-of-powers constraints in the Constitution serve to protect individual liberty, and a litigant in a proper case can invoke such constraints ‘[w]hen
government acts in excess of its lawful powers.’ ”
United States v. McIntosh, 833 F.3d 1163, 1174 (9th Cir.
2016) (discussing and quoting Bond, 564 U.S. at 222).
“[The Appropriations Clause] constitutes a separationof-powers limitation that [litigants] can invoke to challenge” actions that cause justiciable injuries. Id. at
1175.
Although the terms of Section 2808 are different
from Section 8005, Section 2808’s role here is analogous
to the role of Section 8005 in the prior appeal: Section
2808 permits DoD to fund construction outside the normal appropriations process, if certain criteria are met,
but it operates against the backdrop of the Appropriations Clause. Because, as explained below, we conclude that the Federal Defendants have not satisfied
statute’s criteria, any construction undertaken purportedly using its authority violates the explicit prohibition
of the Appropriations Clause that “[n]o Money shall be

We address only whether Sierra Club has a constitutional cause
of action because Sierra Club did not argue in any detail that it has
a cause of action under the APA in its opening brief.
8

40a
drawn from the Treasury, but in Consequence of Appropriations made by Law. . . . ” U.S. Const. art.1, §
9, cl. 7. Sierra Club has invoked this prohibition.
If the zone of interests test applies at all here, the
Appropriations Clause of the Constitution defines the
zone of interests because it is the “particular provision
of law upon which [Sierra Club] relies” in seeking relief.
Bennett, 520 U.S. at 175-76. Section 2808 is relevant
only because, to the extent it applies, it authorizes executive action that otherwise would be unconstitutional or
ultra vires. That a statute is relevant does not transform a constitutional claim into a purely statutory one.
Sierra Club’s cause of action stems from the Federal Defendants’ violation of the Appropriations Clause because
Sierra Club seeks to enforce the Clause’s express prohibition.
To the extent the zone of interests test ever applies
to constitutional causes of action, it asks only whether a
plaintiff is “arguably within the zone of interests to be
protected . . . by the . . . constitutional guarantee in question.” Boston Stock Exch. v. State Tax
Comm’n, 429 U.S. 318, 320 n.3 (1977) (quoting Data Processing Serv., 397 U.S. at 153). This renders the test
nearly superfluous: so long as a litigant is asserting an
injury in fact to his or her constitutional rights, he has a
cause of action. See ERWIN CHEMERINSKY, FEDERAL
JURISDICTION 112 (7th ed. 2016) (citing LAURENCE
TRIBE, AMERICAN CONSTITUTIONAL LAW 446 (3d ed.
2000)).
Applying that generous formulation of the test here,
Sierra Club falls within the Appropriations Clause’s
zone of interests. Because the diversion of funds was

41a
not authorized by the terms of Section 2808, it is unconstitutional. See City and Cty. of San Francisco v.
Trump, 897 F.3d 1225, 1233-34 (9th Cir. 2018) (“[W]hen
it comes to spending, the President has none of ‘his own
constitutional powers’ to ‘rely’ upon.” (quoting Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 637
(1952) (Jackson, J., concurring)). Sierra Club is an organization within the United States that is protected by
the Constitution. The unconstitutional transfer of funds
here infringed upon Sierra Club’s members’ liberty interests, harming their environmental, aesthetic, and
recreational interests. Thus, Sierra Club falls within
the Clause’s zone of interests and has a cause of action
to challenge the transfers.
V
Next, we consider whether the terms of Section 2808
authorize the challenged border wall construction projects. We conclude that the projects fail to satisfy two
of the statutory requirements: they are neither necessary to support the use of the armed forces, nor are they
military construction projects. Although the statute
supplies other limitations, we do not address them because we conclude that these two limitations are more
than sufficient to render the border wall construction
projects unlawful.
A
Section 2808 allows the Secretary of Defense to undertake military construction projects in the event of a
national emergency requiring the use of the armed forces,
but the statute specifies that such projects must be “necessary to support such use of the armed forces.” The
district court’s analysis is persuasive on this issue, and

42a
we hold that border wall construction is not necessary
to support the use of the armed forces with respect to
the national emergency on the southern border. The
Federal Defendants have not established that the projects are necessary to support the use of the armed
forces because: (1) the administrative record shows
that the border wall projects are intended to support
and benefit DHS—a civilian agency—rather than the
armed forces, and (2) the Federal Defendants have not
established, or even alleged, that the projects are, in
fact, necessary to support the use of the armed forces.
First, the record illustrates that the border wall projects are intended to benefit DHS and its subagencies,
CBP and U.S. Border Patrol (“USBP”), not the armed
forces. The record demonstrates that DoD primarily
considered the many benefits to these civilian agencies
in determining that physical barriers are necessary.
DoD determined that physical barriers would “[i]mprove CBP’s detection, identification, classification, and
response capabilities,” “[r]educe vulnerabilities in key
border areas and the time it takes Border Patrol agents
to apprehend illegal migrants,” “improv[e] CBP force
allocation,” “reduce the challenges to CBP,” “effectively
reduce the enforcement footprint and compress USBP
operations to the immediate border area,” “serve to
channel illegal immigrants towards locations that are
operationally advantageous to DHS,” “enable CBP agents
to focus less on the rugged terrain,” and “give a distinct
and enduring advantage to USBP as a force multiplier.”
To the extent DoD decision-makers believed that
construction would benefit DoD at all, the record demonstrates that the construction is merely expected to help
DoD help DHS. DoD determined that the barriers

43a
would serve as “force multipliers,” by allowing military
personnel to cover other high-traffic border areas without existing barriers, a benefit plainly intended to assist
DHS, which, by statute, is tasked with “[s]ecuring the
borders, territorial waters, ports, terminals, waterways,
and air, land, and sea transportation systems of the
United States.” 6 U.S.C. § 202. Moreover, border wall
construction would “enable more effective and efficient
use of DoD personnel, which could ultimately reduce the
demand for DoD support at the southern border over
time.” Thus, the record makes clear that the primary
objective of border wall construction is to benefit a civilian agency, DHS, and that the construction strives to ultimately eliminate the need for DoD support to DHS altogether.
Second, the Federal Defendants have not even alleged, let alone established as a matter of fact, that the
border wall construction projects are “necessary” under
any ordinary understanding of the word. See MERRIAMWEBSTER ONLINE DICTIONARY (defining “necessary”
as “absolutely needed: required”); OXFORD ENGLISH
DICTIONARY ONLINE (defining “necessary” as “[i]ndispensable, vital, essential”). In assessing the necessity
of the border wall construction projects, the Federal Defendants concluded: “In short, these barriers will allow DoD to provide support to DHS more efficiently and
effectively. In this respect the contemplated construction projects are force multipliers.” Efficiency and efficacy are not synonymous with necessity.
The Federal Defendants contend that “Section 2808’s
reference to necessity does not entail the stringent level
of indispensability,” assumed by the district court, and

44a
they request that the Court adopt a more relaxed definition of the term here. The Federal Defendants cite
United States v. Comstock, 560 U.S. 126, 133-34 (2010),
for the proposition that the word “necessary” “often
means merely” “convenient, or useful,” or “conducive.”
But Comstock provides little support for that proposition. The Court in Comstock considered what powers
were entrusted to Congress by the Necessary and Proper
Clause of the United States Constitution. Examining
the import of the entire clause, the Court observed that
“the Necessary and Proper Clause makes clear that the
Constitution’s grants of specific federal legislative authority are accompanied by broad power to enact laws
that are ‘convenient, or useful’ or ‘conducive’ to the authority’s ‘beneficial exercise.’ ” Comstock, 560 U.S. at
133-34 (quoting M’Culloch v. Maryland, 17 U.S. 316,
413, 418 (1819)). The Court noted that in the specific
context of the Necessary and Proper Clause, “the word
‘necessary’ does not mean ‘absolutely necessary.’ ” Id.
at 134. Contrary to the Federal Defendants’ assertion,
however, the Court in Comstock did not set forth a universal definition of the word “necessary,” but instead,
one narrowly cabined to its constitutional context. The
Federal Defendants provide no reason why we must apply the logic of the Court’s approach in that specific context to the military construction authority at issue here.
The Federal Defendants also cite Commissioner v.
Heininger, 320 U.S. 467, 471 (1943). In Heininger, the
Court interpreted a Revenue Act provision allowing for
the deduction of “ordinary and necessary expenses paid
or incurred during the taxable year in carrying on any
trade or business.” Id. at 468 n.1. There, not only
was the word “necessary” coupled with “ordinary,” suggesting that a more relaxed definition of “necessary”

45a
may be appropriate, but the Court was interpreting the
language of a business expense tax deduction provision.
Within that context, dealing with a statutory provision
intended to foster business development and growth, it
makes sense to interpret the term in a more relaxed
fashion in furtherance of that purpose. Again, the Federal Defendants provide no explanation why Heininger’s
logic applies to the very different statutory context at
issue in this case.
“Necessary” as it appears in Section 2808 is best understood as retaining its plain meaning, which means, at
the very least, “required,” or “needed.” 9 The fact that
border wall construction might make DoD’s support
Ayestas v. Davis, 138 S. Ct. 1080, 1093 (2018) is not to the contrary. In Ayestas, the Supreme Court interpreted the use of the
term “necessary” within the context of 18 U.S.C. § 3599, a statute
that “authorizes federal courts to provide funding to a party who is
facing the prospect of a death sentence and is ‘financially unable to
obtain adequate representation or . . . other reasonably necessary services.’ ” Ayestas, 138 S. Ct. at 1092 (emphasis added). The
Court acknowledged that “necessary” may have one of two meanings: either “essential” or “something less than essential.” Id. at
1093. It concluded that “necessary” carried the latter meaning in
Section 3599 because it would “make[] little sense to refer to something as being ‘reasonably essential.’ ” Id. In other words, the
Court’s interpretation hinged on the fact Section 3599 did not merely
use the standalone term “necessary,” but used the phrase “reasonably necessary.” Thus, here, where “necessary” is a part of no such
statutory phrase, it makes little sense to follow the Court’s approach
in Ayestas. Moreover, Section 3599’s statutory context—the provision of funding to ensure the adequate defense of individuals facing
the prospect of a death penalty—additionally supports the sensibility of a more flexible definition to serve that statutory purpose.
That context is unrelated to emergency military construction authority, however, and so Ayestas does not alter our decision to adopt
the plain meaning of “necessary” here.
9

46a
more efficient and effective does not rise to the level of
“required” or “needed”—and the Federal Defendants
have failed to show that it does. That Congress declined to provide more substantial funding for border
wall construction and voted twice to terminate the President’s declaration of a national emergency underscores
that the border wall is not, in fact, required or needed.
Thus, the Federal Defendants fail to satisfy the statutory requirement that the construction projects be “necessary to support the use of such armed forces.”
The remainder of the Federal Defendants’ arguments do not compel an opposite conclusion. First, the
Federal Defendants assert that the determination of
whether military construction is necessary to support
the use of the armed forces is “committed to the discretion of the Secretary of Defense by law.” They argue
that questions of military necessity turn on “a complicated balancing of a number of factors which are peculiarly within [the Secretary’s] expertise” and that the
Court should defer to such expertise. Heckler v. Chaney,
470 U.S. 821, 831 (1985).
“[T]he claim of military necessity will not, without
more, shield governmental operations from judicial review.” Koohi v. United States, 976 F.2d 1328, 1331 (9th
Cir. 1992). A decision is generally committed to an
agency decision by law only when a court would have “no
meaningful standard against which to judge the agency’s
exercise of discretion.” Perez Perez v. Wolf, 943 F.3d
853, 860 (9th Cir. 2019) (quoting Pinnacle Armor, Inc.
v. United States, 648 F.3d 708, 719 (9th Cir. 2011)).
As we have explained, the Federal Defendants have
simply claimed “military necessity” without more, and

47a
this alone cannot shield their actions from judicial review. Further, as we have noted, the judgment at issue
here is not a military one. The border wall construction projects further the goals of DHS—a civilian law
enforcement agency—and the determination that the
projects are necessary, in any sense, is a law enforcement calculation, not a military one. Such determinations involve distinctly different calculations than those
present in the military deference cases cited by the Federal Defendants, like Gilligan v. Morgan, which involved
the ongoing judicial oversight of the Ohio National
Guard. See Gilligan v. Morgan, 413 U.S. 1, 6 (1973) (considering whether the district court should “assume and
exercise a continuing judicial surveillance over the Guard
to assure compliance with whatever training and operations procedures may be approved by [the] court.”).
The determinations at issue here, while important, are
lawmaking decisions that are “a job for the Nation’s lawmakers, not for its military authorities.” Youngstown,
343 U.S. at 587. Thus, the Federal Defendants cannot
evade judicial review of these determinations by simply
labeling them “military” ones.
What is more, nothing in the language of the statute
suggests that this determination is committed to the discretion of the Secretary of Defense. Here, the phrase
“that are necessary to support such use of the armed
forces,” provides standards against which to judge that
exercise of discretion; as demonstrated above, the statutory language is susceptible to basic statutory interpretation. If Congress had committed these issues to
the unfettered discretion of the Secretary, we would—
of course—defer. But it did not, so it is our task to determine whether the Secretary has complied with the
statutory requirements.

48a
Further, judicial review of statutes conferring specific emergency powers to the President is critical because, as explained by the Senate Committee on Government Operations in passing the NEA, the NEA left “the
definition of when a President is authorized to declare a
national emergency . . . to the various statutes which
give him extraordinary powers.” NEA Source Book at
292. Therefore, the President’s emergency authority
is conferred only by statute. Were we to conclude that
judicial review of such a statute was precluded, the President’s emergency authority would be effectively unbounded, contravening the purpose of the NEA. Thus,
the language of Section 2808 is not only susceptible to
judicial review, but its statutory context requires it.
Alternatively, the Federal Defendants assert that
“[e]ven if the Secretary’s military-necessity determinations were reviewable, this Court . . . should defer
to the Secretary’s conclusion that the challenged projects are necessary to improve the effectiveness and efficiency of DoD personnel deployed to the border.”
But, as we have discussed, it does not follow from the
idea that a project is designed to improve effectiveness
and efficiency that a project is necessary in any ordinary
sense. And absent from the record is any determination by the Secretary that the projects are actually necessary. Under these circumstances, deference, in the
classic administrative law sense, is not appropriate.
In sum, based on the record, we conclude that the construction of the challenged border wall projects does not
comply with the statutory requirements of Section 2808.
Therefore, because the Federal Defendants’ construction exceeds the authority provided by Section 2808 and

49a
is unlawful, and we affirm the declaratory judgment of
the district court.
B
Section 2808 permits the Secretary of Defense to “undertake military construction projects.” Section 2801
defines the term “military construction” “as used in this
chapter or any other provision of law” as “any construction, development, conversion, or extension of any kind
carried out with respect to a military installation,
whether to satisfy temporary or permanent requirements, or any acquisition of land or construction of a defense access road.” 10 U.S.C. § 2801(a). It further
defines “military installation” as “a base, camp, post,
station, yard, center, or other activity under the jurisdiction of the Secretary of a military department.” Id.
at § 2801(c)(4).
Because the border wall construction projects plainly
qualify as “construction,” the key inquiry here is whether
they are being “carried out with respect to a military installation.” “Interpretation of a statute must begin
with the statute’s language.” Rumsey Indian Rancheria of Wintun Indians v. Wilson, 64 F.3d 1250, 1257 (9th
Cir. 1994) (citations omitted). “[S]tatutory language
must always be read in its proper context,” and courts
must look to the “design of the statute as a whole and to
its object and policy,” UMG Recordings, Inc. v. Shelter
Capital Partners LLC, 718 F.3d 1006, 1026 (9th Cir.
2013) (quotations omitted), for “the words of a statute
must be read in their context and with a view to their
place in the overall statutory scheme,” Home Depot
U.S.A., Inc. v. Jackson, 139 S. Ct. 1743, 1748 (2019).

50a
The Federal Defendants make two separate arguments that border wall construction satisfies the requirements of Section 2808 based on one key fact: the land
on which the projects would be built has been brought
under military jurisdiction and assigned to a military
installation—Fort Bliss in El Paso, Texas. First, the
Federal Defendants argue that the individual border
wall construction projects are actually one and the same
as Fort Bliss because according to the Assistant Secretary of the Army, Alex A. Beehler, when a “site is assigned to a military installation for real property accountability purposes,” it “is considered to be part of
that installation, even if remotely located from the Army
Garrison [of that installation].” Alternatively, they argue that because the projects have been brought under
military jurisdiction, the construction projects are “other
activity under the jurisdiction of the Secretary of a military department.” 10 U.S.C. § 2801.
We must, then, determine (1) whether administratively assigning the projects to Fort Bliss renders them
one and the same as Fort Bliss for purposes of the statute, and if not, (2) whether bringing land under military
jurisdiction for real property accountability purposes
renders the border wall “other activity under the jurisdiction of the Secretary of a military department.”
We hold that, for purposes of the emergency construction authority provided by Section 2808, the border
wall construction projects are distinct from Fort Bliss
itself, and that the border wall construction projects at

51a
issue here do not satisfy the meaning of “other activity.” 10
1
Although the border wall construction projects may
be considered part of Fort Bliss for purposes of real
property accounting, we find that a number of reasons
support that the projects should not be considered a
part of Fort Bliss for purposes of Section 2808.
First, we state the most obvious reason why the border wall construction projects need not be considered a
part of Fort Bliss in this context. To begin, the projects are not physically connected to Fort Bliss—on
their face, they are not “part” of that military installation. In fact, most projects are hundreds of miles away
from Fort Bliss.
Moreover, the projects are not functionally part of
Fort Bliss. The Federal Defendants cite no operational
ties between the projects and any of the military activities conducted at Fort Bliss. This is contrary to other
examples of sites which are geographically separate from
the military installation to which they have been assigned. For example, the Federal Defendants highlight that the Green River Test Complex site in Utah is
considered part of the White Sands Missile Range in
New Mexico, even though the two are in different states
and located hundreds of miles apart. But these sites
The Plaintiffs do not challenge that the projects on the Goldwater Range satisfy the definition of “military construction,” and we do
not consider this issue; therefore, our holding is limited only to the
remaining nine construction projects. Our determination that the
funding of the projects is not necessary to support the use of the
armed forces is sufficient to hold all eleven projects unlawful.
10

52a
share a close functional connection. Throughout the
1960s, the military tested Athena missiles by launching
them from the Green River Test Complex to detonate on
the White Sands Missile Range. No such functional
nexus exists, or has even been alleged, here. Although
a functional nexus may not be required for administrative assignment, it matters for purposes of Section 2808.
Additionally, the Federal Defendants cite no other
purpose underlying the administrative assignment, besides pure administrative convenience, that compels the
conclusion that the projects should be considered part
of Fort Bliss for purposes of Section 2808. The Federal Defendants state that the projects were assigned to
Fort Bliss “because it is the largest, most capable active
Army installation in the vicinity of the southern border”;
it “has a sizable existing installation management office”; it has “experience working with the U.S. Army
Corps of Engineers on military construction projects”;
“it is more efficient for command of all the real property
associated with the projects undertaken pursuant to
§ 2808 to be vested in one Army installation”; and it has
an “existing support relationship with the U.S. Border
Patrol.” While these are, of course, practical reasons
for administratively assigning the land to Fort Bliss,
they convey no underlying purpose more significant
than administrative convenience. They signify no reason why the border wall construction projects must be
considered part of Fort Bliss for any reason beyond administrative assignment.
Further, reading the words of Section 2808 “in their
context and with a view to their place in the overall statutory scheme,” it would make little sense to equate the

53a
requirements of Section 2808 with the administrative assignment process in order to conclude that the projects
are a part of Fort Bliss. Home Depot U.S.A., Inc., 139
S. Ct. at 1748. The text of Section 2808 supplies boundaries for the authority provided—such as, that construction be conducted with respect to a military installation,
meaning a base, camp, station, yard, center, or other activity under military jurisdiction. By contrast, there
appear to be no boundaries whatsoever restricting when
the government can administratively assign a geographically distant site to a military installation. The Federal Defendants even specify that “[t]here is no legal,
regulatory, or policy requirement [that] geographically
separate sites . . . be assigned to a ‘nearby’ military
installation,” nor a requirement that the “sites or lands
that comprise a given military installation . . . be located in the same State or within a certain distance of
other sites associated with the military installation.”
And a site may exist as “land only, where there are no
facilities present,” “facility or facilities only, where the
underlying land is neither owned nor controlled by the
government,” or “land and facilities thereon.” To construe the limited text of Section 2808 to incorporate a
wholly unlimited process would be contrary to its structure and context.
Moreover, to construe the statute so broadly would
also be contrary to the purpose of the statutory scheme
of which Section 2808 is a part—the NEA. See Brooks
v. Donovan, 699 F.2d 1010, 1011 (9th Cir. 1983) (rejecting a literal interpretation that “would thwart the purpose of the over-all statutory scheme or lead to an absurd result” (quotations and citations omitted)); see generally NEA Source Book at 50. Because “[t]he National Emergencies Act is not intended to enlarge or add

54a
to Executive power,” it would make little sense to interpret the constrained definition of “military installation”
supplied by Section 2808 to encompass a process with no
limitations whatsoever. NEA Source Book at 292.
This would undoubtedly have the effect of enlarging the
President’s emergency powers because it would allow a
less stringent Executive Branch administrative process
to circumvent the limits of the statutory authority.
This would allow the Executive Branch to undertake any
construction project it wants by merely assigning any
piece of land to a military installation, thus permitting
more construction than authorized by the statute and
granting the President more emergency authority.
2
The Federal Defendants’ second argument fails for
similar reasons. To hold that the border wall construction projects constitute “other activity” under military
jurisdiction would transform the definition of “military
installation” to include not just “other activity,” but “any
activity” under military jurisdiction, contradicting the
text of the statute. The terms “base, camp, post, station, yard, [or] center” supply meaning and provide
boundaries to the term “other activity,” and they are not
mere surplusage. See Yates v. United States, 135 S. Ct.
1074, 1087 (2015) (“Had Congress intended ‘tangible object’ in § 1519 to be interpreted so generically as to capture physical objects as dissimilar as documents and
fish, Congress would have had no reason to refer specifically to ‘record’ or ‘document.’ The Government’s unbounded reading of ‘tangible object’ would render those
words misleading surplusage.”). The Federal Defendants do not explain how the border wall construction
projects are similar to bases, camps, posts, stations,

55a
yards, or centers, and we find that they are not. The
failure to illustrate a connection between the border wall
projects and the other statutory examples is sufficient
to reject this argument because we avoid construing statutes to allow one general word to render specific words
meaningless. See CSX Transp., Inc. v. Ala. Dep’t of
Revenue, 562 U.S. 277, 295 (2011) (“We typically use
ejusdem generis to ensure that a general word will not
render specific words meaningless.”).
The Federal Defendants cite United States v. Apel,
571 U.S. 359, 368 (2014) to support their position, but
this case has limited applicability here, and does not support that “other activities” under military jurisdiction
means “any activity” under military jurisdiction. There,
the Supreme Court analyzed a different statute, which
imposed a criminal fine on anyone who reentered a “military, naval, or Coast Guard reservation, post, fort, arsenal, yard, station, or installation” after being removed
from such a location. See 18 U.S.C. § 1382. The Federal Defendants argue that Apel supports their position
because in interpreting the definition of “military installation,” the Court explained that “ ‘military duty’ and ‘military protection’ are synonymous with the exercise of
military jurisdiction,” and it cited 10 U.S.C. § 2801 as
an example of a statute defining “military installation”
as a “base . . . or other activity under the jurisdiction of the Secretary of a military department.” Apel,
571 U.S. at 368. But this point does not go to the key
issue here—Plaintiffs do not contest that the sites are
under military jurisdiction, but rather, whether they fall
within the parameters of “other activity” under military
jurisdiction, as limited by the other examples provided.
In any event, Apel did not analyze Section 2801 itself.
The context of a criminal trespass statute, is, of course,

56a
different than the context of emergency construction authority, and because “[s]tatutory language must always
be read in its proper context,” it is not clear why Apel’s
definition should apply here. UMG Recordings, Inc.,
718 F.3d at 1026.
If anything, Apel provides support for our reasoning
with respect to the Federal Defendants’ first argument.
Apel undermines the notion that the use, possession, or
control of land—such as through the process of administrative assignment—is central to the inquiry of what
constitutes a military installation. Apel, 571 U.S. at 368.
Instead, Apel emphasizes that in determining what constitutes a military installation, an area’s connection to
military functions plays a significant role. Apel cites
United States v. Phisterer, 94 U.S. 219, 222 (1877), explaining that “there we interpreted ‘military station’ to
mean ‘a place where troops are assembled, where military stores, animate or inanimate, are kept or distributed, where military duty is performed or military protection afforded,—where something, in short, more or
less closely connected with arms or war is kept or is to
be done,’ ” which it reasoned, if anything, “confirms our
conclusion that § 1382 does not require exclusive use,
possession, or control.” Id. (internal quotations and citations omitted). Thus, Apel provides little assistance
to the Federal Defendants, and if anything, bolsters the
Plaintiffs’ interpretation of the statute.
Second, as the district court explained, the Federal
Defendants’ interpretation of “other activities” would
grant them “essentially boundless authority to reallocate military construction funds to build anything they
want, anywhere they want, provided they first obtain ju-

57a
risdiction over the land where the construction will occur.” These arguments are closely related to those
outlined in the previous section, and as explained there,
no restrictions constrain when land can be brought under military jurisdiction. See Section V.B.1. Although the Federal Defendants assert that “the government does not contend that the entire ‘Southern border’
is a military installation,” the Federal Defendants cite
no limit to their interpretation that would prevent them
from making it one. This means that, if we were to adopt
their interpretation of “other activity,” and, as the district court explained, “provided [they] complete the
right paperwork,” the Federal Defendants would be free
to divert billions of dollars from projects funded by congressional appropriations to projects of their own choosing. As demonstrated by this case, this would allow the
Federal Defendants to redirect funds at will without regard for the normal appropriations process. Ordinarily, we reject interpretations with “unnecessarily expansive result[s], absent more explicit guidance or indication from Congress,” and instead, adopt more “rational”
or “natural” readings. Ariz. State Bd. for Charter Sch.
v. U.S. Dep’t of Educ., 464 F.3d 1003, 1008-09 (9th Cir.
2006). For this reason, where there is no guidance or
indication from Congress that such an expansive interpretation is favored, and particularly where doing so
would produce a result contrary to the express will of
Congress, it is untenable for us to adopt such an interpretation.
Finally, to interpret “other activities” so broadly
would run afoul of the constitutional separation of powers, which provide Congress with exclusive control over
appropriations, and of the NEA, which was passed to

58a
“[e]nsure that the powers now in the hands of the Executive will be utilized only in time of genuine emergency
and then only under safeguards providing for Congressional review.” NEA Source Book at 50. Particularly
in the context of this case, where Congress declined to
fund the very projects at issue and attempted to terminate the declaration of a national emergency (twice), we
cannot interpret the statute to give the Executive Branch
unfettered discretion to divert funds to any land it deems
under military jurisdiction. 11 “Presidential powers are
not fixed but fluctuate, depending on their disjunction
or conjunction with those of Congress,” and “[w]hen the
President takes measures incompatible with the expressed or implied will of Congress, his power is at its
lowest ebb.” Youngstown, 343 U.S. at 635, 637 (Jackson, J., concurring). Here, though imperfectly, Congress
has made clear that it does not support extensive border
wall construction. The Federal Defendants’ actions to
the contrary are incompatible with this position, and
therefore, the existing statutory authority provided by
Section 2808 must be construed narrowly. 12 We cannot, and do not, accept the Federal Defendants’ boundless interpretation of what constitutes a “military installation.”
Therefore, we conclude that Section 2808 does not authorize the eleven border wall construction projects.

We do not express a view with respect to whether this is a “real”
national emergency, but instead, we merely construe the statute narrowly in light of Congress’s determinations on the matter.
12
See Kristen Eichensehr, The Youngstown Canon: Vetoed Bills
and the Separation of Powers, 70 DUKE L.J. __ (forthcoming 2021),
available at SSRN: https://ssrn.com/abstract=3680748.
11

59a
VI
The district court held that Sierra Club was entitled
to a permanent injunction enjoining the Federal Defendants “from using military construction funds appropriated for other purposes to build a border wall in the”
project areas challenged in this appeal. We review a
district court’s grant of injunctive relief for abuse of discretion. eBay Inc. v. MercExchange, LLC, 547 U.S.
388, 391 (2006).
A permanent injunction is appropriate when: (1) a
plaintiff will “suffer[] an irreparable injury” absent injunction, (2) available remedies at law are “inadequate,” 13 (3) the “balance of hardships” between the
parties supports an equitable remedy, and (4) the public
interest is “not disserved.” Id. When the government is party to a case, the balance of equities and public
interest factors merge. See Drakes Bay Oyster Co. v.
Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014).
The district court properly considered each of these
elements. It held that Sierra Club suffered irreparable injury because the Federal Defendants’ conduct
“will impede [Sierra Club’s members’] ability to enjoy,
work, and [re]create in the wilderness areas they have
used for years along the U.S.-Mexico border,” and that
the organizations themselves had suffered irreparable
harm as a result of the Federal Defendants’ conduct, because they “have spent resources creating new education, outreach, and monitoring programs related to the
construction projects, rather than on other activities related to their respective missions.” In part, because
The parties do not contest this element, and we do not address
it here.
13

60a
the Federal Defendants “have not pointed to any factual
developments that were not before Congress and that
may have altered its judgment” to appropriate border
wall funding, the district court took the position that the
public interest was best served by “ensuring that the
statutes enacted by . . . representatives are not imperiled by executive fiat,” “by respecting the Constitution’s assignment of the power of the purse to Congress,” and “by deferring to Congress’s understanding
of the public interest as reflected in its repeated denial
of more funding for border barrier construction.” The
district court’s analysis is reasonable and does not indicate that it abused its discretion.
The Federal Defendants’ arguments to the contrary
are unavailing. They contend that the district court
abused its discretion because, in staying the permanent
injunction with respect to the Section 8005 case, the Supreme Court “necessarily determined that the harm to
the federal government from an injunction prohibiting
border-barrier construction outweighs those interests.”
The Federal Defendants do not expand upon this point,
and the Supreme Court’s stay order does not address
the appropriateness of injunctive relief. If anything,
the order alludes only to the merits of Sierra Club’s
cause of action arguments; it contains nowhere a suggestion that the district court abused its discretion in
balancing the equities and weighing the public interest.
See Trump v. Sierra Club, 140 S. Ct. 1 (2019) (mem.)
(stating only that “[a]mong the reasons is that the Government has made a sufficient showing at this stage that
the plaintiffs have no cause of action to obtain review of
the Acting Secretary’s compliance with Section 8005.”).
We cannot read into the order more than its text supports.

61a
The Federal Defendants, as they did in the prior appeal, also argue that Winter v. NRDC, Inc., 555 U.S. 7,
32 (2008), requires that the balance of the equities favors
the government when the public interest in national defense is weighed against a plaintiff ’s ecological, scientific, and recreational interests. Their argument is not
compelling here for the same reasons it was not there.
See Sierra Club v. Trump, 963 F.3d 874, 895-97 (9th Cir.
2020), petition for cert. filed, (U.S. Aug. 7, 2020) (No.
20-138). Even if the government has a “compelling interest[] in safety and in the integrity of [its] borders,”
Nat’l Treasury Emps. Union v. Von Raab, 489 U.S. 656,
672 (1989), “it cannot suffer harm from an injunction
that merely ends an unlawful practice.” Rodriguez v.
Robbins, 715 F.3d 1127, 1145 (9th Cir. 2013) (citing
Zepeda v. INS, 753 F.2d 719, 727 (9th Cir. 1983) (“[T]he
INS cannot reasonably assert that it is harmed in any
legally cognizable sense by being enjoined from constitutional violations.”)). The fact an important interest
is at stake does not permit the government to use unlawful means to further that end. This is evidenced by the
Winter injunction which enjoined conduct otherwise
permitted by law. Winter, 555 U.S. at 18-19.
Winter is further distinguishable because the public
interest there balanced “mission-critical,” id. at 14,
technology used for the Pacific Fleet’s “top warfighting
priority,” id. at 12, against possible “harm to an unknown number of marine mammals,” id. at 26. By contrast, the Federal Defendants here have cited no such
critical interest at stake, and the permanent environmental and economic harms to the Plaintiffs are far more
serious and far less speculative than those alleged in
Winter.

62a
Finally, the Federal Defendants challenge the district court’s reasoning that “by enacting the Consolidated Appropriations Act, Congress had already balanced the equities in plaintiffs’ favor” because “the CAA
did not prohibit DoD from relying on separate and preexisting statutory authorities to spend its own previously
appropriated funds on border barriers.” This argument is unavailing because the budgetary standoff, government shutdown, and the resulting 2019 CAA clearly
indicate that Congress determined that the interests of
the entire country did not favor funding more expansive
border wall construction. While this determination
might be broader than the balance of equities between
the parties here, it certainly incorporates them, and the
district court did not abuse its discretion by giving weight
to Congress’s judgment in its own analysis.
We therefore affirm the permanent injunction granted
to Sierra Club. Given that we have resolved the merits
of this appeal, the district court’s stay pending appeal is
terminated, and we dismiss Sierra Club’s emergency motion to lift the stay pending appeal as moot.
VII
The district court denied the States’ request for a
separate permanent injunction enjoining the Federal
Defendants’ use of Section 2808 for border wall construction as duplicative and moot. This Court reviews
a district court’s denial of injunctive relief for an abuse
of discretion. eBay Inc., 547 U.S. at 391. “An abuse
of discretion is a plain error, discretion exercised to an
end not justified by the evidence, a judgment that is
clearly against the logic and effect of the facts as are
found.” Rabkin v. Or. Health Sci. Univ., 350 F.3d 967,
977 (9th Cir. 2003) (citations and quotations omitted).

63a
The district court did not abuse its discretion. It
held that “[b]ecause . . . the Court finds that Sierra
Club Plaintiffs have established that a permanent injunction is warranted as to all eleven proposed projects,
the Court denies State Plaintiffs’ duplicative request for
a permanent injunction as moot.” Injunctive relief is
an equitable remedy, and “an award of an injunction is
something that a plaintiff is generally not entitled to as
a matter of right.” 42 Am. Jur. 2d Injunctions § 14
(2020). “Even if facts justifying an injunction . . .
have been proven, a court must still exercise its discretion to decide whether to grant an injunction.” Id.
Here the district court did not abuse this discretion because it granted Sierra Club a permanent injunction enjoining the construction of the same border wall projects
challenged by the States. Although it subsequently
stayed that injunction, it did so because of a Supreme
Court stay imposed in a prior appeal which was based
on, conceivably, a similar legal issue.
Therefore,
though we might weigh the considerations present in
this case differently, we hold that the district court did
not abuse its discretion in denying the States injunctive
relief.
VIII
Although we recognize that in times of national emergency we generally owe great deference to the decisions
of the Executive, the particular circumstances of this
case require us to take seriously the limitations of the
text of Section 2808 and to hold the Executive to them.
The “power to legislate for emergencies belongs in the
hands of Congress.” Youngstown, 343 U.S. at 654 (Jackson, J., concurring). We cannot “keep power in the
hands of Congress if it is not wise and timely in meeting

64a
its problems,” id., but where, as here, Congress has
clung to this power with both hands—by withholding
funding for border wall construction at great effort and
cost and by attempting to terminate the existence of a
national emergency on the southern border on two separate occasions, with a majority vote by both houses—
we can neither pry it from Congress’s grasp. For all
“its defects, delays and inconveniences,” it remains critical in all areas, but particularly with respect to the
emergency powers, that “the Executive be under the
law, and that the law be made by parliamentary deliberations.” Id. at 655. We reject Justice Jackson’s contention that “[s]uch institutions may be destined to pass
away,” id., particularly given the actions of Congress as
relate to this case. We agree, however, that it must always be “the duty of the Court to be last, not first, to
give them up.” Id.
We affirm the judgment of the district court. We
hold that the States and Sierra Club both have Article
III standing and a cause of action to challenge the Federal Defendants’ border wall construction projects, that
Section 2808 did not authorize the challenged construction, and that the district court did not abuse its discretion in either granting a permanent injunction to Sierra
Club or in denying a separate permanent injunction to
the States. 14
AFFIRMED.

Because we conclude that the projects are unlawful because they
are not authorized by Section 2808, we do not reach Plaintiffs’ arguments with respect to Section 739 of the 2019 CAA.
14

65a
COLLINS, Circuit Judge, dissenting:
We once again consider challenges to the Department of Defense’s construction of border barriers and
related infrastructure along our southern border. See
Sierra Club v. Trump, 963 F.3d 874 (9th Cir. 2020); California v. Trump, 963 F.3d 926 (9th Cir. 2020). In this
second round of appeals from the same underlying lawsuits, the Government appeals the district court’s grant
of declaratory and permanent injunctive relief barring
the use of “military construction funds appropriated for
other purposes to build a border wall” in 11 specified
project areas. Two distinct groups of litigants constitute the Plaintiffs in these appeals (collectively, “Plaintiffs”): (1) the Sierra Club and the Southern Border
Communities Coalition (“SBCC”) (collectively, the “Organizations”) and (2) nine states led by California and
New Mexico (collectively, the “States”). 1 In the partial
judgments under review, the district court granted summary judgment and declaratory relief to the Plaintiffs,
concluding that the emergency military construction authority granted by 10 U.S.C. § 2808 did not authorize the
challenged use of funds. However, the district court
granted permanent injunctive relief only to the Organizations and denied the States’ request for such relief.
The majority concludes that both the Organizations
and the States have Article III standing; that the States
have a cause of action to challenge the construction projects under the Administrative Procedure Act (“APA”)
and that the Organizations have a cause of action under
The nine States are California, New Mexico, Colorado, Hawaii,
Maryland, New York, Oregon, Virginia, and Wisconsin. California
and New Mexico had likewise taken the lead in the prior appeals.
1

66a
the Appropriations Clause of the Constitution; that the
construction projects are unlawful; and that the district
court properly determined that the Organizations are
entitled to declaratory and injunctive relief while the
States are entitled to only declaratory relief. I agree
that at least the Sierra Club, California, and New Mexico have established Article III standing, and I conclude
that they have a cause of action to challenge the construction projects under the APA. But in my view the
construction projects are lawful. Accordingly, I would
reverse the district court’s partial judgments and remand for entry of partial summary judgment in favor of
the Defendants. I respectfully dissent.
I

Although these appeals arise from the same underlying lawsuits as the prior appeals, the particular dispute
at issue here involves a different statutory framework
and a distinct procedural history. Before turning to
the merits, I will briefly review both that framework and
that history.
A

Under the National Emergencies Act, 50 U.S.C. § 1601
et seq., the President may formally declare a “national
emergency,” thereby triggering the potential exercise
of emergency powers set forth in various other statutes.
See 50 U.S.C. § 1621(a). Among those emergency powers is the authority to “undertake military construction
projects,” but that authority may be invoked only if the
President specifically declares a national emergency
“that requires use of the armed forces.” 10 U.S.C.
§ 2808(a). On February 15, 2019, the President did just
that, “declar[ing] that a national emergency exists at the

67a
southern border of the United States” and “that this emergency requires use of the Armed Forces.” See Proclamation No. 9844, 84 Fed. Reg. 4949, 4949 (Feb. 20, 2019).
As the President’s Proclamation explained, the Department of Defense (“DoD”) was already providing “support and resources” to the Department of Homeland Security (“DHS”) “at the southern border,” and “additional support,” including military personnel and logistical support, was necessary “to address the crisis.” Id.
In light of this declaration, the Secretary of Defense
was authorized to “undertake military construction projects . . . not otherwise authorized by law that are
necessary to support such use of the armed forces.”
10 U.S.C. § 2808(a). On September 3, 2019, the Secretary of Defense issued a memorandum expressly invoking that authority in deciding to undertake 11 specified
“border barrier military construction projects.” “Based
on analysis and advice from the Chairman of the Joint
Chiefs of Staff and input from the Commander, U.S.
Army Corps of Engineers, the Department of Homeland
Security (DHS), and the Department of the Interior,”
the Secretary determined that these “11 military construction projects along the international border with
Mexico, with an estimated total cost of $3.6 billion, are
necessary to support the use of the armed forces in connection with the national emergency.” The Secretary
stated that, because “[t]hese projects will deter illegal
entry, increase the vanishing time of those illegally crossing the border, and channel migrants to ports of entry,”
the projects would support the use of the armed forces
by “reduc[ing] the demand for DoD personnel and assets at the locations where the barriers are constructed
and allow[ing] the redeployment of DoD personnel and
assets to other high-traffic areas on the border without

68a
barriers.” “In this respect,” the Secretary explained,
“the contemplated construction projects are force multipliers.”
Section 2808 further provides that the Secretary may
undertake emergency military construction projects
“without regard to any other provision of law.” 10 U.S.C.
§ 2808(a). Accordingly, the Secretary’s memorandum
included the additional directive that the Acting Secretary of the Army was to “expeditiously” undertake the
11 projects “without regard to any other provision of law
that could impede such expeditious construction in response to the national emergency,” including “the National Environmental Policy Act, the Endangered Species Act, . . . [and] the Clean Water Act.”
The 11 projects authorized by the Secretary contemplated a total of 175 miles of border-barrier construction. They include two projects on the Barry M. Goldwater Range (a military installation in Arizona), seven
projects on federal public-domain land, and two projects
on non-public land that would need to be acquired through
either purchase or condemnation. Because the latter
nine projects, unlike the first two, were to be on land
that was not then within any military installation, the
Secretary’s memorandum ordered the Department of
the Army to “add such land to the Department of the
Army’s real property inventory, either as a new installation or as part of an existing military installation.”
The Army subsequently designated the land for the latter nine projects as under the jurisdiction of the U.S.
Army Garrison Fort Bliss, which is in Texas.
Section 2808(a) further provides that emergency military construction “may be undertaken only within the
total amount of funds that have been appropriated for

69a
military construction, including funds appropriated for
family housing, that have not been obligated.” 10 U.S.C.
§ 2808(a). Moreover, when the emergency military construction authority is invoked, the Secretary must notify
the appropriate congressional committees of “the decision and of the estimated cost of the construction projects.” Id. § 2808(b). In providing that notice, the
Secretary stated that the “estimated total cost” of the 11
projects was $3.6 billion. The Secretary further stated
that the necessary funds would be obtained by deferring
“military construction projects that are not scheduled
for award until fiscal year 2020 or later,” and that the
first $1.8 billion of funding would come from the deferral
of certain projects “outside of the United States.” Only
after that would funds be obtained by deferring other
construction projects within the United States. In an
additional memorandum to other DoD officials, the Secretary identified the 128 specific projects that were slated
to be deferred. Forty-three of those projects were located in U.S. States, 21 in U.S. territories, and 64 were
overseas. Of the 43 deferred projects in U.S. States, 19
of them were located in the nine States that are parties
to this appeal. 2

On April 29, 2020, Defendants “provided[d] notice [to the district
court] of recent changes to the funding sources for the eleven border
barrier military construction projects the Secretary of Defense decided to undertake on September 3, 2019, pursuant to 10 U.S.C.
§ 2808.” Specifically, on April 27, 2020, the Secretary of Defense
authorized adjustments to the funding of the projects. Twenty-two
projects located in U.S. States were removed from the deferred projects list, and substitute funds were to be drawn from other sources.
In light of these funding changes, DoD is no longer deferring projects in Colorado, Hawaii, and New York.
2

70a
B

After the President’s emergency declaration, but before DoD formally invoked its emergency military construction authority, the Organizations filed an action in
the district court against the Acting Defense Secretary,
DoD, and a variety of other federal officers and agencies. In their March 18, 2019 First Amended Complaint, they sought to challenge, inter alia, any projects
undertaken by the Secretary under § 2808. California
and New Mexico, joined by several other States, filed a
similar action, and their March 13, 2019 First Amended
Complaint also sought to challenge any such projects.
The Plaintiffs’ respective complaints also separately
challenged certain other border-barrier projects undertaken with funds derived from DoD’s transfers of funds
pursuant to §§ 8005 and 9002 of the Department of Defense Appropriations Act, 2019 (“DoD Appropriations
Act”), Pub. L. No. 115-245, Div. A, 132 Stat. 2981, 2999,
3042 (2018). The litigation of those distinct challenges
proceeded (resulting in the opinions we issued in the
prior appeals), but the parties agreed to stay the summary judgment briefing schedule as to any claims involving § 2808 until the Secretary of Defense made a final decision as to the use of § 2808 to undertake military
construction projects.
After the Secretary of Defense reached that final decision on September 3, 2019, as explained above, the parties filed cross-motions for summary judgment. On
October 11, 2019, the Organizations moved for partial
summary judgment on the ground that DoD’s invocation
of § 2808 was unlawful, and the Organizations requested
declaratory relief and a permanent injunction against

71a
the use of § 2808 to carry out the 11 construction projects. The States filed a comparable summary judgment
motion that same day. Although that motion sought injunctive and declaratory relief against any deferral of
funding for projects in the nine States, it only sought direct relief against the border-wall construction itself
with respect to the subset of seven construction projects
that were to be undertaken in California and New Mexico. Defendants filed cross-motions for summary judgment on the legality of DoD’s construction efforts under
§ 2808 with respect to the corresponding projects at issue in each case.
On December 11, 2019, the district court granted partial summary judgment and declaratory relief to both
the Organizations and the States, concluding that DoD’s
construction efforts under § 2808 were unlawful. The
court granted permanent injunctive relief to the Organizations against all 11 projects, and in light of this grant
of injunctive relief, it denied the States’ “duplicative request for a permanent injunction as moot.” The district court denied Defendants’ cross-motions for summary judgment in both cases. The district court stated,
however, that it construed “the Supreme Court’s stay of
this Court’s prior injunction order”—which was the subject of the prior appeals—as “reflect[ing] the conclusion
of a majority of that Court that the challenged construction should be permitted to proceed pending resolution
of the merits,” and the district court therefore sua sponte
stayed the permanent injunction pending appeal pursuant to Federal Rule of Civil Procedure 62(c). Invoking
its authority under Federal Rule of Civil Procedure
54(b), the district court entered partial judgments in favor of both the Organizations and the States.

72a
II

The Government has not contested the Article III
standing of the Plaintiffs in its merits briefs on appeal,
but as the majority notes, “we have ‘an independent obligation to assure that standing exists, regardless of
whether it is challenged by any of the parties.’ ” See
Maj. Opin. at 14 (quoting Summers v. Earth Island
Inst., 555 U.S. 488, 499 (2009)). As “an indispensable
part of the plaintiff’s case, each element” of Article III
standing “must be supported in the same way as any
other matter on which the plaintiff bears the burden of
proof, i.e., with the manner and degree of evidence required at the successive stages of the litigation.” Lujan
v. Defenders of Wildlife (Lujan v. Defenders), 504 U.S.
555, 561 (1992). Thus, although well-pleaded allegations are enough at the motion-to-dismiss stage, they
are insufficient to establish standing at the summaryjudgment stage. Id. “In response to a summary judgment motion, . . . the plaintiff can no longer rest on
such mere allegations, but must set forth by affidavit or
other evidence specific facts, which for purposes of the
summary judgment motion will be taken to be true.”
Id. (simplified). In reviewing standing sua sponte in
the context of cross-motions for summary judgment, it
is appropriate to apply the more lenient standard that
takes the plaintiffs’ evidence as true and then asks
whether a reasonable trier of fact could find Article III
standing. Lujan v. Defenders, 504 U.S. at 563 (applying this standard in evaluating whether Government’s
cross-motion for summary judgment should have been
granted); see also California v. Trump, 963 F.3d at 954
(Collins, J., dissenting).

73a
In their briefs below concerning the parties’ crossmotions, the Plaintiffs asserted a variety of theories as
to why they have standing. The Sierra Club and SBCC
each asserted that Defendants’ allegedly unlawful conduct would cause harm to their members’ recreational,
aesthetic, and environmental interests. California and
New Mexico asserted that Defendants’ allegedly unlawful construction activities within their borders would
cause both harm to the States’ sovereign interests in enforcing their environmental laws as well as actual environmental harm to animals and plants within the States.
And all the States, except California, asserted that Defendants’ deferral of funding for military construction
projects located in those States would cause financial
harm to the States in the form of a loss of economic activity and tax revenues. Accepting the Plaintiffs’ evidence as true, and drawing all reasonable inferences in
their favor, a reasonable trier of fact could conclude that
at least the Sierra Club has standing in the Organizations’ suit and that at least California and New Mexico
have standing in the States’ suit. 3
A

The Sierra Club has presented sufficient evidence to
demonstrate that it has associational standing under
Hunt v. Washington State Apple Advert. Comm’n, 432
U.S. 333 (1977). Under the Hunt test, an association
has standing if “(a) its members would otherwise have
None of the Plaintiffs addressed Article III standing when they
moved for partial summary judgment, nor did the district court address Article III standing in its ruling. However, Plaintiffs’ evidentiary showing of injury in support of a permanent injunction provides
a sufficient basis for evaluating their Article III standing. See California v. Trump, 963 F.3d at 954 n.4 (Collins, J., dissenting).
3

74a
standing to sue in their own right; (b) the interests it
seeks to protect are germane to the organization’s purpose; and (c) neither the claim asserted nor the relief
requested requires the participation of individual members in the lawsuit.” Id. at 343. The Sierra Club has
presented sufficient evidence as to each of these three
requirements.
To establish that its members would suffer irreparable harm absent a permanent injunction, the Sierra Club
presented declarations from members who regularly
visit each of the 11 respective project areas. These members described how the construction and the resulting
border barriers would interfere with their enjoyment of
the surrounding landscape and would impede their ability to camp, to hike, to hunt, to monitor wildlife, and to
participate in other related activities near the project
sites. These injuries to the members’ recreational,
aesthetic, and environmental interests are sufficient to
constitute an injury in fact for Article III purposes.
See Lujan v. Defenders, 504 U.S. at 562-63 (“Of course,
the desire to use or observe an animal species, even for
purely esthetic purposes, is undeniably a cognizable interest for purpose of standing.”). Moreover, these injuries are fairly traceable to the construction, and an injunction blocking military construction funds appropriated for other purposes from being used to build border
barriers in the 11 project areas would redress those injuries by effectively stopping the construction. See id.
at 560-61. This evidence is therefore sufficient to establish that these members would have Article III
standing to sue in their own right.

75a
The other Hunt requirements are also satisfied.
These members’ interests are clearly germane to the Sierra Club’s mission to protect the natural environment
and local wildlife and plant life. And in seeking declaratory and injunctive relief, the lawsuit does not require
the participation of individual members. See Hunt, 432
U.S. at 343.
Because the Sierra Club satisfies the applicable standing requirements as to all of the challenged projects in
its partial summary judgment motion, we may proceed
to the merits of the Organizations’ motion without having to address the standing of SBCC. See Secretary of
the Interior v. California, 464 U.S. 312, 319 n.3 (1984)
(“Since the State of California clearly does have standing, we need not address the standing of the other [plaintiffs], whose position here is identical to the State’s.”).
And given my view that those legal challenges fail, I perceive no obstacle to entering judgment against both the
Sierra Club and SBCC without determining whether
SBCC has standing. See Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 98-100 (1998).
B

In my view, California and New Mexico have presented sufficient evidence to demonstrate that they have
standing based on their inability to enforce their environmental laws. 4
The Secretary of Defense has directed DoD to undertake the 11 border barrier projects “without regard to
I express no view as to whether the majority is correct in concluding that California and New Mexico have standing based on the
theory that the construction will cause actual environmental harm to
species within those States. See Maj. Opin. at 15-21.
4

76a
any other provision of law that could impede such expeditious construction in response to the national emergency,” and “[s]uch laws include, but are not limited to,
the National Environmental Policy Act, the Endangered
Species Act, . . . [and] the Clean Water Act.” Because the Clean Water Act would otherwise require
compliance with certain state water pollution requirements, see, e.g., 33 U.S.C. §§ 1323(a), 1341(a), setting
aside the Clean Water Act prevents California from enforcing state water quality standards. Similarly, because the Clean Air Act would otherwise require compliance with certain state air pollution requirements,
see, e.g., 42 U.S.C. §§ 7418(a), 7506(c)(1), setting aside
the Clean Air Act likewise prevents California and New
Mexico from enforcing certain state air quality standards. Because § 2808 itself gives the Secretary the simultaneous authority to undertake emergency military
construction projects and to do so “without regard to
any other provision of law,” this asserted injury to California and New Mexico’s sovereign interests is fairly
traceable to DoD’s invocation of § 2808, and an injunction aimed at the use of military construction funds appropriated for other purposes to build border barriers
under § 2808 in the 11 project areas would redress this
injury. Cf. California v. Trump, 963 F.3d at 960 (Collins, J., dissenting) (where preemption of state environmental laws was due to a different statute than the one
authorizing the transfer of appropriated funds, an injunction aimed at the transfers would not undo the
preemption of state law and would not redress the associated injury to the States’ sovereign interests).
Because California and New Mexico satisfy the applicable standing requirements as to all seven of the chal-

77a
lenged projects in their partial summary judgment motion, we are free to proceed to the merits of the States’
motion without having to address the standing of the
other States. See Secretary of the Interior v. California, 464 U.S. at 319 n.3. And given my view that those
legal challenges fail, I perceive no obstacle to entering
judgment against California, New Mexico, and the remaining States without determining whether the remaining States have standing. See Steel Co., 523 U.S.
at 98-100. 5
III
Our next task is to determine whether the Plaintiffs
have asserted a viable cause of action that properly
brings the lawfulness of the construction projects before
us. See Air Courier Conf. v. American Postal Workers
Union AFL-CIO, 498 U.S. 517, 530-31 (1991). The majority holds that the States have a valid cause of action
under the APA to challenge DoD’s construction efforts
and that the Organizations have a constitutional cause
of action under the Appropriations Clause. See Maj.
Opin. at 41, 46-47. Because I conclude that the Organizations and States have a cause of action under the APA
to challenge the various projects they challenge here,
there is no need in this case to address whether any of

I therefore also have no occasion to address whether the majority is correct in concluding that the remaining States may assert Article III standing based on the theory that, due to the deferral of
particular military construction projects within their borders, those
States have assertedly suffered a loss of economic activity and tax
revenues. See Maj. Opin. at 27-32.
5

78a
them would also have a cause of action under the Constitution or under an equitable “ultra vires” theory. 6
So long as they have at least one viable cause of action,
the merits of whether DoD’s construction projects are lawful are properly before us. See Air Courier Conf., 498
U.S. at 530-31. And because the success of these other
asserted causes of action ultimately turns on whether
DoD’s construction efforts are lawful, and because I also
conclude that those efforts are lawful, any consideration
of whether these other causes of action actually exist
would make no difference here.
In authorizing suit by any person “adversely affected
or aggrieved by agency action within the meaning of a
relevant statute,” 5 U.S.C. § 702, the APA incorporates
the familiar zone-of-interests test, which reflects a background principle of law that always “applies unless it is
expressly negated,” Bennett v. Spear, 520 U.S. 154, 163
(1997); see also Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 129 (2014). 7 That test

Although the Organizations invoke the APA only as a fallback to
their preferred non-statutory claims, I think it is appropriate to first
consider whether they have a statutory cause of action under the
APA. Cf. Chamber of Commerce v. Reich, 74 F.3d 1322, 1326-27
(D.C. Cir. 1996) (suggesting that, if a plaintiff relies on both the APA
and non-statutory-review claims, the APA claim should be considered first); see also California v. Trump, 963 F.3d at 956 (Collins, J.,
dissenting).
7
The Supreme Court has not squarely addressed whether the
zone-of-interests test applies to a plaintiff who claims to have “suffer[ed] legal wrong because of agency action,” which is the other
class of persons authorized to sue under the APA, 5 U.S.C. § 702.
See Lujan v. National Wildlife Fed. (Lujan v. NWF), 497 U.S. 871,
882-83 (1990). The States and the Organizations have not invoked
any such theory here, so I have no occasion to address it.
6

79a
requires a plaintiff to “establish that the injury he complains of (his aggrievement, or the adverse effect upon
him) falls within the ‘zone of interests’ sought to be protected by the statutory provision whose violation forms
the legal basis for his complaint.” Lujan v. NWF, 497
U.S. at 883 (quoting Clarke v. Securities Indus. Ass’n,
479 U.S. 388, 396-97 (1987)). This test “is not meant to
be especially demanding.” Clarke, 479 U.S. at 399.
Because the APA was intended to confer “generous review” of agency action, the zone-of-interests test is more
flexibly applied under that statute than elsewhere, and
it requires only a showing that the plaintiff is “arguably
within the zone of interests to be protected or regulated
by the statute or constitutional guarantee in question.”
Association of Data Processing Serv. Orgs., Inc. v.
Camp, 397 U.S. 150, 153, 156 (1970) (emphasis added);
see also Bennett, 520 U.S. at 163 (“what comes within
the zone of interests of a statute for purposes of obtaining judicial review of administrative action under the
generous review provisions of the APA may not do so for
other purposes”) (simplified). Because an APA plaintiff need only show that its interests are “arguably”
within the relevant zone of interests, “the benefit of any
doubt goes to the plaintiff.” Match-E-Be-Nash-SheWish Band of Pottawatomi Indians v. Patchak, 567
U.S. 209, 225 (2012). In my view, the Plaintiffs have
made a sufficient showing to satisfy this generous zoneof-interests test.
In applying this test, we must first identify the “statutory provision whose violation forms the legal basis for
[the] complaint” or the “gravamen of the complaint.”
Lujan v. NWF, 497 U.S. at 883, 886; see also Air Courier
Conf., 498 U.S. at 529. That question is easy here.

80a
The Organizations’ complaint alleges that “[t]he President’s Proclamation does not meet the conditions required for invocation of 10 U.S.C. § 2808 because it does
not identify an emergency requiring use of the armed
forces”; that “[t]he President’s Proclamation additionally does not meet the conditions required for invocation
of 10 U.S.C. § 2808 because construction of a border wall
is not a military construction project supporting the
armed forces”; and that therefore, “Defendants are acting ultra vires in seeking to divert funding or resources
pursuant to . . . 10 U.S.C. § 2808 for failure to meet
the criteria required under th[at] statute[].” The States’
complaint alleges that “Defendants have acted ultra
vires in seeking to divert funding pursuant to 10 U.S.C.
section 2808 for failure to meet the criteria required under that statute” and that “construction of the border
wall: (a) is not a ‘military construction project’; (b) does
not ‘require[] use of the armed forces’; and (c) is not ‘necessary to support such use of the armed forces.’ ” 8 Section 2808 is plainly the “gravamen of the complaint,” and
it therefore defines the applicable zone of interests.
Lujan v. NWF, 497 U.S. at 886.
Although both the Organizations and the States also
invoke the Appropriations Clause and the constitutional
separation of powers in contending that Defendants’ actions are unlawful, any such constitutional violations
here can be said to have occurred only if the construction efforts violated the limitations set forth in § 2808:

While their complaints mention the President’s proclamation,
neither the Organizations nor the States seek to overturn the proclamation or assess its validity. They only challenge whether the declared national emergency satisfies the qualifications in § 2808.
8

81a
if Congress authorized DoD to undertake the construction projects, and to fund those projects using unobligated funds that were appropriated for other purposes,
then that money has been spent “in Consequence of Appropriations made by Law,” U.S. CONST. art. I, § 9, cl.
7, and the Executive has not otherwise transgressed the
separation of powers. 9 All of Plaintiffs’ theories for
challenging the construction projects—whether styled
as constitutional claims or as statutory claims—thus rise
or fall based on whether DoD has transgressed the limitations set forth in § 2808. As a result, § 2808 is obviously the “statute whose violation is the gravamen of the
complaint.” Lujan v. NWF, 497 U.S. at 886. To maintain a claim under the APA, therefore, the Plaintiffs
must establish that they are within the zone of interests
of § 2808. On this point, the majority and I are in apparent agreement. See Maj. Opin. at 43. 10

9
Plaintiffs also contend that § 2808 itself violates the Appropriations Clause and the constitutional separation of powers, but for reasons that I explained in rejecting the analogous argument made in
the prior appeals, any such contention is wholly frivolous. See California v. Trump, 963 F.3d at 963 (Collins, J., dissenting).
10
Plaintiffs also assert that DoD’s ability to spend the funds at issue under § 2808 is displaced by § 739 of Division D of the Consolidated Appropriations Act, 2019, Pub. L. No. 116-6, 133 Stat. 13, 197
(2019). I do not separately consider the zone-of-interests test with
respect to § 739 because (1) I see no reason why a plaintiff within the
zone of interests of § 2808 would not be an appropriate plaintiff to
make that additional argument against the lawfulness of DoD’s invocation of § 2808, and (2) for reasons I shall explain, I agree that
the Sierra Club, California, and New Mexico satisfy the zone-ofinterests test with respect to § 2808. In any event, I conclude that
Plaintiffs’ contentions based on § 739 lack merit. See infra at 4143.

82a
Having identified the relevant statute, our next task
is to “discern the interests arguably to be protected by
the statutory provision at issue” and then to “inquire
whether the plaintiff ’s interests affected by the agency
action in question are among them.” National Credit
Union Admin. v. First Nat’l Bank & Trust Co., 522 U.S.
479, 492 (1998) (simplified). Although I concluded in
the prior appeals that the Plaintiffs were not within
the zone of interests of the particular appropriationsstatute at issue there, § 2808 differs from that statute in
a critical respect that warrants a different conclusion
here.
In the prior appeals, the transfer of appropriated
funds occurred pursuant to “§ 8005” of the relevant annual appropriations law. In concluding that the Plaintiffs did not fall within the zone of interests of that provision, I noted that § 8005 did not “mention environmental interests”; that it did not “require the Secretary to
consider such interests”; that environmental harms
were “not among the harms that § 8005’s limitations
seek to address or protect”; and that § 8005 did “not itself mention or contemplate the displacement of state
[environmental] laws.” See California v. Trump, 963
F.3d at 959-60 (Collins, J., dissenting); see also id. at 960
(noting that any injury to the States’ sovereign interests
in enforcing their environmental laws was the result of
a “separate determination” under “a completely separate statute”). Here, the opposite is true. On its face,
§ 2808 authorizes the Secretary to undertake emergency
military construction “without regard to any other provision of law,” and although environmental laws are not
specifically mentioned, they are one of the most familiar
potential obstacles to carrying out construction projects, and such laws are thus within the contemplation

83a
of this language. Because an invocation of § 2808 thus
itself sets aside the environmental laws that protect the
interests asserted by the Plaintiffs here, the limitations
in § 2808 on the exercise of that authority arguably protect the Organizations’ environmental interests and the
States’ sovereign interests in enforcing their environmental laws. Because the Plaintiffs’ asserted harms are
thus “among the harms that [§ 2808’s] limitations seek
to address or protect,” and § 2808 “itself . . . contemplate[s] the displacement of state [environmental] laws,”
Plaintiffs are within the zone of interests of § 2808.
California v. Trump, 963 F.3d at 959-60 (Collins, J., dissenting).
The Supreme Court’s decision in Patchak confirms
the correctness of this conclusion. In Patchak, the
Secretary of the Interior had been granted statutory authority to “acquire property ‘for the purpose of providing land for Indians.’ ” 567 U.S. at 211 (quoting 25
U.S.C. § 465). The plaintiff lived near land that the
Secretary had acquired in trust for a tribe seeking to
open a casino, and the plaintiff claimed that he would
suffer “economic, environmental, and aesthetic harms
from the casino’s operation.” Id. at 211-12. In addressing whether the plaintiff ’s asserted harms fell
within the statute’s zone of interests, the Court emphasized that “[t]he question is not whether § 465 seeks to
benefit Patchak; everyone can agree it does not.” Id.
at 225 n.7. “The question is instead . . . whether
issues of land use (arguably) fall within § 465’s scope—
because if they do, a neighbor complaining about such
use may sue to enforce the statute’s limits.” Id. (emphasis added). The Court answered that question in
the affirmative, because the land-acquisition decisions
contemplated by the statute were “closely enough and

84a
often enough entwined with considerations of land use”
to make any difference between the two “immaterial.”
Id. at 227. A similar logic applies here. As is confirmed
by the Secretary’s memorandum simultaneously invoking § 2808 and waiving environmental laws under that
statute, environmental considerations are entwined with
military construction under § 2808 “from start to finish,”
id., and are plainly within the “scope” of that provision,
id. at 225 n.7. Because the Sierra Club’s environmental interests, and California’s and New Mexico’s sovereign interests, are affected by the waiver of environmental laws occasioned by the invocation of § 2808, those
Plaintiffs are arguably within § 2808’s zone of interests
and “may sue” under the APA “to enforce the statute’s
limits.” Id. 11
IV

Although the Sierra Club, California, and New Mexico have a cause of action under the APA, I conclude that
their claims fail on the merits because DoD properly invoked § 2808 in undertaking these 11 projects.
Section 2808(a) provides:
In the event of a declaration of war or the declaration
by the President of a national emergency in accordance with the National Emergencies Act (50 U.S.C.
1601 et seq.) that requires use of the armed forces,
the Secretary of Defense, without regard to any
Because this narrower ground provides an adequate basis for
concluding that California and New Mexico have a cause of action
under the APA, I express no view as to whether the majority is correct in its broader theory that any State that “stood to benefit significantly from federal military construction funding” falls within the
zone of interests of § 2808. See Maj. Opin. at 45.
11

85a
other provision of law, may undertake military construction projects, and may authorize the Secretaries
of the military departments to undertake military
construction projects, not otherwise authorized by
law that are necessary to support such use of the
armed forces. Such projects may be undertaken
only within the total amount of funds that have been
appropriated for military construction, including
funds appropriated for family housing, that have not
been obligated.
10 U.S.C. § 2808(a). “Military construction” is defined
by the statute as “any construction, development, conversion, or extension of any kind carried out with respect to a military installation,” as well as “any acquisition of land or construction of a defense access road.”
Id. § 2801(a) (emphasis added). A “military installation,” in turn, is defined as “a base, camp, post, station,
yard, center, or other activity under the jurisdiction of
the Secretary of a military department.” Id. § 2801(c)(4)
(emphasis added).
Under the plain language of these provisions, three
requirements must be satisfied in order for DoD’s construction activities to comply with § 2808. First, the
President must have declared that there exists a national emergency that requires use of the armed forces.
Second, the 11 border barrier construction projects
must qualify as “military construction” projects within
the meaning of the statute. And third, the projects
must be “necessary to support [the] use of the armed
forces.” Here, all three requirements are satisfied.

86a
A
Section 2808 authorizes the undertaking of military
construction projects “[i]n the event of a declaration of
war or the declaration by the President of a national
emergency in accordance with the National Emergencies Act [“NEA”] (50 U.S.C. 1601 et seq.) that requires
use of the armed forces.” 10 U.S.C. § 2808(a). In my
view, this requirement for invoking § 2808 is satisfied
here.
The President has issued Proclamation 9844 expressly
invoking § 201 of the NEA, which is the provision of the
NEA that authorizes the President to declare a national
emergency that would, in turn, authorize the invocation
of emergency powers set forth in other statutes. 50
U.S.C. § 1621(a). Specifically, Proclamation 9844 expressly declares that “[t]he current situation at the
southern border . . . constitutes a national emergency,” and it briefly explains the basis for the President’s determination. 84 Fed. Reg. at 4949. And in
accordance with § 301 of the NEA, which requires the
President to personally specify which emergency powers have been invoked, the Proclamation further determines “that this emergency requires use of the Armed
Forces and . . . that the construction authority provided in section 2808 of title 10, United States Code, is
invoked and made available.” Id. There has thus
been an express “declaration by the President of a national emergency in accordance with the [NEA] that requires use of the armed forces,” 10 U.S.C. § 2808(a), and
this element of § 2808 is therefore satisfied here.
The States do not contest this element, but the Organizations do, at least in part. The Organizations do
not dispute that the President has properly declared a

87a
national emergency, 12 and they acknowledge that the
President has expressly declared that this emergency
requires use of the armed forces. They contend, however, that the national emergency does not actually require use of the armed forces and that § 2808 therefore
may not be invoked. This argument fails.
The relevant language of § 2808 states that, “[i]n the
event of . . . the declaration by the President of a
national emergency in accordance with the [NEA] that
requires use of the armed forces,” the Secretary of Defense may undertake appropriate military construction.
10 U.S.C. § 2808(a). At the outset, it is important to
note that the quoted statutory requirement is not satisfied unless (at a minimum) the President declares, not
just a “national emergency,” but specifically a “national
emergency . . . that requires use of the armed forces.”
No party disputes this point, but in any event, it is the
grammatically preferable reading of the statutory text.
Because the phrase “that requires use of the armed
forces” clearly modifies “national emergency”—which is
the immediate object of the “declaration”—the most
natural reading of the language is that the President
must declare a “national emergency . . . that requires use of the armed forces.” It seems highly unlikely that, in using this phrasing, Congress intended for
the President merely to declare an “emergency” and
We therefore have no occasion in this case to address the issues
raised by certain amici curiae as to whether the President was correct in concluding that the situation at the southern border properly
qualifies as a “national emergency.” We likewise are not presented
with any issue concerning the availability of any other emergency
authority under any other statute, nor do we have before us any possible constitutional limitations on the use of any such other authorities.
12

88a
then to have some unspecified person separately determine that the emergency is one “that requires use of the
armed forces.” Indeed, given that the “Secretary of
Defense” is expressly the one to whom § 2808 grants the
emergency construction authority, one would have expected that, if someone other than the President was intended to make this determination, it would necessarily
be the Secretary of Defense—in which case one would
have expected to see such a specification included in the
later language in § 2808 about the authority of the “Secretary of Defense.”
But once it is recognized that the President’s “declaration” must itself include the determination that the
emergency “requires use of the armed forces,” the Organizations’ statutory argument collapses. By its terms,
this statute is triggered, not by the existence of the specified kind of “national emergency,” but by the “event of
a declaration” of such an emergency. 10 U.S.C. § 2808(a)
(emphasis added). If (as I have explained) the requirement that the emergency must be one “that requires use
of the armed forces” pertains to the “declaration” itself,
then that phrase merely describes the content of the required “declaration” and does not supply a freestanding
requirement to be examined separately from that declaration. As a result, the statute does not require a separate inquiry into whether the findings made by the
President in the required declaration are substantively
valid; it merely requires a “declaration” meeting the
statutory requisites. Those are that the declaration be
made “by the President”; that it be made “in accordance
with the [NEA]”; and that it declare a “national emergency” and declare that the emergency “requires use of
the armed forces.” 10 U.S.C. § 2808(a). All three requirements have been met here, as explained earlier.

89a
This portion of the statute requires nothing more, and
so this initial element of § 2808 is satisfied.
B

To qualify as “military construction” that is authorized under the emergency authority granted in § 2808(a),
the construction generally must be carried out “with respect to a military installation.” 10 U.S.C. § 2801(a). 13
Section 2801(c)(4) defines the term “military installation” to “mean[] a base, camp, post, station, yard, center,
or other activity under the jurisdiction of the Secretary
of a military department.”
Id. (emphasis added).
Accordingly, so long as the border-barrier construction
occurs with respect to one of these enumerated items,
that construction qualifies as “military construction.”
Plaintiffs do not dispute that the two projects that are
taking place within the Barry M. Goldwater Range are
being carried out with respect to a “military installation,” see Maj. Opin. at 61 n.10, and so the only question
here is whether the other nine projects also fit the definition of “military construction.” Because those nine
construction projects involve an “activity under the jurisdiction” of a military Secretary, they constitute “military construction” within the plain meaning of the statute.
By its terms, the statute authorizes any construction
project “of any kind” that is “carried out with respect
to” an “activity under the jurisdiction of the Secretary
of a military department.” 10 U.S.C. § 2801(a), (c)(4)
One exception, which is relevant to certain of DoD’s actions here,
is that “military construction” also “includes . . . any acquisition
of land” by DoD, without any further statutory limitation. 10 U.S.C.
§ 2801(a).
13

90a
(emphasis added). An “activity” is a “specified pursuit
in which a person partakes,” see Activity, AMERICAN
HERITAGE DICTIONARY (5th ed. 2018), or in which a
group of persons participates, see Activity, BLACK’S
LAW DICTIONARY (11th ed. 2019) (“The collective acts of
one person or of two or more people engaged in a common enterprise.”); see also Activity, WEBSTER’S THIRD
NEW INTERNATIONAL DICTIONARY (“WEBSTER’ S
THIRD”) (“an occupation, pursuit, or recreation in which
a person is active”). Although “activity under the jurisdiction” of a military department thus broadly denotes any specific task of those departments, and does
not itself denote a place, the term embraces places under military jurisdiction, because activities under military jurisdiction necessarily occur there. As the Supreme Court has explained, a “place . . . where military duty is performed” is “synonymous with the exercise of military jurisdiction,” and that “is precisely how
the term ‘military installation’ is used” in § 2801(c)(4).
United States v. Apel, 571 U.S. 359, 368 (2014). Accordingly, land that is under military jurisdiction counts
as a “military installation.” And, as the majority notes,
“Plaintiffs do not contest that the sites are under military jurisdiction.” See Maj. Opin. at 67. Indeed, the
point is incontestable, because the land involving the
nine relevant construction projects has been lawfully assigned to the jurisdiction of U.S. Army Garrison Fort
Bliss, an Army base. This element of § 2808 is therefore also satisfied.
The majority nonetheless rejects this reading as contrary to ejusdem generis, “the statutory canon that where
general words follow specific words in a statutory enumeration, the general words are construed to embrace

91a
only objects similar in nature to those objects enumerated by the preceding specific words,” Circuit City
Stores, Inc. v. Adams, 532 U.S. 105, 114-15 (2001) (simplified). See Maj. Opin. at 65-66. According to the
majority, the nine project areas at issue here are insufficiently similar to the enumerated items—i.e., a “base,
camp, post, station, yard, or center”—to be properly included within the final generic phrase, “other activity
under the jurisdiction” of a military department. Id. at
66. For several reasons, this argument fails.
As an initial matter, the majority overlooks the fact
that ejusdem generis “does not control . . . when
the whole context dictates a different conclusion.”
Norfolk & W. Ry. Co. v. American Train Dispatchers
Ass’n, 499 U.S. 117, 129 (1991). Here, the generic term
used—“other activity”—is notably dissimilar from each
of the terms which precedes it, thereby precluding any
effort to invoke ejusdem generis to narrow it. If the
statute had referred to any “base, camp, post, station,
yard, center, or other place under the jurisdiction” of
the military, the majority’s argument might have had
some superficial force—although it still would be wrong
for the additional reasons I will describe momentarily.
But the generic term “activity” refers to actions, not
places, and is simply not within the same class as the
enumerated items. This shift unmistakably denotes an
intention to go beyond the ordinary, established military
facilities that are enumerated and to allow construction
in support of whatever activities the military needs to
conduct to address the national emergency. Ironically,
consideration of this canon thus points towards an even
broader reading of the generic term than the Government urges here. And Plaintiffs would plainly lose under that broader view, because it is simply indisputable

92a
that the construction projects here are all “carried out
with respect to” an “activity under the jurisdiction” of a
military department. 10 U.S.C. § 2801(a), (c)(4) (emphasis added).
In any event, the majority’s application of ejusdem
generis fails for the additional reason that it overlooks
the fact that the statute itself tells us what the unifying
characteristic of the enumerated items is—namely, they
are all places “under the jurisdiction of the Secretary of
a military department.” 10 U.S.C. § 2801(c)(4) (emphasis added). Where, as here, the generic term explicitly defines the common feature, it would “not give
the words a faithful interpretation if we confined them
more narrowly than the class of which they are a part.”
Cleveland v. United States, 329 U.S. 14, 18 (1946) (rejecting invocation of ejusdem generis to narrow the
scope of the generic term “any other immoral purpose”
in the Mann Act, so that it would only apply to sex trafficking and not to polygamy). The statute thus requires nothing more than that the place be “under the
jurisdiction” of a military department, and all agree that
that requirement is satisfied here.
The majority contends that this reading of the text
cannot be correct because the resulting flexibility in
emergency construction authority would be, in the majority’s view, unreasonably broad and “would run afoul
of the constitutional separation of powers.” See Maj.
Opin. at 70. Both contentions are wrong.
As to the first, the majority overlooks the fact that
the exact same grant of construction authority at issue
here applies, not just in the event of a “declaration . . .
of a national emergency,” but also “[i]n the event of a
declaration of war.” 10 U.S.C. § 2808(a) (emphasis

93a
added). It is hardly surprising that Congress has
granted extremely broad emergency authority to “redirect [construction] funds at will without regard for the
normal appropriations process” in the event of a formal
declaration of war. See Maj. Opin. at 69. Given that
the statute grants, in a single clause, the very same wartime authority in the event of a declaration of a national
emergency, we lack any textual basis whatsoever for imposing artificial limits on the breadth of that authority.
The majority obviously thinks that it was unwise for the
Executive to have such an “unnecessarily expansive”
construction authority in the event of a national emergency, see id. (citation omitted), but that is unmistakably what Congress said in § 2808(a). The majority
vaguely hints that it does not think that the current situation constitutes a real “national emergency” that
would warrant such broad authority. See id. at 70 (noting that the NEA should “be utilized only in time of genuine emergency” (citation omitted)). But no party here
contends that the President’s declaration of a national
emergency was not “in accordance with the [NEA],” as
required by § 2808(a), and so that issue is not before us.
See supra note 12.
The majority is also wrong in contending that Congress’s grant of such flexibility raises separation-ofpowers concerns. The majority argues that allowing
this much flexibility over how to spend funds appropriated for military construction would infringe on Congress’s “exclusive control over appropriations.” See
Maj. Opin. at 70. The suggestion is, as I have previously explained, “ ‘wholly insubstantial and frivolous,’ ”
see California v. Trump, 963 F.3d at 963 (Collins, J., dissenting) (quoting Bell v. Hood, 327 U.S. 678, 682-83
(1946)), given that the Constitution indisputably allows

94a
Congress to make a “ ‘lump-sum appropriation’ ” that
leaves the exact “ ‘allocation of funds’ ” to the discretion
of the Executive, id. (quoting Lincoln v. Vigil, 508 U.S.
182, 192 (1993)) (emphasis added). The emergency construction authority granted by § 2808 is not meaningfully distinguishable, for constitutional purposes, from a
lump-sum appropriation for military construction. The
majority states that there is nonetheless an appropriations-power concern here because Congress has made
clear its opposition to these specific projects, “though
imperfectly,” by “declin[ing] to fund the very projects
at issue” in DHS’s appropriations statute and by “attempt[ing] to terminate the declaration of a national
emergency (twice).” See Maj. Opin. at 70. But Congress has not enacted any relevant limitation, and under
INS v. Chadha, 462 U.S. 919 (1983), we have no business
undertaking to give legal effect to our own perceptions
of the “big-picture ‘denial’ [of funding] that we think is
implicit in the ‘real-world events in the months and
years leading up to the 2019 appropriations bills.’ ”
California v. Trump, 963 F.3d at 972 (Collins, J., dissenting) (citation omitted).
Because the 11 border barrier construction projects
here are all taking place with respect to land that is under the jurisdiction of the Secretary of a military department, they are taking place with respect to a military
installation. This requirement of § 2808 is thus also
satisfied.
C

The final requirement of § 2808 is that the military
construction projects undertaken by the Secretary of
Defense must be “necessary to support such use of the
armed forces.” 10 U.S.C. § 2808(a). In determining

95a
that this requirement was satisfied with respect to the
11 border barrier construction projects at issue here,
the Secretary of Defense explained his reasoning as follows:
These projects will deter illegal entry, increase the
vanishing time of those illegally crossing the border,
and channel migrants to ports of entry. They will
reduce the demand for DoD personnel and assets at
the locations where the barriers are constructed and
allow the redeployment of DoD personnel and assets
to other high-traffic areas on the border without barriers. In short, these barriers will allow DoD to provide support to DHS more efficiently and effectively.
In this respect, the contemplated construction projects are force multipliers.
This determination is more than sufficient to satisfy this
final requirement of § 2808.
The Government contends that the Secretary’s determination is “committed to agency discretion by law,”
5 U.S.C. § 701(a)(2), and is therefore unreviewable under the APA. In my view, it is not necessary to decide
that issue, because even assuming arguendo that this
APA exception is inapplicable, the Secretary’s determination is well within the bounds of § 2808. By requiring
that the construction be “necessary” to the contemplated use of the armed forces, § 2808 does not limit the
Secretary to only those projects that are, as the majority contends, “absolutely needed” or “required.” See
Maj. Opin. at 52 (citation omitted). As the Supreme
Court has explained, the term “necessary” does not always denote “essential,” because “in ordinary speech,
the term is often used more loosely to refer to something
that is merely important or strongly desired.” Ayestas

96a
v. Davis, 138 S. Ct. 1080, 1093 (2018) (emphasis added);
see also id. (“necessary” may “import that which is only
convenient, useful, appropriate, suitable, proper, or conducive to the end sought” (citation omitted)). By confirming that this broader meaning of “necessary” is consistent with how the word is used in “ordinary speech,”
see id., Ayestas puts the lie to the majority’s untenable
contention that this broader meaning is not consistent
with “any ordinary understanding of the word,” see Maj.
Opin. at 52 (emphasis added), and is instead a peculiarity of the caselaw concerning the Constitution’s Necessary and Proper Clause, id. at 52-54. 14 Indeed, the majority acknowledges that “necessary” has the same general meaning as “required,” and I have already explained why that latter term likewise “includes ‘something that is wanted or needed’ or ‘something called for
or demanded.’ ” California v. Trump, 963 F.3d at 974
(Collins, J., dissenting) (quoting Requirement, WEBSTER’ S THIRD). We should be loathe to reject this familiar and more flexible use of the term, especially given
that we are construing the scope of the emergency authority that is available to be exercised during the
course of a “war” or “national emergency.” Cf. Winter
v. Natural Res. Def. Council, 555 U.S. 7, 24 (2008) (“great
deference” is generally given to the military’s judgment
of the importance of a military interest).
The majority attempts to distinguish Ayestas on the ground that
the relevant statutory phrase there was “reasonably necessary” and
not just “necessary.” See Maj. Opin. at 55 n.9. This effort fails,
because, in the course of construing the statutory language at issue
in Ayestas, the Supreme Court first addressed the use of the word
“necessary”—by itself—in “ordinary speech,” and it is that explication that refutes the majority’s flawed analysis. See 138 S. Ct. at
1093.
14

97a
With this understanding of “necessary” in mind, I
think it is clear that the Secretary properly determined
that the construction projects here are “necessary
to support such use of the armed forces.” 10 U.S.C.
§ 2808(a). By referring to “such use of the armed
forces,” the statute refers back to the “use of the armed
forces” that the President has determined is “require[d]”
by the “national emergency” that he has declared. Id.
(emphasis added). In Proclamation 9844, the President noted that DoD had been “provid[ing] support and
resources to the Department of Homeland Security at
the southern border,” and he determined that it is “necessary for the Armed Forces to provide additional support to address the crisis” at the southern border. 84
Fed. Reg. at 4949. This determination does not entail
an entirely novel use of the armed forces, because Congress has repeatedly recognized a support role for DoD
at the border. See, e.g., 10 U.S.C. §§ 251-252, 271-284.
Because the “use of the armed forces” that has been declared necessary by the President is thus the provision
of support to DHS in securing the border, the only question before us is whether the Secretary properly determined that the 11 construction projects are “necessary
to support such use of the armed forces.” 10 U.S.C.
§ 2808(a) (emphasis added). That standard is easily
satisfied, because the construction projects, by “allow[ing] the redeployment of DoD personnel and assets
to other high-traffic areas on the border without barriers,” will permit “DoD to provide support to DHS more
efficiently and effectively.” By allowing DoD to help
cover a wider area with fewer personnel, the “contemplated construction projects are force multipliers.”

98a
The majority wrongly ignores the statutory language
focusing on whether the construction projects are necessary to support “such use of the armed forces,” 10
U.S.C. § 2808(a)—viz., the use of the armed forces to
“provide support and resources to the Department of
Homeland Security at the southern border.” 84 Fed.
Reg. at 4949. As a result, the majority gets things exactly backwards when it says that the construction does
not support such use of the armed forces here because it
will “support and benefit DHS.” See Maj. Opin. at 5052. Given that, under the terms of the statute, military
support for DHS’s mission is the relevant “use of the
armed forces” that has been declared by the President,
the fact that the construction furthers that mission
weighs decidedly in favor of finding that it is “necessary
to support such use of the armed forces.” 10 U.S.C.
§ 2808(a). The majority’s contrary conclusion rests on
the implicit view that this court gets to substitute its
own view of when the armed forces are needed in a national emergency for the view of the President as stated
in the emergency declaration. Nothing in § 2808(a) assigns us that task. See supra at 26-27. As relevant
here, § 2808 merely instructs us to consider whether the
Secretary properly determined that these projects are
“necessary” to support the President’s declared use of
the armed forces.
* * *
Because all of the requirements of § 2808(a) have
been met, the 11 military construction projects at issue
here were authorized by that section. Plaintiffs’ claims
resting on a contrary view fail on the merits.

99a
V

Plaintiffs’ final argument on the merits is that, even
if the construction was otherwise authorized under
§ 2808, DoD’s power to invoke that authority was effectively disabled by § 739 of the Financial Services and
General Government Appropriations Act, 2019, which is
Division D of the Consolidated Appropriations Act,
2019. This argument is unavailing.
Section 739 provides, in its entirety, as follows:
None of the funds made available in this or any other
appropriations Act may be used to increase, eliminate, or reduce funding for a program, project, or activity as proposed in the President’s budget request
for a fiscal year until such proposed change is subsequently enacted in an appropriation Act, or unless
such change is made pursuant to the reprogramming
or transfer provisions of this or any other appropriations Act.
Pub. L. No. 116-6, Div. D, § 739, 133 Stat. 13, 197 (2019).
Plaintiffs’ argument is that DoD’s invocation of emergency military construction authority alters funding levels from what was proposed in the budget or enacted in
the 2019 appropriations statutes, and that § 2808 cannot
be used to justify that alteration because it is not a provision of an “appropriations Act.” Id. Therefore, according to Plaintiffs, § 739 bars any use under § 2808 of
any “funds made available” in any appropriations act.
This argument lacks merit, because it fails to construe
the language of § 739 in light of the appropriations context against which its terms must be understood.
Home Depot U.S.A., Inc. v. Jackson, 139 S. Ct. 1743,

100a
1748 (2019) (“It is a fundamental canon of statutory construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.”) (simplified).
As I have previously explained, the terms of an
appropriations-law restriction “can only be understood
against the backdrop of th[e] [appropriations] process”
and must take account of any settled meanings attached
to the particular terms used as well as any established
understanding surrounding the budgetary practices being referenced. California v. Trump, 963 F.3d at 968
(Collins, J., dissenting). Here, the relevant language
of § 739 refers to action to “[1] increase, eliminate, or
reduce funding [2] for a program, project, or activity,”
and both portions of this phrase align with familiar concepts in the budgetary process.
Specifically, the phrase “program, project, or activity” (“PPA”) is a phrase of art that refers to an “element
within a budget account.” See U.S. GOV ’T ACCOUNTABILITY O FF. (“GAO”), GAO-05-734SP, A Glossary of
Terms Used in the Federal Budget Process 80 (2005)
(“Glossary”); see generally 31 U.S.C. § 1112 (requiring
GAO to “establish, maintain, and publish standard terms
and classifications for fiscal, budget, and program information of the Government”). “For annually appropriated accounts, the Office of Management and Budget
(OMB) and agencies identify PPAs by reference to committee reports and budget justifications.” Glossary,
supra, at 80. Similarly, an action to “increase, eliminate, or reduce” funding for a PPA corresponds to the
familiar budgetary concepts of a reprogramming or
transfer of funds. The GAO defines a “reprogramming” as “[s]hifting funds within an appropriation or

101a
fund account to use them for purposes other than those
contemplated at the time of appropriation; it is the shifting of funds from one object class to another within an
appropriation or from one program activity to another.”
Id. at 85 (emphasis added). A transfer, by contrast, is
defined as a “[s]hifting of all or part of the budget authority in one appropriation or fund account to another.”
Id. at 95; see also California v. Trump, 963 F.3d at 969
(Collins J., dissenting). Viewed against this backdrop,
§ 739’s reference to action that would “increase, eliminate, or reduce funding for a program, project, or activity” clearly refers to the sort of change in funding that
would require the agency to undertake a formal reprogramming or transfer. That reading of the phrase is
further confirmed by the remainder of § 739, which
states that such action may not be undertaken “unless
such change is made pursuant to the reprogramming or
transfer provisions of this or any other appropriations
Act.” See 133 Stat. at 197 (emphasis added).
This understanding of § 739 confirms that it does not
apply to an invocation of emergency military construction authority under § 2808. Under longstanding DoD
budgetary guidelines, an allocation of funds under the
emergency military construction authority in § 2808 is
not considered to be a “reprogramming” or “transfer”
because such allocations take place outside of “the normal planning, programming, and budgeting process.”
See Department of Defense Directive 4270.5, ¶ 4.1 (February 12, 2005); see also id. at ¶ 4.2 (“Reprogramming is
not necessary for projects under Sections 2804 and
2808[.]”). Congress is presumably well aware of this
settled understanding as to how an allocation of funds
under § 2808 is considered for budgetary purposes.
See Lorillard v. Pons, 434 U.S. 575, 581 (1978); see also

102a
Bragdon v. Abbott, 524 U.S. 624, 631, 645 (1998); see generally U.S. GOV ’T ACCOUNTABILITY OFF., PRINCIPLES
OF FEDERAL APPROPRIATIONS LAW (4th ed. 2016 rev.),
pt. B, § 7, 2016 WL 1275442, at *6-7 (whether a reprogramming has occurred would be evaluated in light of
the relevant budgetary documents and understandings).
Indeed, Directive 4270.5 is prominently cross-referenced
in the discussion of § 2808 authority contained in DoD’s
governing “Financial Management Regulation,” see
DoD Financial Management Regulation 7000.14-R, Vol.
3, Chap. 17 at 17-17 (2019), and Congress is obviously
familiar with that important document, which it has even
expressly cited in the 2019 military construction appropriations law, see Military Construction, Veterans Affairs, and Related Agencies Appropriations Act, 2019,
Pub. L. No. 115-244, Div. C, § 123, 132 Stat. 2897, 2953
(2018). Section 739’s reference to the sort of actions
that would trigger a reprogramming or transfer thus
does not include an allocation of funding under the
emergency military construction authority granted in
§ 2808.
Any doubt on this score is confirmed by the doctrine
disfavoring repeals by implication, which “ ‘applies with
full vigor when . . . the subsequent legislation is an
appropriations measure.’ ” Tennessee Valley Auth. v.
Hill, 437 U.S. 153, 190 (1978) (quoting Committee for
Nuclear Responsibility, Inc. v. Seaborg, 463 F.2d 783,
785 (D.C. Cir. 1971)); see also Rostker v. Goldberg, 453
U.S. 57, 74-75 (1981) (noting the “sound principle[] that
appropriations legislation should not be considered as
modifying substantive legislation.”). Section 2808 allows the Secretary of Defense to “undertake military
construction projects” notwithstanding “any other provision of law.” It would be remarkable to conclude that

103a
this emergency authority—a critical power that allows
our nation and military to respond quickly in times of
war or national emergency—was impliedly (if not accidentally) disabled in a later appropriations bill that
makes no reference to § 2808 or to emergency powers.
This canon further confirms what the budgetary context
already makes clear, which is that § 739 poses no bar to
DoD’s use of § 2808.
VI

Based on the foregoing, I conclude that at least the
Sierra Club, California, and New Mexico have Article
III standing. They have a cause of action under the
APA to challenge these § 2808 military construction projects, but their claims fail on the merits as a matter of
law because the projects comply with the limitations in
§ 2808 and because § 739 is inapplicable here. I therefore would reverse the district court’s partial grant of
summary judgment to the Organizations and to the
States and would remand with instructions to grant Defendants’ motions for summary judgment on this set of
claims. 15 I respectfully dissent.

In light of my resolution of the merits, I would not terminate the
district court’s stay pending appeal, and I would deny the Organizations’ emergency motion to lift the stay.
15

104a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00872-HSG
Re: Dkt. Nos. 220, 236
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL, DEFENDANTS
Case No. 19-cv-00892-HSG
Re: Dkt. Nos. 210, 236
SIERRA CLUB, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

Dec. 11, 2019

ORDER GRANTING IN PART AND DENYING
IN PART PLAINTIFFS’ MOTIONS FOR PARTIAL
SUMMARY JUDGMENT AND DENYING
DEFENDANTS’ MOTIONS FOR PARTIAL
SUMMARY JUDGMENT

Pending before the Court are cross-motions for partial summary judgment in two related cases, State of
California v. Trump, No. 19-cv-00872-HSG, and Sierra

105a
Club v. Trump, No. 19-cv-00892-HSG.1 Plaintiffs in
both cases challenge Defendants’ proposed reallocation
of $3.6 billion in military construction funds under 10
U.S.C. § 2808 (“Section 2808”) to build a wall along the
southern border of the United States. Section 2808 is
just one of several alternative sources of funding that
Defendants identified for border construction after
Congress appropriated only $1.375 billion for that purpose in the Consolidated Appropriations Act of 2019
(“CAA”), far less than the $5.7 billion the President ultimately requested. Compare California, 19-cv-00872HSG, Dkt. No. 59-4, Ex. 25, with CAA, Pub. L. No. 1166, 133 Stat. 13 (2019). Plaintiffs assert that Defendants’ reliance on Section 2808—like Defendants’ other
alternative funding plans—improperly circumvents the
CAA and Congress’ appropriations power under the
Constitution.2 Plaintiffs therefore seek declaratory

Plaintiffs in State of California v. Trump are a coalition of nine
states, including California, Colorado, Hawaii, Maryland, New Mexico, New York, Oregon, Wisconsin, and the Commonwealth of Virginia (“State Plaintiffs”). Plaintiffs in Sierra Club v. Trump include the Sierra Club and the Southern Border Communities Coalition (“Sierra Club Plaintiffs”). Because Plaintiffs’ motions for summary judgment overlap considerably, the Court refers collectively
to both State and Sierra Club Plaintiffs in this order as “Plaintiffs,”
unless otherwise specified. Defendants in both cases include President Donald J. Trump and certain of his cabinet members, in their
official government capacities. The Court refers to them collectively as “Defendants” in this order to avoid confusion in light of
the apparent conflict between the Executive and Legislative branches
of the government in these cases.
2
The Appropriations Clause of the Constitution provides that
“No Money shall be drawn from the Treasury, but in Consequence
of Appropriations made by Law.” U.S. Const. art I., § 9, cl. 7.
1

106a
and injunctive relief, prohibiting Defendants from using
funds under Section 2808 to build border barriers.
As the Court has previously explained, these two cases
are not about—and the Court offers no opinion regarding
—whether the challenged border barrier construction
plan is sound policy. See City and County of San
Francisco v. United States Citizenship and Immigration Services, No. 19-17213, (9th Cir. Dec. 5, 2019), Dkt.
No. 27 at 2-3 (Bybee, J., concurring) (explaining that
“even as we are embroiled in these controversies, no one
should mistake our judgments for our policy preferences,” and that “our thoughts on the efficacy of the one
approach versus the other are beside the point, since our
business is not to judge the wisdom of the National Government’s policy” (quotation omitted)); Trump v. Hawaii, 138 S. Ct. 2392, 2423 (2018) (indicating that the Supreme Court “express[ed] no view on the soundness of
the policy” at issue there); In re Border Infrastructure
Envtl. Litig., 284 F. Supp. 3d 1092, 1102 (S.D. Cal. 2018)
(noting that the court “cannot and does not consider
whether underlying decisions to construct the border
barriers are politically wise or prudent”). 3 Neither does
There also appears to be no dispute between the Executive and
Congress that at least some border barrier construction is warranted, as Congress has historically appropriated funds for this
purpose. For fiscal year 2018, for example, Congress appropriated $1.571 billion for physical barriers and associated technology
along the southwest border. See California, No. 19-cv-00872-HSG,
Dkt. No. 161; see also Consolidated Appropriations Act, 2018, Pub.
L. No. 115-141, div. F, tit. II, § 230(a) 132 Stat. 348 (2018). And even
for fiscal year 2019, the Administration initially requested $1.6 billion
for border barrier construction, see California, No. 19-cv-00872HSG, Dkt. No. 112-1, Ex. 51 at 58, and Congress appropriated
$1.375 billion, see CAA, 133 Stat. 13.
3

107a
the Court here address any of the other sources of funding that Defendants have identified to pay for the border
barrier construction. Rather, the issues currently before the Court are narrow: whether Defendants’ proposed plan for funding border barrier construction under Section 2808 (1) exceeds the Executive Branch’s
statutory and constitutional authority; (2) is arbitrary
and capricious under the Administrative Procedures
Act, 5 U.S.C. §§ 551 et seq., (“APA”); and (3) violates the
National Environmental Policy Act (“NEPA”).
Nevertheless, the Court assesses these issues against
a complicated and unprecedented backdrop. As an initial matter, presidents have only invoked Section 2808
twice since it was enacted in 1982. See Michael J. Vassalotti & Brendan W. McGarry, Military Construction
Funding in the Event of a National Emergency, Cong.
Research Serv., IN11017 (Jan. 11, 2019) at 2-3; Jennifer
K. Elsea, Edward C. Lieu, & Jay B. Sykes, Can the Department of Defense Build the Border Wall, Cong. Research Serv., LSB10242 (Feb. 18, 2019) at 3-4. Of the
military construction projects funded through Section
2808, only one was located in the United States, and that
project related to securing facilities holding weapons of
mass destruction shortly after the 9/11 attacks. See,
e.g., Vassalotti, at 1-3; see also Sierra Club, 19-cv-00892HSG, Dkt. No. 236-5, Ex. 5. And critically, a president
has never before invoked Section 2808 to secure funding
for projects that Congress specifically declined to fund
in its appropriations judgment. Id. Yet here the
President has been explicit in his intention to obtain
funds for border barrier construction, with or without
Congress.
See, e.g., California, 19-cv-00872-HSG,
Dkt. No. 59-4, Exs. 13, 21; Sierra Club, 19-cv-00892HSG, Dkt. No. 36-3, Ex. C. Accordingly, the President

108a
invoked Section 2808 the day after Congress passed the
CAA, which provided limited funding for, and contained
restrictions regarding funding for, border barrier construction. See CAA, § 230(a)(1), 133 Stat. at 28.
The Court heard argument on these motions on November 20, 2019. See California, 19-cv-00872-HSG,
Dkt. No. 250; Sierra Club, 19-cv-00892-HSG, Dkt. No.
248. After carefully considering the parties’ arguments, the Court GRANTS IN PART Sierra Club Plaintiffs’ partial motion for summary judgment; GRANTS IN
PART State Plaintiffs’ partial motion for summary judgment; and DENIES Defendants’ motions.
I. BACKGROUND
A.

Factual Background

The Court has detailed the lengthy history of these
cases in its prior orders, and incorporates the factual
background in full. See Sierra Club, No. 19-cv-00892HSG, Dkt. No. 144. The Court also briefly summarizes
and notes subsequent factual developments as relevant
to this order.
i. Emergency Declaration

Following the longest partial government shutdown
in the nation’s history, Congress passed the CAA on
February 14, 2019, making available $1.375 billion “for
the construction of primary pedestrian fencing, including levee pedestrian fencing, in the Rio Grande Valley
Sector.” See CAA, § 230(a)(1), 133 Stat. at 28. On
February 15, 2019, the President signed the CAA into
law. See generally id. That same day, the President
invoked his authority under the National Emergencies
Act (“NEA”), Pub. L. 94-412, 90 Stat. 1255 (1976) (codified as amended at 50 U.S.C. §§ 1601-51), and declared

109a
that “a national emergency exists at the southern border
of the United States.” See Proclamation No. 9844, 84
Fed. Reg. 4,949 (Feb. 15, 2019) (“Proclamation No.
9844”). The proclamation further “declar[ed] that this
emergency requires use of the Armed Forces,” and
made available “the construction authority provided in
[S]ection 2808.” Id. When announcing the proclamation, the President explained that he initially “went
through Congress” for the $1.375 billion in funding,
but was “not happy with it.” See California, No.
19-cv-00872-HSG, Dkt. No. 59-4, Ex. 50.
Since that time, Congress has sought to terminate
the national emergency on two separate occasions. On
March 14, 2019, Congress passed a joint resolution to
terminate the emergency declaration. See H.R.J. Res.
46, 116th Cong. (2019). On March 15, 2019, the President vetoed the joint resolution. See Veto Message to
the House of Representatives for H.J. Res. 46, The White
House (Mar. 15, 2019), https://www.whitehouse.gov/
briefings-statements/veto-message-house-reprsentativesh-j-res-46/. Congress failed to override the President’s
veto. See 165 Cong. Rec. H2799, H2814-15 (2019). On
September 27, 2019, Congress passed a second joint resolution to terminate the emergency declaration. See
S.J. Res. 54, 116th Cong. (2019). And on October 15,
2019, the President vetoed the second joint resolution.
See S.J. Res. 54 Veto Message, The White House
(Oct. 15, 2019), https://www.whitehouse.gov/presidentialactions/s-j-res-54-veto-message/ (“S.J. Res. 54 Veto
Message”). Again, Congress failed to override the
veto. See S.J. Res. 54, 116 Cong. (2019). Congress
has an ongoing obligation to consider whether to termi-

110a
nate the emergency every six months, but the President’s declaration of a national emergency remains in
effect. 4 See 50 U.S.C. § 1622(a)-(b).
ii. Military Construction Funds and Diverted
Projects

On February 11, 2019, prior to the President’s proclamation and invocation of Section 2808, the Chairman
of the Joint Chiefs of Staff submitted a preliminary assessment to the Acting Secretary of Defense regarding
whether and how military construction projects could
support the use of the armed forces in addressing a national emergency at the southern border. See California, No. 19-cv-00872-HSG, Dkt. No. 212 (“Administrative Record” or “AR”) 5 at 119-124. The memorandum
explained that the Department of Homeland Security
4
Under the NEA as initially drafted in 1976, the national emergency would have ended once Congress passed the first joint resolution. The NEA did not require a presidential signature on the
joint resolution, nor was it subject to a presidential veto, until the
Supreme Court ruled in INS v. Chadha that the president must
have the power to approve or veto such congressional acts. See
462 U.S. 919, 944-58 (1983).
5
The parties do not oppose the Court’s consideration of the administrative record, see California, No. 19-cv-00872-HSG, Dkt.
Nos. 212-2, 212-3, 212-4, or the Plaintiffs’ request to take judicial
notice of various documents. The Court finds it may take judicial
notice of documents from the administrative record and Plaintiffs’
requests that are cited in this order, all of which are: (1) statements of government officials or entities that are not subject to
reasonable dispute; or (2) other public records and government
documents available on reliable internet sources, such as government websites. See DeHoog v. Anheuser-Busch InBev SA/NV,
899 F.3d 758, 763 n.5 (9th Cir. 2018) (taking “judicial notice of government documents, court filings, press releases, and undisputed
matters of public record”).

111a
(“DHS”) identified specific geographic areas in which
border barriers could allow Department of Defense
(“DoD”) personnel and resources “to be employed more
efficiently” and “reduce DHS requirements for DoD
support.” Id. However, although the President authorized use of military construction funds under Section 2808 in his February 15 proclamation, Defendants
did not exercise this authority for several months.
Instead, in the intervening months, the Chairman of
the Joint Chiefs of Staff submitted a supplemental assessment on May 6, 2019, regarding military construction projects at the southern border. See AR at 59-70.
In the updated memorandum, the Chairman again concluded that such construction “can reasonably be expected to support the use of the armed forces by enabling more efficient use of DoD personnel, and may ultimately reduce the demand for military support over
time.” See id. at 60. The Chairman explained that
although “any border barrier construction supports the
use of the armed forces on the border to some extent,”
the Joint Chiefs prioritized fifteen projects, totaling $3.6
billion. See id. at 63. On May 15, 2019, Defendants
informed the Court that the Under Secretary of Defense
had identified existing military construction project
funding to divert for border barrier construction pursuant to Section 2808, but that the Acting Secretary of Defense had “not yet decided to undertake or authorize any
barrier construction projects under § 2808.” See California, 19-cv-00872-HSG, Dkt. No. 151 at 3.
Then on September 3, 2019, the Secretary of Defense
announced that he had decided to authorize eleven specific border barrier construction projects in California,
Arizona, New Mexico, and Texas, pursuant to Section

112a
2808. See California, 19-cv-00872-HSG, Dkt. Nos. 206,
206-1, Ex. 1. In doing so, he reiterated that these projects “will reduce the demand for DoD personnel and assets to other high-traffic areas on the border without
barriers.” See id., Dkt. No. 206-1, Ex. 1. He concluded that “[i]n short, these barriers will allow DoD to
provide support to DHS more efficiently and effectively.” Id.
Collectively, the eleven projects total $3.6 billion and
include 175 miles of border barrier construction across
four states. Id. These projects fall into three categories:
• Two projects on the Barry M. Goldwater Range
military installation in Arizona;
• Seven projects on federal public domain land that
is under the jurisdiction of the Department of the
Interior; and
• Two projects on non-public land that would need
to be acquired through either purchase or condemnation before construction could begin.
See id., Dkt. Nos. 206 at 2-4, 206-1, Ex. 1. The Secretary of Defense authorized the Secretary of the Army
“to expeditiously undertake the eleven border barrier
military construction projects,” including taking the necessary steps to acquire the public domain and non-public
land as part of “the Army’s real property inventory, either as a new military installation or as part of an existing military installation.” See id., Dkt. No. 206-1, Ex.
1 at 1; see also AR at 3-6, 9-10, 30-31. That same day,
in a briefing on the use of Section 2808, DoD representatives explained that the $3.6 billion would “all go to
adding significantly new capabilities to DHS’s ability to

113a
prevent illegal entry.” See Sierra Club, No. 19-cv00892-HSG, Dkt. No. 210-2, Ex. 17 at 5.
Two days later, on September 5, 2019, the Secretary
of Defense identified which military construction projects
DoD intended to defer in order to fund the border barrier
construction projects.
See California, 19-cv-00872HSG, Dkt. Nos. 207, 207-1, Ex. 1. In total, the Secretary of Defense authorized diverting funding from 128
military construction projects, domestically and abroad.
See id., Dkt. No. 207-1, Ex. 1. Sixty-four of the defunded
military construction projects are located within the
United States; and nineteen projects, totaling over $500
million, are within Plaintiff States California, Colorado,
Hawaii, Maryland, New Mexico, Oregon, Virginia, and
Wisconsin. See id.; see also id., No. 19-cv-00872-HSG,
Dkt. No. 220-5, Exs. 2-19.
The Secretary of Defense explained that he sought to
identify projects for defunding and deferral based on
the projects’ timing, and thus the 128 projects “are not
scheduled for award until fiscal year 2020 or later.”
See AR at 13. Doing so, he stated, would “provide [DoD]
time to work with [Congress] to determine opportunities
to restore funds for these important military construction projects. . . . ” California, 19-cv-00872-HSG,
Dkt. No. 206-2, Ex. 2 at 2; cf. S. 1790, 116th Cong. § 2906
(“Replenishment of Certain Military Construction[]
Funds”). The deferred projects include rebuilding
hazardous materials warehouses at Norfolk and the
Pentagon; replacing a daycare facility for servicemembers’ children at Joint Base Andrews, which reportedly
suffers from “sewage backups, flooding, mold and pests”;
and improving security to comply with anti-terrorism
and force protection standards at Kaneohe Bay. See

114a
Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 202-1, Ex.
1; id., Dkt. No. 210-2, Ex. 18; see also California, No.
19-cv-00872-HSG, Dkt. No. 232 (Brief of Amici Curiae
Iraq and Afghanistan Veterans of America) (“IAVA
Brief ”).
In accordance with the Secretary of Defense’s directive, the Secretary of the Army has taken steps over
the past few months to obtain administrative jurisdiction over some of the land for the border barrier construction projects. On October 7, 2019, the Secretary
of the Interior announced the transfer of approximately
560 acres of federal lands to the Department of the
Army for a period of three years for border barrier construction in Arizona, California, and New Mexico. See
California, No. 19-cv-00872-HSG, Dkt. No. 220-5, Ex. 1.
Additionally, on October 8, 2019, the Secretary of the
Army issued General Order No. 2019-36, which automatically assigns all land transferred to the Army for
Section 2808 border barrier construction projects to the
U.S. Army Garrison Fort Bliss, Texas, irrespective of
the location of the land. See id., Dkt. No. 236-7, Ex. 7.
During the hearing on the motions for partial summary judgment, Defendants’ counsel also represented
to the Court that there have been two contracts awarded
related to the border barrier construction projects.
See California, No. 19-cv-00872-HSG, Dkt. No. 254 at
81:2-24. The first contract relates to the projects on
the Barry M. Goldwater Range, in Arizona: that contract was awarded on November 6, 2019, and ground disturbing activity was anticipated to start no earlier than
November 27, 2019. Id. The second contract relates
to a project in San Diego County, California: that contract was awarded on November 19, 2019, and ground

115a
disturbing activity was anticipated to start no earlier
than December 9, 2019. Id.
B.

Procedural History

Following the passage of the CAA and the President’s national emergency declaration in February
2019, the State and Sierra Club Plaintiffs filed suit challenging Defendants’ anticipated diversion of federal
funds for border barrier construction pursuant to several statutory provisions. These include reallocating
funds from the Treasury Forfeiture Fund; DoD’s Appropriations Act of 2019 under Section 8005 and 10
U.S.C. § 284; and DoD appropriations for military construction projects under Section 2808. See Sierra
Club, No. 19-cv-00892-HSG, Dkt. No. 36-7, Ex. G at 2-4;
see also id., Dkt. No. 64-8, ¶¶ 5-6.
The Court first preliminarily enjoined Defendants’
use of funds for two border barrier construction projects
in New Mexico and Arizona under Section 8005. See
Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 144. The
Court reasoned that Plaintiffs were likely to show that
(1) the language and purpose of Section 8005 precluded
Defendants’ transfer and use of funds for construction
of border barriers because Congress had already explicitly denied those requested funds; (2) the need for such
funds was not unforeseen as the Administration had requested such funding as early as 2018; and (3) Defendants’ proposal likely would violate the Constitution’s
separation of powers principles to the extent it bypassed
Congress’ appropriations authority. Id. At the time,
Sierra Club Plaintiffs also sought a preliminary injunction to preclude Defendants’ proposed use of Section
2808. See id., Dkt. No. 29 at 13-15, 23-25. However,

116a
the Court found that Plaintiffs could not show irreparable harm as needed to warrant an injunction because as
of May 2019, Defendants had not yet made a final decision as to whether to use Section 2808 funds. Id., Dkt.
No. 144 at 51-53.
The Court subsequently affirmed its ruling on Defendants’ use of Section 8005, granting in part the motions for partial summary judgment filed by California,
New Mexico, and the Sierra Club Plaintiffs, and denying
Defendants’ motions for partial summary judgment.
See California, No. 19-cv-00872-HSG, Dkt. No. 185; Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 185. The
Court entered a permanent injunction, prohibiting Defendants from taking any action to construct a border
barrier in the six sectors that Defendants identified in
New Mexico, Arizona, and California, using funds reprogrammed by DoD under Section 8005. Sierra Club,
No. 19-cv-00892-HSG, Dkt. No. 185 at 10.
Following the Court’s summary judgment orders,
Defendants filed an emergency application with the
Ninth Circuit for a stay of the injunction. On July 3,
2019, the Ninth Circuit motions panel denied the stay
application, finding that Defendants’ border barrier
construction was not authorized by any statutory appropriation, such that the proposed reprogramming and use
of these funds violated the Appropriations Clause. See
Sierra Club v. Trump, 929 F.3d 670, 676-77 (9th Cir.
2019). The motions panel further held—over Defendants’ objection—that Plaintiffs have an equitable cause
of action to challenge Defendants’ funding proposal as
unconstitutional, and that Plaintiffs satisfied any “zone
of interests” test that may apply to their claim. See id.
at 694-704; see also Section III.A below.

117a
On July 26, 2019, the Supreme Court stayed the permanent injunction pending resolution of the government’s appeal before the Ninth Circuit and any subsequent writ of certiorari. See Trump v. Sierra Club, 140
S. Ct. 1 (2019). In the one-paragraph decision, the Supreme Court stated that “the Government has made a
sufficient showing at this stage that the plaintiffs have
no cause of action to obtain review of the Acting Secretary’s compliance with Section 8005.” Id. The Supreme Court, however, provided no further explication
of its reasoning, and the appeal before the Ninth Circuit
regarding Section 8005 remains pending.
In the interim, the parties agreed to stay the summary judgment briefing schedule as to Section 2808 and
the Treasury Forfeiture Fund until the Acting Secretary of Defense and U.S. Customs and Border Protection (“CBP”), respectively, reached a final decision to
fund specific barrier construction projects under these
provisions. See California, No. 19-cv-00872-HSG, Dkt.
Nos. 199, 200; Sierra Club, No. 19-cv-00892-HSG, Dkt.
Nos. 191, 197. Because the Secretary of Defense has
since announced his authorization for border barrier
construction projects pursuant to Section 2808, as detailed in Section I.A.ii above, the parties now move for
partial summary judgment as to this proposal.

118a
II. LEGAL STANDARD

Summary judgment is proper when a “movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A fact is “material” if it
“might affect the outcome of the suit under the governing law.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). And a dispute is “genuine” if there is
evidence in the record sufficient for a reasonable trier of
fact to decide in favor of the nonmoving party. Id.
But in deciding if a dispute is genuine, the court must
view the inferences reasonably drawn from the materials in the record in the light most favorable to the nonmoving party, Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587-88 (1986), and “may not
weigh the evidence or make credibility determinations,”
Freeman v. Arpaio, 125 F.3d 732, 735 (9th Cir. 1997),
overruled on other grounds by Shakur v. Schriro, 514
F.3d 878, 884-85 (9th Cir. 2008). If a court finds that
there is no genuine dispute of material fact as to only a
single claim or defense or as to part of a claim or defense, it may enter partial summary judgment. Fed. R.
Civ. P. 56(a).
III.

DISCUSSION

A. Plaintiffs’ Cause of Action

As a threshold matter, Defendants contend that Plaintiffs lack a cause of action through which they may challenge the proposed use of military construction funds
under Section 2808.
They argue that Plaintiffs may not seek equitable relief through an implied cause of action under the Consti-

119a
tution, and that Plaintiffs fall outside the zone of interests protected by Section 2808 and the CAA. As Defendants acknowledge, they raised the same arguments
before this Court and the Ninth Circuit motions panel in
the context of Plaintiffs’ challenge to funding a border
wall using Section 8005. In response, the Ninth Circuit
engaged in a detailed discussion—and rejection—of each
point, concluding that “Plaintiffs have an avenue for
seeking relief.” See Sierra Club, 929 F.3d at 694-704;
see also Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 245
(Brief of Amici Curiae Federal Courts Scholars).
First, the Ninth Circuit held that Plaintiffs could
challenge the reprogramming of funds under Section
8005 “through an equitable action to enjoin unconstitutional official conduct.” Sierra Club, 929 F.3d at 694.
Plaintiffs’ argument there, as here, is that Defendants’
attempt to reprogram funds for border barrier construction violates the Appropriations Clause, and thus
separation of powers principles, because “Defendants
lack any background constitutional authority to appropriate funds.” See id. at 696. The Ninth Circuit confirmed that such a claim is “fundamentally a constitutional one,” and “Plaintiffs may seek equitable relief to
remedy an alleged constitutional violation.” Id. at 69597. That Defendants rely on Section 8005 (or here,
Section 2808) as the basis for their efforts to reallocate
funds for border barrier construction does not convert a
constitutional claim into a statutory one. See id. at 697
(“It cannot be that simply by pointing to any statute,
governmental defendants can foreclose a constitutional
claim.”).
Second, the Ninth Circuit expressed “doubt[] that
any zone of interests test applies to Plaintiffs’ equitable

120a
cause of action to enjoin a violation of the Appropriations Clause.” Id. at 700. A zone of interests test is
used “to ‘determine, using traditional tools of statutory
interpretation, whether a legislatively conferred cause
of action encompasses a particular plaintiff’s claim.’ ”
Id. (quoting Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S. 118, 127 (2014)). The test
“ask[s] whether the plaintiff’s ‘interests fall within the
zone of interests protected by the law invoked.’ ” Id.
(quoting Lexmark, 572 U.S. at 129). The Ninth Circuit
highlighted the problems with applying a zone of interests test to Plaintiffs’ constitutional claim: “[W]here the
very claim is that no statutory or constitutional provision
authorized a particular governmental action, it makes little sense to ask whether any statutory or constitutional
provision was written for the benefit of any particular
plaintiffs.” Id. at 701 (emphasis omitted). Moreover,
“[b]ecause the Constitution was not created by any act
of Congress, it is hard to see how the zone of interests
test would even apply.” Id. at 702. Thus, the Court
concluded that “it is likely sufficient here that Plaintiffs
would be concretely injured by the alleged Appropriations Clause violation, and that no zone of interests test
applies to their claim.” Id. at 701.
Third, even if a zone of interests test did apply to
such a constitutional claim, the Ninth Circuit explained
that the proper inquiry is whether Plaintiffs fall within
the zone of interests of the constitutional provision, and
not the statute Defendants raise in defense. Id. at 70304. The Court explained that “individuals, too, are protected by the operations of separation of powers and
checks and balances,” and thus, Plaintiffs’ contention
“that their rights or liberties were infringed by a violation of the Appropriations Clause . . . falls within

121a
any zone of interests required to enforce that clause’s
provisions.” Id. at 704 (quotation omitted).
i. Miller v. Gammie

Defendants urge the Court to disregard the Ninth
Circuit’s reasoning in light of the Supreme Court’s opinion staying the permanent injunction as to Section 8005.
See Trump, 140 S. Ct. at 1. Defendants argue that the
“Supreme Court decision sends a strong signal” that
they ultimately will prevail on the claim that their
exercise of authority under Section 8005 may not be
challenged by these Plaintiffs. See Sierra Club, No.
19-cv-00892-HSG, Dkt. No. 236 at 11. This claimed
“strong signal” is based on a sentence in the Supreme
Court’s stay order stating that “the Government has
made a sufficient showing at this stage that the plaintiffs
have no cause of action to obtain review of the Acting
Secretary’s compliance with Section 8005.”
See
6
However, notwithstanding
Trump, 140 S. Ct. at 1.
Defendants’ characterization of this “signal,” the Court
may not so readily disregard the Ninth Circuit’s opinion.
The Ninth Circuit has cautioned that only in cases of
The October 15, 2019, veto message went further, claiming that
the proclamation itself “has withstood judicial challenge in the Supreme Court.” See S.J. Res. 54 Veto Message. This is inaccurate:
the injunction that was the subject of the stay involved a funding
source that did not depend on the emergency declaration, and the
validity of the proclamation has never been addressed by the Ninth
Circuit or the Supreme Court. See Sierra Club, 929 F.3d at 686
(explaining that the Ninth Circuit’s opinion “does not address any
sources of funds Defendants might use to build a border barrier
except those reprogrammed under section 8005”), 679, & n.1 (explaining that DoD’s proposed use of funds reprogrammed under
Section 8005 to provide support for other agencies under section
284 “does not require the declaration of a national emergency”).
6

122a
“clear irreconcilability” can district courts “consider
themselves bound by the intervening higher authority
and reject the prior opinion of [the Ninth Circuit] as having been effectively overruled.” Miller v. Gammie, 335
F.3d 889, 899-900 (9th Cir. 2003) (en banc). “This is a
high standard,” which “requires [the district court] to
look at more than the surface conclusions of the competing authority.” Rodriguez v. AT & T Mobility Servs.
LLC, 728 F.3d 975, 979 (9th Cir. 2013) (quotation omitted).
At this stage, the Court can only speculate regarding
the reasoning underlying the stay, including what it
means for how the Supreme Court may ultimately assess the merits of these two cases. 7 As Justice Breyer
explained, “[t]his case raises novel and important questions about the ability of private parties to enforce Congress’ appropriations power.” Trump, 140 S. Ct. 1
(Breyer, J., concurring in part and dissenting in part).
Because the Supreme Court opinion does not address
these questions directly, the Court cannot find that it is
“clearly irreconcilable with the reasoning or theory” in
the Ninth Circuit panel opinion. See Miller, 335 F.3d
at 899; accord Close v. Sotheby’s, Inc., 894 F.3d 1061,
1074 (9th Cir. 2018) (holding that even where a prior
panel opinion’s “reasoning would be suspect today, [] it
is not clearly irreconcilable with intervening higher authority”); Doe v. Trump, 284 F. Supp. 3d 1182, 1184-85
During oral argument on the motions, counsel for Defendants
also acknowledged that he did not know the precise grounds on
which the Supreme Court stayed the permanent injunction. Counsel
opined that the majority could have “meant there is not a cause of
action period, or there’s not a cause of action for these plaintiffs
because of the zone of interests test” applicable to their claim.
See California, No. 19-cv-00872-HSG, Dkt. No. 254 at 53:17-20.
7

123a
(W.D. Wash. 2018) (“[T]his court is not at liberty to simply
ignore binding Ninth Circuit precedent based on Defendants’ divination of what the Supreme Court was thinking when it issued the stay orders. . . . ”). The
Ninth Circuit’s opinion in Sierra Club v. Trump therefore controls this Court’s analysis.
ii. Zone of Interests

Following the Ninth Circuit’s reasoning, as it must,
the Court finds that Plaintiffs may challenge Defendants’ funding for border barrier construction under Section 2808. As with their challenge to Defendants’ use
of funds under Section 8005, Plaintiffs’ claim that Defendants’ use of military construction authority under
Section 2808 violates the Appropriations Clause is “fundamentally a constitutional” claim. See Sierra Club,
929 F.3d at 696-97. And to the extent Plaintiffs must
fall within the zone of interests of the Appropriations
Clause to assert this claim, see id. at 703-04, the Court
finds this “low bar” easily satisfied here. See Cook v.
Billington, 737 F.3d 767, 771 (D.C. Cir. 2013) (Kavanaugh, J.) (“A plaintiff with Article III standing satisfies the requirement unless his interests are so marginally related to or inconsistent with the purposes implicit
in the statute that it cannot reasonably be assumed that
Congress intended to permit the suit.” (quotation
omitted)).
The Court first looks to the fundamental interests
protected by the Appropriations Clause, and observes
that the importance of those interests cannot be overstated. The Appropriations Clause “is particularly important as a restraint on Executive Branch officers: If
not for the Appropriations Clause, the Executive would
possess an unbounded power over the public purse of

124a
the nation; and might apply all its monied resources at
his pleasure.” U.S. Dep’t of Navy v. Fed. Labor Relations Auth., 665 F.3d 1339, 1347 (D.C. Cir. 2012) (Kavanaugh, J.) (quotation omitted). As such, members of
the public, and not just Congress, have an interest in ensuring that the Constitution’s checks on executive power
are upheld. As the Ninth Circuit noted, “[t]he Appropriations Clause is a vital instrument of separation of
powers, which has as its aim the protection of individual
rights and liberties—not merely separation for separation’s sake.” Sierra Club, 929 F.3d at 704. Both State
and Sierra Club Plaintiffs assert that if Defendants proceed with their proposed spending plan in contravention
of Congress’ appropriations judgment, they will suffer
injury to their “environmental, professional, aesthetic,
and recreational interests.” Id. In short, the Court
finds that Plaintiffs have a cause of action to challenge
Defendants’ invocation of Section 2808 as unconstitutional, and proceeds to analyze this claim below.
B.

Section 2808

The Ninth Circuit’s opinion in Sierra Club v. Trump
further guides the Court’s analysis of Plaintiffs’ constitutional claim. See Sierra Club, 929 F.3d at 689-92.
Plaintiffs’ claim—and the legal theory undergirding both
cases—is that Defendants seek to circumvent Congress’
appropriations power, and its judgment to provide the
Administration with limited funds for specified and limited border barrier construction, by seeking funding
through alternative channels. Defendants’ counsel characterized the Administration’s approach as “a full-court
press,” meaning they are using any means that they contend are available to them to fund a border wall. See
California, No. 19-cv-00872-HSG, Dkt. No. 254 at 73:5-19.

125a
Although Plaintiffs appear to challenge all funding for
border barrier construction outside of the CAA, for purposes of this order, Defendants contend that in Section
2808, Congress allowed Defendants to make this reallocation from existing military construction projects to
the border barrier construction. Because Congress
only exercises its appropriations power through statutes, the Ninth Circuit accordingly focused its analysis
on the text and purpose of Defendants’ asserted defense. Sierra Club, 929 F.3d at 689-92. The critical
inquiry, therefore, is whether Section 2808 authorizes
this reallocation. If it does not, “then Defendants are
acting outside of any statutory appropriation and are
therefore spending funds contrary to Congress’s appropriations decisions.” Id. at 689. The Court therefore
analyzes whether Defendants’ conduct falls within the
statutory authority provided by Section 2808.
Under Section 2808, the Secretary of Defense may
use funds previously appropriated for other projects in
limited circumstances where three factors are satisfied:
(1) there is a national emergency that requires use of the
armed forces, and (2) “military construction projects”
are (3) “necessary to support such use of the armed
forces.” See 10 U.S.C. § 2808(a). Plaintiffs challenge
all three conditions, arguing that Defendants fail to satisfy any of them.
i. Justiciability

As a threshold matter, Defendants assert that the
Court may not assess whether they have satisfied the
statute’s requirements, because their decision to undertake military construction pursuant to Section 2808 was
entirely committed to agency discretion. See Sierra
Club, No. 19-cv-00892-HSG, Dkt. No. 236 at 15-16, 19-

126a
20. Defendants reason that there is no meaningful
standard against which the Court can determine whether
the President or Secretary of Defense exceeded the authority granted by Congress by declaring a national
emergency that required use of the armed forces; authorizing use of Section 2808; or undertaking military
construction projects under Section 2808. Id. In
short, Defendants contend that the President and Secretary of Defense have unreviewable discretion, under
both the NEA and Section 2808, to determine whether
an emergency exists that meets the statutory criteria.
Plaintiffs indicated during oral argument that they are
not challenging the President’s emergency declaration
per se, but rather whether it meets the statutory criteria
for an emergency under Section 2808. See California,
No. 19-cv-00872-HSG, Dkt. No. 254 at 12:6-16:12. The
Court addresses that narrow challenge as part of its
statutory analysis in Section III.B.ii. Here, however,
the Court cabins its analysis to Defendants’ argument
that their invocation of Section 2808 itself is committed
to agency discretion by law, and as such, is nonjusticiable. See 5 U.S.C. § 701(a)(2). The Court disagrees
that its ability to review Defendants’ conduct is so circumscribed.
As the Ninth Circuit has repeatedly held, “[t]he default rule is that agency actions are reviewable under
federal question jurisdiction, pursuant to 28 U.S.C.
§ 1331 . . . even if no statute specifically authorizes
judicial review.” See Perez v. Wolf, No. 18-35123, 2019
WL 6224421, at *5 (9th Cir. Nov. 11, 2019) (quoting ANA
Int’l, Inc. v. Way, 393 F.3d 886, 890 (9th Cir. 2004)). A
decision is generally committed to agency discretion by
law, and thus not subject to judicial review, when a court
would have “no meaningful standard against which to

127a
judge the agency’s exercise of discretion.” Id. at *5
(quotation omitted). This is rare. “Only where there
is truly ‘no law to apply’ ha[s] [the Ninth Circuit] found
an absence of meaningful standards of review.” Id. at
*6 (quoting Spencer Enterprises, Inc. v. United States,
345 F.3d 683, 688 (9th Cir. 2003)). Courts must assess
“the language of the statute and whether the general
purposes of the statute would be endangered by judicial
review.’ ” ASSE Int’l, Inc. v. Kerry, 803 F.3d 1059, 1068
(9th Cir. 2015) (quotation omitted).
Engaging in this exercise, the Ninth Circuit recently
explained that “courts routinely treat discretion-laden
standards as providing ‘law to apply.’ ” Perez, 2019 WL
6224421, at *8-*9 (collecting cases). In Perez v. Wolf,
the Ninth Circuit held that U-Visa determinations made
by the United States Citizenship and Immigration Service (“USCIS”) are subject to judicial review because
the statutory framework provides a meaningful standard against which to assess the agency’s exercise of discretion. Id. at 15-16. The statutory provision requires that a U-Visa applicant:
(1) has suffered “substantial physical or mental
abuse” as a result of having been a victim of qualifying criminal activity; (2) “possesses information”
about qualifying criminal activity; and (3) “has been
helpful, is being helpful, or is likely to be helpful” to
an authority “investigating or prosecuting” qualifying criminal activity.
Id. at *8 (citing 8 U.S.C. § 1101(a)(15)(U)(i)). Although
terms such as “substantial” and “helpful” contain an element of subjectivity, the Ninth Circuit nevertheless
found that they constituted “law to apply.” Id.

128a
The Court finds that Section 2808 likewise provides
“meaningful standards” for reviewing Defendants’ compliance with its conditions. The diversion of funds from
existing military construction projects is only authorized for (1) “military construction projects” that are (2)
“necessary to support such use of the armed forces.”
See 10 U.S.C. § 2808(a). Congress defined military
construction as “any construction, development, conversion, or extension of any kind carried out with respect to
a military installation, whether to satisfy temporary or
permanent requirements, or any acquisition of land or
construction of a defense access road.” Id. § 2801(a).
And Congress defined “military installation,” in turn, as
“a base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military
department or, in the case of an activity in a foreign
country, under the operational control of the Secretary
of a military department or the Secretary of Defense,
without regard to the duration of operational control.”
Id. § 2801(c)(4). Section 2808 therefore establishes
statutory standards that constrain its use. And applying these standards to determine “whether the reprogramming of funds is consistent with the Appropriations
Clause and [Section 2808] . . . is a familiar judicial
exercise.” See Sierra Club, 929 F.3d at 687 (quotation
omitted).
That the statute conditions authorization on the existence of a national emergency and the use of the armed
forces does not, on its own, convert the legal exercise of
statutory interpretation into a purely political one.
The Ninth Circuit’s opinion in United States v. Spawr
Optical Research, Inc., is illustrative. In Spawr, President Gerald Ford relied on the continued existence of

129a
two national emergencies to forbid the shipment of certain strategic items to foreign countries under the Trading with the Enemy Act (“TWEA”). 685 F.2d 1076,
1079-80 (9th Cir. 1982). During a national emergency,
TWEA empowered the president to “regulate, . . .
prevent or prohibit . . . any exportation of . . .
or transactions involving[] any property in which any
foreign country . . . has any interest.” 50 U.S.C.
§ 4305(b)(1)(B). The Ninth Circuit distinguished between “the essentially political questions surrounding
the declaration or continuance of a national emergency,”
on the one hand, and the legal question of “whether the
actions taken pursuant to a national emergency comport
with the power delegated by Congress,” on the other.
See Spawr, 685 F.2d at 1080-81. The Ninth Circuit
held that courts “are free to review” whether the Executive Branch has legal authority to act, and went on to
determine whether the regulations at issue were rationally related to the emergencies. See id. at 1081 (concluding that “President Ford’s effort to limit the exportation of strategic items clearly had a rational relationship to the prevention of aggression and armed conflict”).
The Court fully appreciates that “[n]ational-security
policy is the prerogative of the Congress and President,” and that their military judgments are due deference. See Ziglar v. Abbasi, 137 S. Ct. 1843, 1861 (2017);
see also Rostker v. Goldberg, 453 U.S. 57, 66 (1981) (acknowledging “a healthy deference to legislative and executive judgments in the area of military affairs”). But
“the judiciary appropriately exercises its constitutional
function where the question is whether Congress or the
Executive is aggrandizing its power at the expense of

130a
another branch.” Sierra Club, 929 F.3d at 687 (quotation omitted). As the Ninth Circuit explained, “ ‘courts
cannot avoid their responsibility merely because the issues have political implications.’ ” Id. (quoting Zivotofsky v. Clinton, 566 U.S. 189, 196 (2012)). The Court
accordingly may, and must, determine whether Defendants have exceeded the limits set by Congress regarding
spending under Section 2808, while affording both branches due deference. As summarized by the Ninth Circuit
in another case in which the Executive Branch invoked
national security concerns in support of its nonjusticiability argument:
To declare that courts cannot even look to a statute
passed by Congress to fulfill international obligations
turns on its head the role of the courts and our core
respect for a co-equal political branch, Congress.
Interpreting and applying [the statute at issue] does
not prevent the military from planning and building
bases. It requires only that the executive take into
account certain procedural obligations, required by
Congress, before it takes steps forward. The courts
may then look to whether the executive complied with
its obligations. We may consider national security
concerns with due respect when the statute is used as
a basis to request injunctive relief. This is not a
grim future, and certainly no grimmer than one in
which the executive branch can ask the court for
leave to ignore acts of Congress.
Ctr. for Biological Diversity v. Mattis, 868 F.3d 803,
825-26 (9th Cir. 2017).

131a
ii. Statutory Interpretation

Having found that Section 2808 provides meaningful
standards against which the Court may analyze Defendants’ conduct under the statute, the Court reviews their
compliance with those standards. The Court provided
its initial impression as to Defendants’ compliance with
Section 2808 in its preliminary injunction order in Sierra Club v. Trump. See Sierra Club, 19-cv-00892HSG, Dkt. No. 144 at 42-46. At the time, the Court expressed reservations that “border barrier construction
could reasonably constitute a ‘military construction project’ such that Defendants’ invocation of Section 2808
would be lawful,” and also raised concerns that Defendants’ interpretation of Section 2808 would cede unbounded authority to Defendants to redirect military
construction funds. See id. at 42-43. Now that Defendants have specified how they intend to use Section
2808, the Court confirms its preliminary analysis, finding that the eleven border barrier projects are not “military construction projects” that are “necessary to support such use of the armed forces.” See 10 U.S.C.
§ 2808(a).
a.

Emergency Requiring Use of the Armed
Forces

Sierra Club Plaintiffs alone challenge the President’s
February 15 declaration of a national emergency to the
extent that the President simultaneously concluded that
this emergency required use of the armed forces. 8 See
State Plaintiffs, on the other hand, explicitly note that for purposes of their motion for partial summary judgment they are not
challenging the President’s declaration of a national emergency.
See California, No. 19-cv-00872-HSG, Dkt. No. 220 at 8.
8

132a
Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 210 at 9-11.
Sierra Club Plaintiffs couch this as a statutory condition, and thus as a matter of statutory interpretation under Section 2808 rather than one of policy or politics.
The Court is not persuaded.
Sierra Club Plaintiffs assert that there is no true
emergency at the southern border, and that even if
there were, DHS, not DoD, has jurisdiction over protecting the nation’s borders. In support of their challenge, Sierra Club Plaintiffs point to the text of the proclamation itself, which states in relevant part:
[R]ecent years have seen sharp increases in the number of family units entering and seeking entry to the
United States and an inability to provide detention
space for many of these aliens while their removal
proceedings are pending . . . [T]he Department
of Defense has provided support and resources to the
Department of Homeland Security at the southern
border. Because of the gravity of the current emergency situation, it is necessary for the Armed Forces
to provide additional support to address the crisis.
Proclamation No. 9844. Plaintiffs contend that “unarmed parents and children seeking refuge do not require
a military response.” See Sierra Club, No. 19-cv-00892HSG, Dkt. No. 210 at 11. Plaintiffs also point to comments made by DoD officials outside the proclamation
that the situation at the border is “not a military threat.”
See, e.g., id., Dkt. No. 210-2, Ex. 15 at 50-52 (Acting U.S.
Secretary of Defense Shanahan and General Joseph
Dunford concurring that the “situation on the southern
border” is a “security challenge” and “not a military
threat”); Ex. 16 at 2 (Admiral Michael M. Gilday, Operations Director of the Joint Staff, stating that “[n]one of

133a
the capabilities that we are providing are combat capabilities” and “[i]t’s not a war zone along the border”).
Rather, in Plaintiffs’ view, Defendants are using DoD’s
temporary and limited support of DHS—the civilian
agency that Congress has tasked with border security
and immigration enforcement—to justify funding the
border barriers that DHS has sought to build. See,
e.g., 6 U.S.C. §§ 202, 251; 8 U.S.C. §§ 1103(a)(5), (a)(10).
At bottom, Plaintiffs’ theory is premised on the idea
that the proclamation was designed solely to avoid Congress’ appropriations judgment and that the emergency
is a convenient pretext. The Court acknowledges that
both the timing and nature of the emergency raise obvious questions. The Administration repeatedly and unsuccessfully sought appropriations from Congress for
border barrier construction. When Congress and the
President could not agree on such funding, the President suggested his willingness to declare a national emergency if Congress refused to appropriate the money he requested. See, e.g., California, 19-cv-00872-HSG, Dkt.
No. 59-4, Ex. 21. When asked about his threshold for
declaring an emergency, the President stated, “[m]y
threshold will be if I can’t make a deal with people that
are unreasonable.” See George Sargent, Trump: I
have the ‘absolute right’ to declare a national emergency if democrats defy me, Wash. Post (Jan. 9, 2019),
https://tinyurl.com/y5f5eqwg. And the President then
declared the national emergency one day after Congress
passed the CAA, which limited appropriations for border barrier construction. See Proclamation No. 9844.
In announcing the national emergency declaration, the
President explained, “I could do the wall over a longer
period of time. I didn’t need to do this. But I’d rather
do it much faster. . . . And I think that I just want

134a
to get it done faster, that’s all.” See California, No.
19-cv-00872-HSG, Dkt. No. 59-4, Ex. 50.
All this said, there is no precedent for a court overriding a President’s discretionary judgment as to what
is and is not an emergency. That one of the conditions
to invoke Section 2808 is that the emergency require use
of the armed forces does not alter the nature of the inquiry. Sierra Club Plaintiffs are still asking the Court
to evaluate the “policy choice[] and value determination[]” underlying the President’s emergency proclamation. Japan Whaling Ass’n v. Am. Cetacean Soc., 478
U.S. 221, 230 (1986). Plaintiffs have not cited, and the
Court has not found, any case in which a court has assessed the nature and validity of an emergency proclamation. Cf. California, No. 19-cv-00872-HSG, Dkt. No.
254 at 12:6-16:12. To the contrary, as discussed in Section III.B.i above, the Ninth Circuit has characterized
“the declaration or continuance of a national emergency”
as an “essentially political question[].” Spawr, 685
F.2d at 1080-81. The Court accordingly finds that whether the national emergency truly exists, and requires use
of the armed forces, are nonjusticiable political questions.
The Court nevertheless acknowledges the significant
constitutional tension inherent in the President’s invocation of a national emergency under the NEA for the
avowed purpose of accessing money to fund projects
that Congress expressly considered and declined to
fund. It is apparent that at the time Congress enacted
the NEA it did not envision the statute would (or even
could) be used to circumvent the will of Congress. As
the Court previously explained, Congress initially reserved the right to terminate a national emergency with

135a
a simple majority and without the opportunity for a
presidential veto. See Sierra Club, No. 19-cv-00892HSG, Dkt. No. 144 at 13-14, & n.8; see also id., Dkt. No.
219 at 10-15 (Brief of Amici Curiae Brennan Center for
Justice and the Cato Institute) (“Brennan Center
Brief ”). Thus, prior to the Supreme Court’s opinion in
INS v. Chadha, it would have been impossible for the
President to use the NEA to somehow bypass the will of
a congressional majority. See 462 U.S. at 944-58; see
also Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 219
(Brennan Center Brief) at 15 (“The notion that Congress intended the NEA as an affirmative delegation of
unlimited discretion to the president—one that would
allow the president to circumvent the will of Congress
on specific policy proposals—is contradicted by this and
every other aspect of the legislative history.”).
Still, Congress is not without recourse. Under the
NEA, “[a]ny national emergency declared by the President in accordance with this subchapter shall terminate
if . . . there is enacted into law a joint resolution terminating the emergency.”
50 U.S.C. § 1622(a)(1).
Moreover, the NEA not only allows, but in fact obligates, Congress to “consider a vote on a joint resolution
to determine whether that emergency shall be terminated” every six months. See id. § 1622(b). Congress
thus has the authority to monitor and if needed, reverse,
the President’s determination that circumstances at the
southern border constitute a national emergency. That
Congress has so far been unable to override the President’s veto with a two-thirds majority vote does not
somehow transform this fundamentally political question into a legal one. Because the national emergency
remains in effect, the Court may not opine as to whether
the President properly invoked the NEA by declaring a

136a
national emergency requiring the use of the armed
forces at the southern border.
b. Military Construction Project

Next, the parties disagree as to whether the border
barrier construction projects constitute “military construction projects” for purposes of Section 2808. 9 As
noted above, Congress defined the term “military construction” to “include[] any construction, development,
conversion, or extension of any kind carried out with respect to a military installation, whether to satisfy temporary or permanent requirements, or any acquisition of
land or construction of a defense access road. . . . ”
10 U.S.C. § 2801(a). Because it is apparent that border
barrier construction constitutes “construction,” the critical question before the Court is whether the eleven proposed projects are being “carried out with respect to a
military installation.” Id.; see also id. § 2801(b) (“A
military construction project includes all military construction work . . . necessary to produce a complete
and useable facility or a complete and usable improvement to an existing facility.”).
A “military installation,” in turn, “means a base,
camp, post, station, yard, center, or other activity under

During the hearing, Sierra Club Plaintiffs explained that they
are not challenging whether the two projects on the Barry M. Goldwater Range, an existing military installation, constitute military
construction for purposes of Section 2808. See California, No.
19-cv-00872-HSG, Dkt. No. 254 at 85:12-19. Defendants have
identified these two projects as Yuma Project 2 and Yuma Project
10/27. But Plaintiffs still challenge whether any of the eleven projects are necessary to support use of the armed forces. See Section III.B.ii.c.
9

137a
the jurisdiction of the Secretary of a military department. . . . ” Id. § 2801(c)(4). Defendants do not
attempt to characterize the projects as either a “base,
camp, post, station, yard, [or] center.”
See id.
§ 2801(c)(4). Instead, they reason that the 175 miles of
proposed border barrier construction fall within the
“other activity” definition because DoD has obtained—
or will obtain—administrative jurisdiction over the land
for these projects and assign it to Fort Bliss in Texas.
See California, No. 19-cv-00872-HSG, Dkt. No. 236-7,
Ex. 7 (General Order No. 2019-36). By obtaining administrative jurisdiction over the land in this way, they
conclude, all eleven projects will be part of an existing
military installation. Id. In other words, Defendants
contend that “military installation” is “inclusive of [any]
activities under the jurisdiction of the Secretary of a military department.” See id., Dkt. No. 236 at 13. The
Court finds several flaws with this expansive interpretation.
First, Defendants’ interpretation requires the Court
to disregard the plain language of the statute. Defendants would have the Court transform the definition of
“military installation” to include not just “other activity,” but “any activity” under military jurisdiction. That
simply is not what the statute says. 10 As the Supreme

In its opposition to Sierra Club Plaintiffs’ motion for a preliminary injunction as to Section 2808, see Sierra Club, No. 19-cv-00892HSG, Dkt. No. 64 at 21-23, Defendants initially posited that the asyet unidentified border barrier projects would fall within the “other
activity” category. Applying traditional tools of statutory construction, the Court explained that “a base, camp, post, station, yard,
[and] center” are all discrete and traditional military locations, and
10

138a
Court has noted, when interpreting a statute, context
matters. See, e.g., McDonnell v. United States, 136
S. Ct. 2355, 2368 (2016) (“[W]e look to the context in
which the words appear.”); see also ASARCO, LLC v.
Celanese Chem. Co., 792 F.3d 1203, 1210 (9th Cir. 2015)
(“[T]he plain language of a statute should be enforced
according to its terms, in light of its context.”). And
here, as the Court cautioned before, the terms “base,
camp, post, station, yard, [or] center” are not mere surplusage to ignore, but rather supply meaning and provide boundaries to the term “other activity.” See, e.g.,
McDonnell, 136 S. Ct. at 2369 (explaining that canons of
construction are “wisely applied . . . to avoid the
giving of unintended breadth to the Acts of Congress”
(quotation omitted)); Yates v. United States, 135 S. Ct.
1074, 1087 (2015) (“Had Congress intended ‘tangible object’ in § 1519 to be interpreted so generically as to capture physical objects as dissimilar as documents and
fish, Congress would have had no reason to refer specifically to ‘record’ or ‘document.’ The Government’s unbounded reading of ‘tangible object’ would render those
words misleading surplusage.”); CSX Transp., Inc. v.
Ala. Dept. of Revenue, 562 U.S. 277, 295 (“We typically
use ejusdem generis to ensure that a general word will
not render specific words meaningless.”). Defendants
do not even attempt to explain how the proposed projects are similar in nature or scope to “a base, camp,
post, station, yard, [or] center,” 10 U.S.C. § 2801(c)(4),
and the Court finds that they are not.

“other activity” must refer to similar locations. The Court incorporates that reasoning again here, in all respects. See id., Dkt.
No. 144 at 44-45.

139a
Rather than engaging with the text of the statute,
Defendants rely heavily on the Supreme Court’s decision in United States v. Apel, 571 U.S. 359, 368 (2014).
There, the Supreme Court noted that “ ‘military duty’
and ‘military protection’ are synonymous with the exercise of military jurisdiction,” and that the term “ ‘military installation’ is used [that way] elsewhere in federal
law.” Id. (emphasis omitted). The Supreme Court,
however, was not analyzing the definition of military installations under Section 2808 or 10 U.S.C. § 2801(c)(4).
The case involved an entirely different statute under Title 18, which imposed a criminal fine on anyone who
reentered a “military, naval, or Coast Guard reservation, post, fort, arsenal, yard, station, or installation” after being removed. See 18 U.S.C. § 1342. The question before the Court in Apel was whether a public easement on an Air Force base was still considered part of
the military installation. The Court rejected “[t]he
use-it-or-lose-it rule” that § 1342 only applied where the
military had exclusive use, possession, or control over
the property in question. Apel, 571 U.S. at 372. In
doing so, the Court cited the language of 10 U.S.C.
§ 2801(c)(4), but did not engage in any analysis of its possible limitations. See id. at 368. Indeed, to the extent
Apel provides any insight for the interpretation of Section 2808, it is simply that statutes must be read in context, and with an eye toward common sense. Id. at 36972.
Defendants also suggest that Congress intended
“military installation” in Section 2808 to be read broadly
because elsewhere it defined the term differently. Under 10 U.S.C. § 2687(g)(1), for example, Congress defined “military installation” in the context of base clo-

140a
sures to “mean[] a base, camp, post, station, yard, center, homeport facility for any ship, or other activity under the jurisdiction of the Department of Defense,” but
excluded “any facility used primarily for civil works, rivers and harbors projects, or flood control projects.”
Id. The Court acknowledges that Congress may provide different definitions in different statutes, but this
does not open the door to a limitless definition of military installation in Section 2808. Again, part of the inquiry is context and congressional intent, but Defendants do not engage with either.
Second, Defendants’ interpretation would grant them
essentially boundless authority to reallocate military
construction funds to build anything they want, anywhere they want, provided they first obtain jurisdiction
over the land where the construction will occur. Although Defendants attempt to reassure the Court that
they “are not arguing that the entire southern U.S. border” constitutes a military installation for purposes of
Section 2808, see California, No. 19-cv-00872-HSG, Dkt.
No. 236 at 13, there is nothing in their interpretation to
preclude them from doing so. When asked during the
hearing whether Defendants’ reading of Section 2808
had a limiting principle, counsel could not articulate one.
See id., Dkt. No. 254 at 62:21-64:3.
The scale of what is possible under this reading is immense. The eleven projects at issue in the instant motions are illustrative. Defendants acknowledge that
nine of the proposed projects are on federal public domain or non-public land, not previously under military
jurisdiction. See id., Dkt. Nos. 206 at 2-4, 206-1, Ex. 1.
These nine projects, which cover 140 of the 175 total
miles of border barrier construction at issue, are located

141a
on land spanning several hundred miles in Arizona, California, New Mexico, and Texas. But Fort Bliss, the
military installation to which Defendants will administratively assign the land, is located near El Paso, Texas.
Defendants suggest that projects located several hundred miles away from Fort Bliss are nevertheless “carried out with respect to [that] military installation,” provided Defendants complete the right paperwork. See
10 U.S.C. § 2801(a). 11 Under this interpretation, construction can be considered “carried out with respect to
a military installation” even if it is otherwise wholly unrelated to the installation’s functions, purpose, or even
geography. Indeed, Defendants do not offer any substantive connection between the proposed construction
here and Fort Bliss. Instead they acknowledge that
the construction sites are assigned administratively to
Fort Bliss “for real property accountability purposes.”
See California, No. 19-cv-00872-HSG, Dkt. No. 251 at 4;
The Court notes that in an August 21, 2019, “Action Memo,” the
Assistant Secretary of Defense, Homeland Defense and Global Security said that in order for border barrier projects to constitute military construction projects, a military department would need to report the land in its inventory “either as its own installation or as part
of an existing, nearby military installation.” AR at 3 (emphasis
added). Defendants now contend that this common-sense “nearby”
condition is not actually a formal requirement of the statute. See
California, No. 19-cv-00872-HSG, Dkt. No. 251 at 3-4. Even if that
is technically true, the Court finds it plain that Defendants’ characterization of the breadth of the asserted power to cobble together
far-flung parcels as part of one “military installation” goes far beyond any historical example they cite. See id., Dkt. No. 249 at 7-8
(citing auxiliary landing field located 40 miles away from main military installation as an example of a “geographically separated location[] . . . part of, but physically separate from” that installation).
11

142a
see id., Dkt. No. 251-1 at ¶¶ 7-11. They further state
that “Fort Bliss is the largest, most capable Active
Army installation in the vicinity of the southern border.”
Id. The Court is not persuaded that Congress intended
“military construction” to have no stronger connection
to a military installation than Defendants’ own administrative convenience. If this were true, Defendants
could redirect billions of dollars from projects to which
Congress appropriated funds to projects of Defendants’
own choosing, all without congressional approval (and in
fact directly contrary to Congress’ decision not to fund
these projects). Elevating form over substance in this
way risks “the Executive [] aggrandizing its power at
the expense of [Congress].” Sierra Club, 929 F.3d at
687 (quotation omitted).
Third, Defendants’ interpretation contravenes clear
congressional intent to limit—not expand—executive
emergency powers. The NEA was passed in 1976 as a
reform measure, following concern about the duration of
the national emergencies that presidents had declared
historically, and the scope of their related emergency
powers. See L. Elaine Halchin, National Emergency
Powers, Cong. Research Serv., 98-505 (Aug. 5, 2019).
For example, an emergency declaration that was issued
at the start of the Korean War in 1950 was still being
used decades later with respect to the Vietnam War.
Id. at 7. In 1973, there were four national emergencies
still in effect from 1933, 1950, 1970, and 1971. See id.
The Senate, therefore, created a special committee,
known as the Special Committee on National Emergencies and Delegated Emergency Powers, to evaluate this
issue. See id. at 7-8. Through its work, the Committee identified 470 provisions of federal law that granted
the president extensive emergency powers. See id. at 8.

143a
The Committee developed legislation—the NEA—to
limit the scope of such emergency powers. In support
of the NEA, the Committee explained the need to place
limits on the presidential use of emergency powers:
Right now, hundreds of emergency statutes confer
enough authority on the President to rule the country
without reference to normal constitutional process.
Revelations of how power has been abused by high
government officials must give rise to concern about
the potential exercise, unchecked by the Congress or
the American people, of this extraordinary power.
The National Emergencies Act would end this threat
and [e]nsure that the powers now in the hands of the
Executive will be utilized only in time of genuine
emergency and then only under safeguards providing
for Congressional review.
See Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 219
(Brennan Center Brief ) at 12-13 (quoting The National
Emergencies Act (Public Law 94-412), Source Book:
Legislative History, Text, and Other Documents (1976)
(“NEA Source Book”). In its report, the Committee
noted that “[t]he National Emergencies Act is not intended to enlarge or add to Executive power. Rather
the statute is an effort by the Congress to establish clear
procedures and safeguards for the exercise by the President of emergency powers conferred upon him by other
statutes.” Id. at 14 (quoting NEA Source Book).
In keeping with this narrower view of executive
emergency powers, Section 2808 has rarely been used,
and never to fund projects for which Congress withheld
appropriations. Rather, Section 2808 has been used to
build projects like aircraft hangars, barracks, airfield
runways, detention facilities, logistics hubs, and waste

144a
water treatment plants. See Vassalotti, at 2-3. Defendants’ invocation of Section 2808 for border barrier
construction, in conflict with Congress’ judgment on
those projects, is simply unprecedented, contrary to the
Administration’s claims. 12 This, on its own, is enough
to warrant close scrutiny: “When an agency claims to
discover in a long-extant statute an unheralded power to
regulate a significant portion of the American economy,
we typically greet its announcement with a measure of
skepticism.” Util. Air Regulatory Grp. v. EPA, 573
U.S. 302, 324 (2014) (quotation omitted). Put simply,
the Court does not find that Section 2808 was intended
to be used to resolve policy disputes with Congress or to
provide the Executive Branch with unchecked power to
transform the responsibilities assigned by law to a civilian agency into military ones by reclassifying large
swaths of the southern border as “military installations.”
Such an interpretation defies both the text and spirit of
the statute. The Court, therefore, finds that the border barrier construction projects, with the exception of
the two projects on the Barry M. Goldwater range, are
not “carried out with respect to a military installation”
within the meaning of Section 2808.

Compare S.J. Res. 54 Veto Message (“Proclamation 9844 was
neither a new nor novel application of executive authority. Rather it is the sixtieth Presidential invocation of the [NEA]. It relies upon the same statutory authority used by both of the previous
two Presidents to undertake more than 18 different military construction projects from 2001 through 2013.”), with Sierra Club, No.
19-cv-00892-HSG, Dkt. No. 219 (Brennan Center Brief ) at 20
(“Perhaps most significantly, in none of these cases did presidents
invoke emergency powers to take action after Congress had explicitly considered and rejected legislation to authorize such action.”).
12

145a
c. Necessary to Support Use of the Armed
Forces

Even assuming the border barrier construction could
somehow be considered military construction for purposes of Section 2808, the parties also disagree as to
whether the proposed projects are necessary to support
the use of the armed forces. Defendants rely on a
lengthy administrative record, which, they say, explains
why the projects are necessary to provide such support.
But even crediting all facts in the administrative record,
and giving due deference to the strategic and military
determinations in it, the Court finds that Defendants
have not established that the projects are necessary to
support the use of the armed forces.
The problem is twofold. Inherent in Defendants’
argument and the administrative record is that the proposed border barrier projects are intended to support
and benefit DHS, a civilian agency, rather than the
armed forces. And although the administrative record
explains why such border barrier projects may be beneficial to DHS’s mission, Defendants have not established
that they are in fact necessary to support the use of the
armed forces—which is the statutory limitation set by
Congress. The Court discusses each issue in turn.
On April 4, 2018, the President directed the Secretary of Defense to support DHS “in securing the southern border and taking other necessary actions” due to
“[t]he crisis at our southern border.” See California,
19-cv-00872-HSG, Dkt. No. 59-4, Ex. 27. The President further empowered the Secretary of Defense to
“request use of National Guard personnel to assist” as
needed. Id. As of August 13, 2019, DoD had approximately 5,500 personnel supporting DHS in its “border

146a
security mission.” See AR at 1, 45. DoD personnel
are generally serving in “support roles that relieve DHS
personnel of non-law enforcement duties,” such as “logistics, planning, and intelligence analysis” and “monitoring and detection support” through “operating mobile surveillance cameras units or providing aerial reconnaissance.” Id. at 42. DHS stated that the proposed border barrier projects that DHS recommended
to DoD would “give a distinct and enduring advantage
to [U.S. Border Patrol] as a force multiplier,” and would
“likely reduce DHS’s reliance on DoD for force protection, surveillance support, engineering support, air support, logistical support, and strategic communications
assistance.” Id. at 43 (quotation omitted). In sum,
the Chairman of the Joint Chiefs of Staff and DHS summarized that the projects would “allow DoD to provide
support to DHS more efficiently and effectively.” See
id. at 48; see also id. at 59-71.
The administrative record therefore illustrates that
the border barrier construction projects are intended to
benefit DHS and its subagencies, including CBP and
U.S. Border Patrol (“USBP”). The record explains
that physical barriers, such as those proposed, may
“[i]mprove CBP’s detection, identification, classification,
and response capabilities,” AR at 4; “[r]educe vulnerabilities in key border areas and the time it takes for Border Patrol agents to apprehend illegal migrants,” id.;
“reduce the challenges to CBP,” id. at 61; “serve to
channel illegal immigrants towards locations that are
operationally advantageous to DHS,” id.; “reduce the
enforcement footprint and compress USBP operations,”
id. at 43; “enable CBP agents to focus less on the rugged
terrain,” id. at 69; and as noted above, “give a distinct
and enduring advantage to USBP as a force multiplier,”

147a
id. at 43; see also id. at 121-24. As DoD representatives have forthrightly explained, funding under Section
2808 would “all go to adding significantly new capabilities to DHS’s ability to prevent illegal entry.” See Sierra Club, No. 19-cv-00892-HSG, Dkt. No. 210-2, Ex. 17
at 5.
That the border barrier projects would benefit DHS
is unsurprising, as Congress empowered that agency to
“[s]ecur[e] the borders, territorial waters, ports, terminals, waterways, and air, land, and sea transportation
systems of the United States.” 6 U.S.C. § 202; see also
8 U.S.C. §§ 1103(a)(5) (charging the Secretary of Homeland Security with “the power and duty to control and
guard the boundaries and borders of the United
States”). But this is a civilian agency, and not part of
the armed forces. The commission of these responsibilities to DHS is no secret: the entire reason for the
longest shutdown of the Federal government in history
was that the President sought over $5 billion in appropriations to DHS for these exact projects, and Congress
exercised its constitutional prerogative to decline to authorize that spending. Put another way, the entire dispute in this case arises from the Executive’s efforts to
find other ways to help DHS do what Congress directly
said it would not authorize when it rejected the Executive’s DHS budget request.
Defendants suggest that the assistance to DHS is
merely a byproduct of helping DoD. See, e.g., California, No. 19-cv-00872-HSG, Dkt. No. 249 at 10. Yet the
administrative record suggests that the proposed projects may actually reduce DHS’s need for DoD support.
See, e.g., AR at 4 (noting that the projects “could ulti-

148a
mately reduce the demand for DoD support at the southern border over time”). As the President put it, “[i]f
we had a wall, we don’t need the military because we’d
have a wall.” See Sierra Club, No. 19-cv-00892-HSG,
Dkt. No. 210-2, Ex. 13 at 5. Defendants do not explain
how the projects are necessary to support the use of the
armed forces while simultaneously obviating the need
for those forces. This appears to defy the purpose of
Section 2808, which specifically refers to construction
that is necessary to support the use of the armed forces,
not to construction that the armed forces will not use
once constructed. Again, Defendants’ argument proves
too much. Under their theory, any construction could
be converted into military construction—and funded
through Section 2808—simply by sending armed forces
temporarily to provide logistical support to a civilian
agency during construction. But Congress, and not
Defendants, holds the power of the purse. The Court
declines to interpret Section 2808 to provide the Secretary of Defense with almost limitless authority to use
billions of dollars of its appropriations to build projects
for the benefit of DHS, even when Congress specifically
declined to give DHS itself the funds to build those projects. See, e.g., Util. Air Regulatory Grp., 573 U.S. at
324 (“We expect Congress to speak clearly if it wishes to
assign to an agency decisions of vast economic and political significance.” (quotation omitted)).
The administrative record also fails to establish that
the border barrier construction projects are “necessary
to support [] use of the armed forces.” See 10 U.S.C.
§ 2808(a) (emphasis added). The Oxford English Dictionary defines “necessary” as “[i]ndispensable, vital,
essential.” See Necessary, OXFORD ENGLISH DICTION-

149a
ARY ONLINE (last visited Nov. 20, 2019); accord MERRIAM-WEBSTER ONLINE DICTIONARY (defining “neces-

sary” as “absolutely needed: required”) (last visited
Nov. 20, 2019). Yet Defendants simply contend that
the projects will “allow DoD to provide support to DHS
more efficiently and effectively.” See AR at 48. Even
accepting this conclusion as true, promoting efficiency
and efficacy is not tantamount to necessity, given the nature of the construction at issue. And the Court declines Defendants’ invitation to blur this distinction.
There is simply nothing in the record before the Court
indicating that the eleven border barrier projects—however helpful—are necessary to support the use of the
armed forces.

The Court does not lightly reach the conclusion that
the record does not support Defendants’ claim of necessity here. The undersigned deeply respects the work
of the United States armed forces, and understands and
is grateful for the innumerable sacrifices made by military women and men, and their families, in service of our
country. See California, No. 19-cv-00872-HSG, Dkt.
No. 232 (IAVA Brief ) at 9 (“Service members are used
to discomfort. They signed up to endure hardships so
that the rest of American society could live freely and
comfortably. . . . But they should never be asked to
work in unnecessarily unsafe or harmful conditions, or
to wait even longer for basic facilities that are already
long overdue.”). And the Court has no doubt that Congress shares this respect and gratitude. Were this
case about constructing hangars for storage of aircraft
used in “aerial reconnaissance,” or building a control
center for “operating mobile surveillance camera units,”
AR at 42, the circumstances likely would be very different.

150a
But the Court cannot blind itself to the plain reality
presented in this case: the border barrier projects Defendants now assert are “necessary to support the use
of the armed forces” are the very same projects Defendants sought—and failed—to build under DHS’s civilian
authority, because Congress would not appropriate the
requested funds. Even where review is “deferential,”
courts “are ‘not required to exhibit a naiveté from which
ordinary citizens are free.’ ” See Dep’t of Commerce v.
New York, 139 S. Ct. 2551, 2575 (2019) (quoting United
States v. Stanchich, 550 F.2d 1294, 1300 (2d Cir. 1977)
(Friendly, J.)); see also Karnoski v. Trump, 926 F.3d
1180, 1202 (9th Cir. 2019) (“Of course, deference does
not mean abdication.”) (quotation omitted). DoD officials have forthrightly acknowledged that the border
barrier projects are intended to fulfill the President’s priorities. During a congressional hearing on the reprogramming of funds for border barrier construction, Acting U.S. Secretary of Defense Shanahan explained that
“given a legal order from the commander in chief, we are
executing on that order.” See John Wagner, Paul
Sonne, and Dan Lamothe, Pentagon announces $1 billion transfer for border barriers, angering Democrats,
Wash. Post (March 26, 2019), https://tinyurl.com/y2nj
mvsk. Similarly, when asked during the hearing about
prioritizing the border wall over military readiness and
modernization, U.S. Army Secretary Esper said “I’m
saying that the Department of Defense made decisions
based on what the president set as priorities, and we are
following through. We are executing.” Id.
The parties do not suggest that additional factfinding
would buttress or clarify the rationale or need for the
projects. The Court therefore finds that the projects
are not necessary to support the use of the armed forces.

151a
As the Supreme Court has explained, “[r]egardless of
how serious the problem an administrative agency seeks
to address, . . . it may not exercise its authority in a
manner that is inconsistent with the administrative
structure that Congress enacted into law.” FDA v.
Brown & Williamson Tobacco Corp., 529 U.S. 120, 125
(2000) (quotation omitted). Accordingly, taking into
account the totality of the record, the Court finds that
Defendants have not satisfied the mandatory conditions
set by Congress in Section 2808, and that they thus are
not authorized to redirect military construction funds to
the eleven border barrier projects they have identified.
C.

APA

State Plaintiffs further contend that Defendants’
conduct is reviewable as unlawful under the APA.
Plaintiffs first suggest that by failing to comply with the
statutory conditions in Section 2808, Defendants have
acted “in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right.” See 5 U.S.C.
§ 706(2)(C). Such arguments, however, collapse into
the same analysis of Section 2808 that the Court detailed
in Section III.B above. See Sierra Club, 929 at 689-92.
The Ninth Circuit acknowledged when analyzing Section 8005 that “Plaintiffs either have an equitable cause
of action to enjoin a constitutional violation, or they can
proceed on their constitutional claims under the Administrative Procedure Act, or both.” Id. at 676-77. However, the analysis—whether under the Constitution or
the APA—remains the same. Id. 13

Although Sierra Club Plaintiffs do not raise an independent
claim under the APA, they note, as the Ninth Circuit has recognized,
13

152a
State Plaintiffs also make a second and distinct claim
that Defendants have violated the APA’s prohibition on
arbitrary and capricious agency action. See California, No. 19-cv-00872-HSG, Dkt. No. 220 at 13-15.
Plaintiffs argue that in identifying and reallocating funds
from 128 existing military construction projects, Defendants did not “address any of the harms to public
health and safety” that would result from defunding
those projects. Id. at 13. The Court finds this argument meritless. “The scope of review under the ‘arbitrary and capricious’ standard is narrow and a court is
not to substitute its judgment for that of the agency.”
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983). Rather,
“the agency must examine the relevant data and articulate a satisfactory explanation for its action including a
rational connection between the facts found and the
choice made.” Id. (quotation omitted). Here, the administrative record provides such an explanation, indicating that Defendants identified projects for defunding
to “provide [DoD] time to work with [Congress] to determine opportunities to restore funds for these important military construction projects. . . . ” California, No. 19-cv-00872-HSG, Dkt. No. 206-2, Ex. 2 at 2.
For the same reasons discussed above, it is not the
Court’s task to decide whether it finds the substance of
Defendants’ rationale for defunding or delaying these

that the Court may consider their claim challenging the use of military construction funds either as an equitable action to enjoin unconstitutional conduct or under the APA as final agency action that
violates the Constitution. See Sierra Club, No. 19-cv-00892-HSG,
Dkt. No. 210 at 21-22 (citing Sierra Club, 929 at 676-77).

153a
projects persuasive or wise, and State Plaintiffs’ disagreement with that rationale does not make the decision
arbitrary and capricious.
D.

National Environmental Policy Act

Plaintiffs also seek a declaratory judgment deeming
unlawful Defendants’ failure to comply with NEPA before undertaking the proposed military construction projects under Section 2808. 14 NEPA is intended “to promote efforts which will prevent or eliminate damage to
the environment and biosphere and stimulate the health
and welfare of man.” 42 U.S.C. § 4321. Under NEPA,
federal agencies must assess the environmental impact
State Plaintiffs also attempt to expand their NEPA cause of
action to include the land transfer from the Department of the Interior for the proposed border barrier construction projects, but
their complaint does not assert such a claim. See California, No.
19-cv-00872-HSG, Dkt. No. 47 at ¶¶ 392-99. Rather, their NEPA
claim explicitly states that “Defendant DHS is in violation of NEPA
and the APA because it failed to prepare an [Environmental Impact Statement] concerning border wall development projects that
will have adverse effects on the environment. . . . ” Id. at
¶ 397. Even reading the complaint liberally, the operative complaint does not “give the defendant fair notice of what the plaintiff’s
claim is and the grounds upon which it rests.” See Pickern v. Pier
1 Imports (U.S.), Inc., 457 F.3d 963, 968 (9th Cir. 2006) (holding
district court did not err in finding plaintiff failed to provide adequate notice of her claims where she presented specific factual
grounds for those claims for first time on summary judgment)
(quotation omitted). The Court may not now grant summary
judgment as to a claim that State Plaintiffs never asserted until
their motion for summary judgment, when they never sought leave
to amend the complaint. See Wasco Prod., Inc. v. Southwall Techs.,
Inc., 435 F.3d 989, 992 (9th Cir. 2006) (“Simply put, summary judgment is not a procedural second chance to flesh out inadequate
pleadings.” (quotation omitted)).
14

154a
of agency actions that “significantly affect[ ] the quality
of the human environment.” Id. § 4332(C). Where an
agency’s project “might significantly affect environmental quality,” NEPA compels preparation of an Environmental Impact Statement (“EIS”). See WildEarth
Guardians v. Provencio, 923 F.3d 655, 669 (9th Cir.
2019). Plaintiffs contend that Defendants were required
to prepare an EIS for the proposed border barrier construction projects, but failed to do so here.
In response, Defendants point to the language of Section 2808, which by its terms, authorizes “the Secretary
of Defense, without regard to any other provision of law,
[to] undertake military construction projects. . . . ”
10 U.S.C. § 2808. The Secretary of Defense mirrored
this language in directing the Secretary of the Army “to
expeditiously undertake the eleven border barrier military construction projects,” and “to do so without regard
to any other provision of law that may impede the expeditious construction of such projects in response to the
national emergency.” See California, No. 19-cv-00872HSG, Dkt. No. 206-1, Ex. 1 at 1. The Court finds that
the language in Section 2808 is clear on its face, and permits the Secretary of Defense, if properly acting within
his authority under Section 2808, to undertake military
construction projects without regard to NEPA.
Plaintiffs attempt to restrict this “notwithstanding”
language by divorcing Defendants’ ability to re-prioritize military construction projects from their ability to
actually construct those projects. Plaintiffs urge that
only the former power to “restructur[e] construction
priorities” may be undertaken “without regard to any
other provision of law.” See, e.g., Sierra Club, No.
19-cv-00892-HSG, Dkt. No. 210 at 19-20. The Court

155a
finds no evidence for this reading, as the statute permits
the Secretary to “undertake military construction projects,” not just to prioritize them.
Plaintiffs next contend that the Court should still
read the “notwithstanding” language narrowly because
had Congress intended to waive NEPA’s requirements,
the statute would have included language that the projects be undertaken “without delay” or “expeditiously.”
Id. at 20. However, there are no magic words constraining Congress’ ability to empower Defendants to
proceed without consideration of NEPA or other laws.
Rather, the Court must “tak[e] into account the whole of
the statutory context in which [the notwithstanding
clause] appears.” See United States v. Novak, 476 F.3d
1041, 1046 (9th Cir. 2007). Here, Plaintiffs’ argument
is belied by the statutory prerequisite that there be a
declaration of war or a national emergency before Section 2808 may be used for military construction. Such
a condition, by its nature, normally would require speed.
The Court finds it unreasonable to conclude that in the
face of war or a national emergency, Congress would require Defendants to engage in the time-intensive EIS
process prior to undertaking projects “necessary to support [] use of the armed forces.” See 10 U.S.C. § 2808.
Plaintiffs’ concern that Section 2808 would “empower[]
the Secretary of Defense to build almost anything, anywhere,” see Sierra Club, No. 19-cv-00892-HSG, Dkt. No.
210 at 21, ignores the conditions discussed in Section
III.B.ii above. Section 2808 has limits. It may only
be invoked in the event of war or a national emergency,
and the Secretary of Defense still must establish that
the proposal is a military construction project necessary
to support the use of the armed forces.

156a
This does not, however, end the inquiry. To be sure,
had Defendants acted within their authority under Section 2808 in proposing the eleven border barrier construction projects, the Court finds that their conduct
likely would not violate NEPA. But the Court has already found that Defendants have not properly invoked
Section 2808, so that the “without regard to any other
provision of law” language is not triggered. Put another way, the question of whether Defendants are required to comply with NEPA with respect to the eleven
projects is derivative of the parties’ Section 2808 arguments. The Court does not understand Defendants to
suggest that any authority other than Section 2808 excuses them from complying with NEPA as to these projects. The Court thus need not reach whether a proper
invocation of Section 2808 could theoretically still require compliance with NEPA under different circumstances. 15
E.

Injunctive Relief

Having found that Defendants’ intended use of military construction funds under Section 2808 is unlawful,
the Court next considers Plaintiffs’ request for injunctive relief. It is a well-established principle of equity
that a permanent injunction is appropriate when: (1) a
plaintiff will “suffer[ ] an irreparable injury” absent an
State Plaintiffs appear to seek reconsideration of the Court’s
prior order regarding whether Defendants violated NEPA for purposes of Section 8005 and 10 U.S.C. § 284. See California, No.
19-cv-00872-HSG, Dkt. No. 220, at 5, 19-20, & n.3. State Plaintiffs
acknowledge that they do so to preserve this issue for appeal. Id.
at 5, n.3. The Court declines to reconsider its prior order given
Plaintiffs have failed to provide any new law or factual evidence
warranting further analysis.
15

157a
injunction; (2) available remedies at law are “inadequate;” (3) the “balance of hardships” between the parties supports an equitable remedy; and (4) the public interest is “not disserved.” eBay Inc. v. MercExchange,
LLC, 547 U.S. 388, 391 (2006). Defendants do not challenge whether the available remedies at law are inadequate. See, e.g., Sierra Club, No. 19-cv-00892-HSG,
Dkt. No. 236 at 28-34. The Court thus addresses the
remaining factors.
i. Irreparable Injury

The State Plaintiffs identify several theories of irreparable injury that will occur in the absence of an injunction, including environmental and financial harm, as well
as harm to their ability to enforce state laws concerning
the protection of environmental and natural resources.
The Sierra Club Plaintiffs, in turn, identify aesthetic and
recreational harm, as well as organizational harm to
their missions in diverting resources to respond to Defendants’ proposed projects. The Court recognizes
that these injuries are distinct, and first addresses the
Sierra Club Plaintiffs’ alleged injuries. Because, as explained more fully below, the Court finds that Sierra
Club Plaintiffs have established that a permanent injunction is warranted as to all eleven proposed projects,
the Court denies State Plaintiffs’ duplicative request for
a permanent injunction as moot.
a. Aesthetic and Recreational Harm

Sierra Club Plaintiffs contend that absent a permanent injunction Defendants’ conduct will irreparably
harm their members’ aesthetic and recreational interests as the construction “will impede [their] ability to
enjoy, work, and create in the wilderness areas they

158a
have used for years along the U.S.-Mexico border.”
See Sierra Club, 19-cv-00892-HSG, Dkt. No. 210 at 26.
As this Court has previously noted, “it is well-established in the Ninth Circuit that an organization can
demonstrate irreparable harm by showing that the challenged action will injure its members’ enjoyment of public land. See id., Dkt. No. 144 at 49 (citing All. for the
Wild Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir.
2011)). And here, Plaintiffs provide declarations from
their members detailing how Defendants’ eleven proposed border barrier construction projects will harm
their ability to recreate in and otherwise enjoy public
land along the border. See, e.g., id., Dkt. No. 210-1,
Exs. 1-19.
In response, Defendants attempt to minimize Plaintiffs’ injuries by arguing that many of the challenged
construction projects are surrounded by private land or
are in areas previously disturbed by at least some border barrier construction. See id., Dkt. Nos. 236 at 2831, 236-6, Ex. 6. Defendants further suggest that any access limitations imposed by the new construction would
be de minimis, especially as to the two projects on the
Barry M. Goldwater Range, where only a third of the
miles scheduled for construction are accessible to the
public. See id., Dkt. No. 236 at 30. Defendants conclude
that Plaintiffs’ asserted harm is thus little more than
their subjective opinion about whether a border wall
would be unsightly. Id. The Court is not persuaded.
As an initial matter, the Ninth Circuit has “never required a plaintiff to show that he has a right of access to
the site on which the challenged activity is occurring, or
that he has an absolute right to enjoy the aesthetic or
recreational activities that form the basis of his concrete

159a
interest.” Cantrell v. City of Long Beach, 241 F.3d 674,
681 (9th Cir. 2001). In Cantrell, for example, the Ninth
Circuit credited birdwatchers’ allegations that they
would suffer harm from the defendant’s construction,
which would hinder them from viewing birds and nests
on a naval station from publicly accessible locations.
Such an approach is sensible as “an area can be observed
and enjoyed from adjacent land,” such that plaintiffs
may still suffer injury to their aesthetic and recreational
interests even when not physically on the affected land.
See id. Here too, Plaintiffs have explained that the proposed projects may be seen from miles away, and affect
their recreational and aesthetic interests, even when
they are not standing directly on the areas proposed for
construction. See, e.g., Sierra Club, 19-cv-00892-HSG,
Dkt. No. 210-1, Ex. 4; id., Ex. 9.
Defendants’ reliance on Center for Food Safety v. Vilsack does not undermine the significance of Plaintiffs’
injury. Defendants point to a sentence in a footnote
that states “a plaintiff may establish standing to seek injunctive relief yet fail to show the likelihood of irreparable harm necessary to obtain it.” 636 F.3d 1166, 1171,
n.6 (9th Cir. 2011). This point is true as far as it goes,
but the plaintiffs in Vilsack had only raised possible concerns about genetic contamination, not a likelihood of injury. Id. at 1173. In Vilsack, the plaintiffs suggested
that the defendants’ genetically modified sugar beets
could cross-pollinate with their crops, causing injury.
See id. at 1172. The Ninth Circuit explained that the
undisputed evidence, however, indicated that the defendants’ plants were “biologically incapable of flowering or cross-pollinating” in a way that could affect the
plaintiffs’ plants. Id. at 1173. Because the alleged harm
was a biological impossibility, the Ninth Circuit found

160a
that there was no likelihood of irreparable injury warranting an injunction.
Here, in contrast, Plaintiffs have detailed the harm
that would result if the border barrier construction projects continue. Defendants’ argument in response is
that the land for the challenged projects “is already
heavily disturbed with border infrastructure” as much
of the land occupies existing “law enforcement corridors.” Sierra Club, 19-cv-00892-HSG, Dkt. No. 236 at
28. But as the Court has previously explained, Defendants’ proposal would significantly alter the existing
landscape, and even the proposed changes to the existing infrastructure are substantial. See id., Dkt. No.
144 at 50.
The Court is also not persuaded that the preexistence
of some construction means Plaintiffs here cannot suffer
an injury from additional construction. Defendants do
not cite a case that warrants such a sweeping limitation.
In Gallatin Wildlife Association v. U.S. Forest Services,
the plaintiffs sought to enjoin sheep grazing that had occurred for the past 150 years. See No. cv 15-27-BU-BMM,
2015 WL 4528611, at *4 (D. Mont. July 27, 2015). The
court found that the plaintiffs had “failed to demonstrate that allowing the domestic grazing to occur this
year will cause any new harm to the landscape that has
not already occurred in the past 150 years.” Id. That
the sheep had grazed in the area before was not itself
decisive; instead, the court considered the nature and
scale of their continued and additive effect on the land
at issue. And in Center for Biological Diversity v. Hays,
the court found that the plaintiffs had not established
irreparable injury where the land at issue could not be
used for recreational purposes at all due to the scale of

161a
preexisting dead trees that threatened the safety of visitors. No. 2:15-cv-01627-TLN-CMK, 2015 WL 5916739,
at *1, *10 (E.D. Cal. Oct. 8, 2015). The plaintiff ’s interest in studying these trees was thus irrelevant as he
could not access them regardless of the defendant’s conduct. Id.
In sum, the Court finds that the funding and construction of these border barrier projects, if indeed
barred by law, cannot be easily remedied after the fact.
To the contrary, as the Ninth Circuit has acknowledged,
“[t]he harm here, as with many instances of this kind of
harm, is irreparable for the purposes of the preliminary
injunction analysis.” See League of Wilderness Defenders/ Blue Mountains Biodiversity Project v. Connaughton, 752 F.3d 755, 764 (9th Cir. 2014). Accordingly, the
Court finds that Sierra Club Plaintiffs have established
irreparable injury to their aesthetic and recreational interests in the absence of a permanent injunction.
b. Organizational Harm

Sierra Club Plaintiffs further contend that Defendants’ conduct has irreparably harmed the missions and
activities of the Southern Border Communities Coalition
(“SBCC”) and its member organizations, which include
the Texas Civil Rights Project (“TCRP”), Southwest
Environmental Center (“SWEC”), and American Friends
Service Committee (“AFSC”). Each has had to divert
resources to combat the impact of the proposed construction.
The Supreme Court has recognized that an organization may suffer harm if the challenged conduct frustrates its activities and drains its resources. See, e.g.,
Havens Realty Corp. v. Coleman, 455 U.S. 363, 377-79

162a
(1982). In Havens Reality, a nonprofit corporation
challenged the defendants’ alleged “racial steering”
practices, in which real estate brokers encouraged racial
segregation by directing members of racial or ethnic
groups to buildings or neighborhoods occupied primarily by members of the same race of ethnic group. Id. at
367, & n.1. The organization’s “purpose was to make
equal opportunity in housing a reality. . . . ” Id. at
368 (quotation omitted).
The Supreme Court explained that the organization’s need to divert resources
“to identify and counteract” the defendants’ discriminatory practices “constitute[d] far more than simply a setback to the organization’s abstract social interests” in
equal access to housing. See id. at 379-80. Similarly,
in National Council of La Raza v. Cegavske, the Ninth
Circuit further recognized that an organization may establish concrete harm if the defendant’s conduct changes
“business as usual” for the organization, such that resources spent to counter a defendant’s conduct “would
have [been] spent on some other aspect of their organizational purpose . . . or any other activity that advances their goals.” 800 F.3d 1032, 1040 (9th Cir. 2015)
(quotation omitted). In Cegavske, the Ninth Circuit
acknowledged that had the state complied with the National Voter Registration Act, the organization could
have spent its resources elsewhere, such as increasing
its voter education efforts, rather than on voter registration drives in communities where the defendant
should have offered voter registration opportunities.
Id.; accord Fair Hous. Council of San Fernando Valley
v. Roommate.com, LLC, 666 F.3d 1216, 1219 (9th Cir.
2012).
That is precisely what Plaintiffs have established
here, as Defendants’ conduct has significantly altered

163a
“business as usual” for the Plaintiff organizations, and
will continue to do so without a permanent injunction:
• SBCC’s “principal goals are to protect human
rights, dignity, and safety” in the border regions
of the United States.
Sierra Club, No.
19-cv-00892-HSG, Dkt. No. 210-1, Ex. 7 at 41-46.
SBCC has spent considerable time and resources
advocating against appropriations for border barrier construction and in urging Congress to terminate the national emergency. As a result,
SBCC has diverted time and resources away from
its “other initiatives, including Border Patrol accountability, community engagement on local
health and education issues, and public education
about immigration policies more broadly.” Id. at
45.
• TCRP has diverted resources to protect Texas
landowners in Laredo who are at risk of having
their non-public property condemned for the border barrier construction projects, id., Ex. 6 at 3539. They have staged events to educate communities about these projects and their rights, are
working to create a network of advocates for this
work. Because of this work, TCRP has had to
divert time and resources away from their other
projects to protect border communities outside of
Laredo.
• SWEC’s mission is to “reverse the accelerating
loss of plants and animals worldwide through protection and restoration of native wildlife and their
habitats in the southwest.” Id., Ex. 3 at 16-17.
Though based in New Mexico, its restoration and
education work extends into Eastern Arizona and

164a
West Texas. However, in light of the proposed
border barrier projects, SWEC has significantly
reduced its restoration work to divert resources
to monitor construction and educate members
and the public about the proposed construction
and its likely impact.
• AFSC works with migrant communities in San Diego and El Centro to document abuses by law enforcement and collaborate with community groups
to address local issues. Id., Ex. 13 at 74-75.
However, if the border barrier projects in these
areas proceed, they will have to decrease the time
and resources they spend on their other services,
including know-your-rights trainings and leadership development courses, so they can monitor
the construction and provide outreach resources
to the affected communities.
Defendants counter that Plaintiffs’ missions as public
advocacy groups have not been injured, and more critically still, that Plaintiffs have not established any nexus
between their injury and Defendants’ conduct. Defendants first contend that the organizations may continue their advocacy work in the face of the border barrier projects, but as the Ninth Circuit recognized in
Cegavske, it is enough that these organizations “would
have spent [resources] on some other aspect of their organizational purpose . . . or any other activity that
advances their goals,” in the absence of the border barrier construction projects.
See 800 F.3d at 1040.
Here, the Plaintiff organizations have spent resources
creating new education, outreach, and monitoring programs related to the construction projects, rather than
on other activities related to their respective missions.

165a
Defendants’ suggestion that there is no nexus between
Plaintiffs’ harm and Defendants’ conduct is similarly unavailing. The organizations work in and with border
communities to protect and restore the environment, as
is the case with SWEC, and promote the safety of border communities, as is the case with SBCC, TCRP, and
AFSC. But because the organizations believe the border barrier projects impede these respective missions,
they have altered “business as usual” to combat these
projects and educate others about them. Defendants’
blanket conclusion that the border barrier construction
projects “in no way impede or disrupt their day-to-day
activities,” Sierra Club, No. 19-cv-00892-HSG, Dkt. No.
247 at 24, simply is not supported by the record. The
Court finds that Sierra Club Plaintiffs have thus established irreparable injury to their organizational missions in the absence of a permanent injunction.
i. Balance of Equities and Public Interest

The parties all acknowledge that when the government is a party to a case in which a preliminary injunction is sought, the balance of the equities and public interest factors merge. See Drakes Bay Oyster Co. v.
Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014). And in
these cases, the parties’ asserted injuries collapse into
the equities they assert.
According to Defendants, these factors tilt in their
favor, because they have “compelling interests in safety
and in the integrity of our borders,” and “in ensuring
that [the country’s] military forces are properly supported and have the necessary resources to ensure mission success.” See Sierra Club, No. 19-cv-00892-HSG,
Dkt. No. 236 at 33. As the Court has previously acknowledged, “the public has a ‘weighty’ interest ‘in efficient

166a
administration of the immigration laws at the border.’ ”
See E. Bay Sanctuary Covenant v. Trump, 932 F.3d 742,
779 (9th Cir. 2018) (quoting Landon v. Plasencia, 459
U.S. 21, 34 (1982)).
Yet Defendants’ argument again fails to recognize
that Congress has already engaged in the difficult balancing of Defendants’ proffered interests and the need
for border barrier construction in passing the CAA.
See CAA, § 230(a)(1), 133 Stat. 13. Defendants have
not pointed to any factual developments that were not
before Congress and that may have altered its judgment
to appropriate just $1.375 billion in funding for limited
border barrier construction. The Court appreciates
the complexity of the policy judgments at hand, and further understands that Defendants may strongly disagree with Congress’ determination. But the Court has
found that Defendants do not have the statutory authority under Section 2808 to redirect military construction
funds for the planned border barrier construction. And
as such, Defendants have not identified a mechanism by
which they may override Congress’ appropriations judgment. As the Court explained in its orders related to
Section 8005, “Defendants’ position on these factors
boils down to an argument that the Court should not enjoin conduct found to be unlawful because the ends justify the means. No case supports this principle.” See
Sierra Club, 19-cv-00892-HSG, Dkt. No. 185 at 8. The
Court finds that “the public [] has an interest in ensuring
that statutes enacted by their representatives are not
imperiled by executive fiat,” E. Bay Sanctuary Covenant, 932 F3d at 779, and that these constitutional separation of powers principles outweigh Defendants’ concerns about the efficiency of DHS. Accordingly, the
Court follows the Ninth Circuit’s reasoning that the

167a
public interest “is best served by respecting the Constitution’s assignment of the power of the purse to Congress, and by deferring to Congress’s understanding of
the public interest as reflected in its repeated denial of
more funding for border barrier construction.” Sierra
Club, 929 F.3d at 677.
In his concurrence in the landmark 1952 case of
Youngstown Sheet and Tube Co. v. Sawyer, which addressed the scope of executive power during a time of
war on the Korean Peninsula, Justice Frankfurter articulated a principle that remains as important today as it
was then:
It is one thing to draw an intention of Congress from
general language and to say that Congress would
have explicitly written what is inferred, where Congress has not addressed itself to a specific situation.
It is quite impossible, however, when Congress did
specifically address itself to a problem, as Congress
did to that of seizure [of steel mills by the President],
to find secreted in the interstices of legislation the
very grant of power which Congress consciously
withheld. To find authority so explicitly withheld is
not merely to disregard in a particular instance the
clear will of Congress. It is to disrespect the whole
legislative process and the constitutional division of
authority between President and Congress.
343 U.S. 579, 610 (Frankfurter, J., concurring).
After a lengthy legislative process, Congress specifically declined to provide the funding sought by the Executive for the border barrier construction at issue in
this case. The Executive has made plain its determination to nonetheless proceed with the construction by any

168a
means necessary, notwithstanding Congress’ contrary
exercise of its constitutionally-absolute power of the
purse. As Justice Frankfurter explained long ago, that
position both disregards the clear will of Congress and
disrespects the whole legislative process and the separation of powers enshrined in the Constitution. Because the Court finds Defendants’ proposed use of funds
under Section 2808 unlawful, the Court finds that the
balance of hardships and public interest favor Plaintiffs,
and counsel in favor of a permanent injunction. 16
IV.

STAY PENDING APPEAL

Federal Rule of Civil Procedure 62(c) authorizes a
district court to stay enforcement of a permanent injunction pending appeal. See Hilton v. Braunskill, 481
U.S. 770, 776 (1987). “A stay is not a matter of right,
even if irreparable injury might otherwise result.” Nken
v. Holder, 556 U.S. 418, 427 (2009) (quotation omitted).
Rather, the decision to grant or deny a stay is committed
to the district court’s discretion. Id. In determining
whether to issue a stay, a court examines several factors
including: (1) whether the applicant has made a strong
showing that he is likely to succeed on the merits of the
appeal; (2) whether the applicant will be irreparably injured absent a stay; (3) whether a stay will substantially
injure the non-moving party; and (4) where the public
The Court further notes that on December 10, 2019, the United
States District Court for the Western District of Texas also entered an order permanently enjoining “agency head Defendants
Mark T. Esper, Chad F. Wilf, Todd, T. Semonite, David Bernhardt,
and Steven T. Mnuchin . . . from using § 2808 funds beyond the
$1.375 billion in the 2019 Consolidated Appropriations Act for
border wall construction.” See El Paso County v. Trump, No.
3:19-cv-0066-DB (W.D. Tex.), Dkt. No. 136 at 21.
16

169a
interest lies. See Leiva-Perez v. Holder, 640 F.3d 962,
964 (9th Cir. 2011).
Although the Court has considered similar factors as
part of its permanent injunction analysis above, the Supreme Court’s stay of this Court’s prior injunction order
appears to reflect the conclusion of a majority of that
Court that the challenged construction should be permitted to proceed pending resolution of the merits. Accordingly, the Court finds in its discretion that the lengthy
history of this action; the prior appellate record; and the
pending appeal before the Ninth Circuit on the merits
of Plaintiffs’ Section 8005 claim, which will address several of the threshold legal and factual issues raised in
this order, warrant a stay of the permanent injunction
pending appeal. Plaintiffs may, of course, petition the
Ninth Circuit to lift this stay.
V. CERTIFICATION FOR APPEAL

Given the parties’ express request to certify for appeal the Court’s prior orders regarding Section 8005,
the Court also considers whether certification is appropriate here. Appellate courts generally only have jurisdiction to hear appeals from final orders. See 28
U.S.C. § 1291. Federal Rule of Civil Procedure 54(b)
allows for a narrow exception to this final judgment rule,
permitting courts to “direct entry of a final judgment as
to one or more, but fewer than all, claims or parties only
if the court expressly determines that there is no just
reason for delay.” Entry of judgment under Rule 54(b)
thus requires: (1) a final judgment; and (2) a determination that there is no just reason for delay of entry.
See Pakootas v. Teck Cominco Metals, Ltd., 905 F.3d
565, 574 (9th Cir. 2018) (quoting Curtiss-Wright Corp. v.

170a
Gen. Elec. Co., 446 U.S. 1, 7-8 (1980)).
both requirements satisfied here.

The Court finds

A. Finality of Judgment

A final judgment is “a decision upon a cognizable
claim for relief” that is “an ultimate disposition of an individual claim entered in the course of a multiple claims
action.” Curtiss-Wright Corp., 446 U.S. at 7. The Court
finds this requirement satisfied because the Court’s award
of partial summary judgment in this order is “an ultimate disposition” of Plaintiffs’ claims related to Defendants’ purported reliance on Section 2808 for border barrier construction.
B. No Just Reason for Delay

As the Ninth Circuit has explained, “[j]udgments under Rule 54(b) must be reserved for the unusual case in
which the costs and risks of multiplying the number of
proceedings and of overcrowding the appellate docket
are outbalanced by pressing needs of the litigants for an
early and separate judgment as to some claims or parties.” Morrison-Knudsen Co. v. Archer, 655 F.2d 962,
965 (9th Cir. 1981). Accordingly, an explanation of
findings “should include a determination whether, upon
any review of the judgment entered under the rule, the
appellate court will be required to address legal or factual issues that are similar to those contained in the
claims still pending before the trial court.” Id. at 965.
“The greater the overlap the greater the chance that
[the Court of Appeals] will have to revisit the same
facts—spun only slightly differently—in a successive
appeal.” Wood v. GCC Bend, LLC, 422 F.3d 873, 882

171a
(9th Cir. 2005). “[P]lainly, sound judicial administration does not require that Rule 54(b) requests be granted
routinely.” Id. at 879 (quotation omitted).
As with its partial summary judgment order related
to Section 8005, the Court finds there is no just reason
for delay under the circumstances. Whether Defendants’ actions comport with the statutory requirements
of Section 2808 and whether Defendants’ actions comport with the remaining statutory requirements related
to the outstanding claims are distinct inquiries, largely
based on distinct law. The Court therefore finds that
“sound judicial administration” is best served by the
Court certifying this judgment for appeal, in light of the
undisputedly significant interests at stake in this case.
See Wood, 422 F.3d at 879.
VI.

CONCLUSION

For the foregoing reasons, the Court GRANTS IN
PART and DENIES IN PART Plaintiffs’ motions for partial summary judgment and DENIES Defendants’ mo-

tions for partial summary judgment. Specifically, the
Court GRANTS Plaintiffs’ request for declaratory judgment that Defendants’ intended use of military construction funds under Section 2808 for the eleven border
barrier construction projects that the Secretary of Defense identified as Yuma Project 2; Yuma Project 10/27;
Yuma Project 3; Yuma Project 6; San Diego Project 4;
San Diego Project 11; El Paso Project 2; El Paso Project
8; Laredo Project 5; Laredo Project 7; El Centro Project
5; and El Centro Project 9, is unlawful. See Sierra
Club, No. 19-cv-00892-HSG, Dkt. Nos. 201, 201-1, & Ex.
1. The Court DENIES Plaintiffs’ request for declaratory judgment and injunctive relief concerning Defend-

172a
ants’ (1) invocation of Section 2808 beyond these projects; (2) reliance on Section 2808 to excuse them from
complying with NEPA as to the eleven proposed projects; and (3)decision to defer outstanding military construction projects.
The terms of the permanent injunction are as follows:
Defendants Mark T. Esper, in his official capacity as
Secretary of Defense; and Chad F. Wolf, in his official
capacity as Acting Secretary of Homeland Security (collectively, “Defendants”), and all persons acting under
their direction, are permanently enjoined from using military construction funds appropriated for other purposes
to build a border wall in the areas Defendants have identified as Yuma Project 2; Yuma Project 10/27; Yuma
Project 3; Yuma Project 6; San Diego Project 4; San Diego Project 11; El Paso Project 2; El Paso Project 8; Laredo Project 5; Laredo Project 7; El Centro Project 5;
and El Centro Project 9. Nevertheless, as discussed in
Section IV above, the Court exercises its discretion to
STAY the permanent injunction pending appeal.
The Clerk is directed to enter final judgment in favor
of Plaintiffs and against Defendants with respect to Defendants’ purported reliance on Section 2808 to fund
border barrier construction. This judgment will be certified for immediate appeal pursuant to Rule 54(b) of the
Federal Rules of Civil Procedure.
IT IS SO ORDERED.

Dated:

12/11/2019
/s/ HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

173a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NORTHERN DISTRICT OF CALIFORNIA, OAKLAND

No. 19-17501
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; ET AL.,
DEFENDANTS-APPELLANTS
No. 19-17502
STATE OF CALIFORNIA; ET AL., PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
ET AL., DEFENDANTS-APPELLANTS
No. 20-15044
D.C. No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA; ET AL., PLAINTIFFS-APPELLANTS
AND

STATE OF CONNECTICUT; ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
ET AL., DEFENDANTS-APPELLEES

174a

[Filed:

Oct. 26, 2020]
ORDER

Before: THOMAS, Chief Judge, and WARDLAW and
COLLINS, Circuit Judges.
Appellees’ emergency motion for clarification (Dkt.
No. 112) is denied, without prejudice. Appellants’ crossmotion for a stay of the mandate (Dkt. No. 113) is granted
and the issuance of the mandate is stayed until November 18, 2020.

175a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NORTHERN DISTRICT OF CALIFORNIA, OAKLAND

No. 19-17501
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; ET AL.,
DEFENDANTS-APPELLANTS
[Filed:

Dec. 30, 2019]
ORDER

Before: THOMAS, Chief Judge, and WARDLAW and
COLLINS, Circuit Judges.
Plaintiffs Sierra Club and Southern Border Communities Coalition have filed an emergency motion to lift
the district court’s stay of its injunction pending appeal.
The district court injunction permanently enjoined
spending funds under 10 U.S.C. § 2808 for eleven specified border barrier construction projects, but the district court stayed the injunction pending appeal. Defendants oppose the motion to lift the stay.
We deny the request to lift the stay, without prejudice. The district court in the Western District of Texas
has issued a substantially similar injunction precluding

176a
using § 2808 funds beyond what Congress has otherwise
appropriated for border wall construction. See El
Paso Cty v. Trump, No. EP-19-CV-66-DB (W.D. Tex.
Dec. 10, 2019). In addition, the Supreme Court has already stayed an injunction previously granted by the
district court in this case. See Trump v. Sierra Club,
140 S. Ct. 1 (2019). As the district court concluded,
“the Supreme Court’s stay of this Court’s prior injunction order appears to reflect the conclusion of a majority
of that Court that the challenged construction should be
permitted to proceed pending resolution of the merits.”
Sierra Club v. Trump, No. 4:19-cv-00892-HSG (N.D.
Cal. Dec. 11, 2019). Given the existence of a spending
injunction and the Supreme Court’s stay order, we decline to reverse the district court’s grant of a stay pending appeal at this time, without prejudice to renewal or
reconsideration pending further developments. In doing so, we express no view as to the merits of the case.

177a
APPENDIX E

1.

U.S. Const. Art. I, § 9, Cl. 7 provides:

No money shall be drawn from the Treasury, but in Consequence of Appropriations made by Law; and a regular
Statement and Account of the Receipts and Expenditures of all public Money shall be published from time
to time.
2

10 U.S.C. 284 provides:

Support for counterdrug activities and activities to counter transnational organized crime

(a) SUPPORT TO OTHER A GENCIES.—The Secretary
of Defense may provide support for the counterdrug activities or activities to counter transnational organized
crime of any other department or agency of the Federal
Government or of any State, local, tribal, or foreign law
enforcement agency for any of the purposes set forth in
subsection (b) or (c), as applicable, if—
(1) in the case of support described in subsection
(b), such support is requested—
(A) by the official who has responsibility for
the counterdrug activities or activities to counter
transnational organized crime of the department
or agency of the Federal Government, in the case
of support for other departments or agencies of
the Federal Government; or
(B) by the appropriate official of a State, local, or tribal government, in the case of support

178a
for State, local, or tribal law enforcement agencies; or
(2) in the case of support described in subsection
(c), such support is requested by an appropriate official of a department or agency of the Federal Government, in coordination with the Secretary of State,
that has counterdrug responsibilities or responsibilities for countering transnational organized crime.
(b) TYPES OF SUPPORT FOR AGENCIES OF UNITED
STATES.—The purposes for which the Secretary may
provide support under subsection (a) for other departments or agencies of the Federal Government or a State,
local, or tribal law enforcement agencies, are the following:
(1) The maintenance and repair of equipment
that has been made available to any department or
agency of the Federal Government or to any State,
local, or tribal government by the Department of Defense for the purposes of—
(A) preserving the potential future utility of
such equipment for the Department of Defense;
and
(B) upgrading such equipment to ensure
compatibility of that equipment with other equipment used by the Department.
(2) The maintenance, repair, or upgrading of
equipment (including computer software), other than
equipment referred to in paragraph (1) for the purpose of—

179a
(A) ensuring that the equipment being maintained or repaired is compatible with equipment
used by the Department of Defense; and
(B) upgrading such equipment to ensure the
compatibility of that equipment with equipment
used by the Department.
(3) The transportation of personnel of the United
States and foreign countries (including per diem expenses associated with such transportation), and the
transportation of supplies and equipment, for the
purpose of facilitating counterdrug activities or activities to counter transnational organized crime within
or outside the United States.
(4) The establishment (including an unspecified
minor military construction project) and operation of
bases of operations or training facilities for the purpose of facilitating counterdrug activities or activities
to counter transnational organized crime of the Department of Defense or any Federal, State, local, or
tribal law enforcement agency within or outside the
United States.
(5) Counterdrug or counter-transnational organized crime related training of law enforcement personnel of the Federal Government, of State, local,
and tribal governments, including associated support
expenses for trainees and the provision of materials
necessary to carry out such training.
(6) The detection, monitoring, and communication of the movement of—
(A) air and sea traffic within 25 miles of and
outside the geographic boundaries of the United
States; and

180a
(B) surface traffic outside the geographic
boundary of the United States and within the
United States not to exceed 25 miles of the boundary if the initial detection occurred outside of the
boundary.
(7) Construction of roads and fences and installation of lighting to block drug smuggling corridors
across international boundaries of the United States.
(8) Establishment of command, control, communications, and computer networks for improved integration of law enforcement, active military, and National Guard activities.
(9) The provision of linguist and intelligence
analysis services.
(10) Aerial and ground reconnaissance.
(c) TYPES OF SUPPORT
FORCEMENT AGENCIES.—

FOR

FOREIGN LAW EN-

(1) PURPOSES.—The purposes for which the Secretary may provide support under subsection (a) for
foreign law enforcement agencies are the following:
(A) The transportation of personnel of the
United States and foreign countries (including per
diem expenses associated with such transportation),
and the transportation of supplies and equipment,
for the purpose of facilitating counterdrug activities or activities to counter transnational organized crime within or outside the United States.
(B) The establishment (including small scale
construction) and operation of bases of operations
or training facilities for the purpose of facilitating

181a
counterdrug activities or activities to counter transnational organized crime of a foreign law enforcement agency outside the United States.
(C) The detection, monitoring, and communication of the movement of—
(i)
air and sea traffic within 25 miles of
and outside the geographic boundaries of the
United States; and
(ii) surface traffic outside the geographic
boundaries of the United States.
(D) Establishment of command, control,
communications, and computer networks for improved integration of United States Federal and
foreign law enforcement entities and United States
Armed Forces.
(E) The provision of linguist and intelligence
analysis services.
(F)

Aerial and ground reconnaissance.

(2) COORDINATION WITH SECRETARY OF STATE.—
In providing support for a purpose described in this
subsection, the Secretary shall coordinate with the
Secretary of State.
(d) CONTRACT AUTHORITY.—In carrying out subsection (a), the Secretary may acquire services or equipment by contract for support provided under that subsection if the Department of Defense would normally acquire such services or equipment by contract for the
purpose of conducting a similar activity for the Department.

182a
(e) LIMITED
WAIVER
OF
PROHIBITION.—
Notwithstanding section 276 1 of this title, the Secretary
may provide support pursuant to subsection (a) in any
case in which the Secretary determines that the provision of such support would adversely affect the military
preparedness of the United States in the short term if the
Secretary determines that the importance of providing
such support outweighs such short-term adverse effect.
(f ) CONDUCT OF TRAINING OR OPERATION TO AID
CIVILIAN AGENCIES.—In providing support pursuant to
subsection (a), the Secretary may plan and execute otherwise valid military training or operations (including
training exercises undertaken pursuant to section
1206(a) of the National Defense Authorization Act for
Fiscal Years 1990 and 1991 (Public Law 101-189; 103
Stat. 1564)) for the purpose of aiding civilian law enforcement agencies.
(g) RELATIONSHIP TO OTHER SUPPORT AUTHORITIES.—
(1) ADDITIONAL AUTHORITY.—The authority
provided in this section for the support of counterdrug
activities or activities to counter transnational organized crime by the Department of Defense is in addition to, and except as provided in paragraph (2), not
subject to the other requirements of this chapter.
(2) EXCEPTION.—Support under this section shall
be subject to the provisions of section 2751 and, except as provided in subsection (e), section 2761 of this
title.

1

See References in Text note below.

183a
(h) CONGRESSIONAL NOTIFICATION.—
(1) IN GENERAL.—Not less than 15 days before
providing support for an activity under subsection
(a), the Secretary of Defense shall submit to the appropriate committees of Congress a written and electronic notice of the following:
(A) In the case of support for a purpose described in subsection (c)—
(i)
the country the capacity of which will
be built or enabled through the provision of
such support;
(ii) the budget, implementation timeline
with milestones, anticipated delivery schedule
for support, and completion date for the purpose or project for which support is provided;
(iii) the source and planned expenditure of
funds provided for the project or purpose;
(iv) a description of the arrangements, if
any, for the sustainment of the project or purpose and the source of funds to support sustainment of the capabilities and performance outcomes achieved using such support, if applicable;
(v) a description of the objectives for the
project or purpose and evaluation framework
to be used to develop capability and performance metrics associated with operational outcomes for the recipient;
(vi) information, including the amount,
type, and purpose, about the support provided

184a
the country during the three fiscal years preceding the fiscal year for which the support
covered by the notice is provided under this
section under—
(I)

this section;

(II) section 23 of the Arms Export Control Act (22 U.S.C. 2763);
(III) peacekeeping operations;
(IV) the International Narcotics Control and Law Enforcement program under
section 481 of the Foreign Assistance Act of
1961 (22 U.S.C. 2291);
(V) Nonproliferation, Anti-Terrorism,
Demining, and Related Programs;
(VI) counterdrug activities authorized
by section 1033 of the National Defense Authorization Act for Fiscal Year 1998 (Public
Law 105-85); or
(VII) any other significant program, account, or activity for the provision of security assistance that the Secretary of Defense and the Secretary of State consider
appropriate;
(vii) an evaluation of the capacity of the recipient country to absorb the support provided;
and
(viii) an evaluation of the manner in which
the project or purpose for which the support is

185a
provided fits into the theater security cooperation strategy of the applicable geographic combatant command.
(B) In the case of support for a purpose described in subsection (b) or (c), a description of any
small scale construction project for which support
is provided.
(2) COORDINATION WITH SECRETARY OF STATE.—
In providing notice under this subsection for a purpose described in subsection (c), the Secretary of Defense shall coordinate with the Secretary of State.
(i)

DEFINITIONS.—In this section:

(1) The term “appropriate committees of Congress” means—
(A) the Committee on Armed Services, the
Committee on Appropriations, and the Committee
on Foreign Affairs of the House of Representatives; and
(B) the Committee on Armed Services, the
Committee on Appropriations, and the Committee
on Foreign Relations of the Senate.
(2) The term “Indian tribe” means a Federally
recognized Indian tribe.
(3) The term “small scale construction” means
construction at a cost not to exceed $750,000 for any
project.
(4) The term “tribal government” means the
governing body of an Indian tribe, the status of
whose land is “Indian country” as defined in section

186a
1151 of title 18 or held in trust by the United States
for the benefit of the Indian tribe.
(5) The term “tribal law enforcement agency”
means the law enforcement agency of a tribal government.
(6) The term “transnational organized crime” means
self-perpetuating associations of individuals who operate transnationally for the purpose of obtaining power,
influence, monetary, or commercial gains, wholly or in
part by illegal means, while protecting their activities
through a pattern of corruption or violence or through a
transnational organization structure and the exploitation of transnational commerce or communication mechanisms.
3.

10 U.S.C. 2801 provides:

Scope of chapter; definitions

(a) The term “military construction” as used in this
chapter or any other provision of law includes any construction, development, conversion, or extension of any
kind carried out with respect to a military installation,
whether to satisfy temporary or permanent requirements, or any acquisition of land or construction of a defense access road (as described in section 210 of title 23).
(b) A military construction project includes all military construction work, or any contribution authorized
by this chapter, necessary to produce a complete and usable facility or a complete and usable improvement to an
existing facility (or to produce such portion of a complete and usable facility or improvement as is specifically authorized by law).

187a
(c) In this chapter and chapter 173 of this title:
(1) The term “appropriate committees of Congress” means the congressional defense committees
and, with respect to any project to be carried out by,
or for the use of, an intelligence component of the Department of Defense, the Permanent Select Committee on Intelligence of the House of Representatives
and the Select Committee on Intelligence of the Senate.
(2) The term “facility” means a building, structure, or other improvement to real property.
(3) The term “life-cycle cost-effective”, with respect to a project, product, or measure, means that
the sum of the present values of investment costs,
capital costs, installation costs, energy costs, operating costs, maintenance costs, and replacement costs,
as estimated for the lifetime of the project, product,
or measure, does not exceed the base case (current
or standard) for the practice, product, or measure.
(4) The term “military installation” means a
base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military department or, in the case of an activity in a foreign country, under the operational control of the
Secretary of a military department or the Secretary
of Defense, without regard to the duration of operational control.
(5) The term “Secretary concerned” includes the
Secretary of Defense with respect to matters concerning the Defense Agencies.

188a
(d) This chapter (other than sections 2830, 2835, and
2836 of this chapter) does not apply to the Coast Guard
or to civil works projects of the Army Corps of Engineers.
4.

10 U.S.C. 2808 provides:

Construction authority in the event of a declaration of
war or national emergency

(a) In the event of a declaration of war or the declaration by the President of a national emergency in accordance with the National Emergencies Act (50 U.S.C.
1601 et seq.) that requires use of the armed forces, the
Secretary of Defense, without regard to any other provision of law, may undertake military construction projects, and may authorize the Secretaries of the military
departments to undertake military construction projects, not otherwise authorized by law that are necessary to support such use of the armed forces. Such projects may be undertaken only within the total amount of
funds that have been appropriated for military construction, including funds appropriated for family housing,
that have not been obligated.
(b) When a decision is made to undertake military
construction projects authorized by this section, the
Secretary of Defense shall notify, in an electronic medium pursuant to section 480 of this title, the appropriate committees of Congress of the decision and of the
estimated cost of the construction projects, including
the cost of any real estate action pertaining to those construction projects.

189a
(c) The authority described in subsection (a) shall
terminate with respect to any war or national emergency at the end of the war or national emergency.
5.

50 U.S.C. 1621 provides:

Declaration of national emergency by President; publication in Federal Register; effect on other laws; superseding legislation

(a) With respect to Acts of Congress authorizing the
exercise, during the period of a national emergency, of
any special or extraordinary power, the President is authorized to declare such national emergency. Such
proclamation shall immediately be transmitted to the
Congress and published in the Federal Register.
(b) Any provisions of law conferring powers and authorities to be exercised during a national emergency
shall be effective and remain in effect (1) only when the
President (in accordance with subsection (a) of this section), specifically declares a national emergency, and (2)
only in accordance with this chapter. No law enacted
after September 14, 1976, shall supersede this subchapter unless it does so in specific terms, referring to this
subchapter, and declaring that the new law supersedes
the provisions of this subchapter.

190a
6. Section 8005 of Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, Div. A, Tit. VIII,
132 Stat. 2999, provides:
DIVISION A—DEPARTMENT OF DEFENSE
APPROPRIATIONS ACT, 2019

*

*

*

*

*

Tit. VIII
GENERAL PROVISIONS
*

*

*

*

*

SEC. 8005. Upon determination by the Secretary
of Defense that such action is necessary in the national
interest, he may, with the approval of the Office of
Management and Budget, transfer not to exceed
$4,000,000,000 of working capital funds of the Department of Defense or funds made available in this Act to
the Department of Defense for military functions (except military construction) between such appropriations
or funds or any subdivision thereof, to be merged with
and to be available for the same purposes, and for the
same time period, as the appropriation or fund to which
transferred: Provided, That such authority to transfer
may not be used unless for higher priority items, based
on unforeseen military requirements, than those for
which originally appropriated and in no case where the
item for which funds are requested has been denied by
the Congress: Provided further, That the Secretary of
Defense shall notify the Congress promptly of all transfers made pursuant to this authority or any other authority in this Act: Provided further, That no part of
the funds in this Act shall be available to prepare or present a request to the Committees on Appropriations for

191a
reprogramming of funds, unless for higher priority
items, based on unforeseen military requirements, than
those for which originally appropriated and in no case
where the item for which reprogramming is requested
has been denied by the Congress: Provided further,
That a request for multiple reprogrammings of funds
using authority provided in this section shall be made
prior to June 30, 2019: Provided further, That transfers among military personnel appropriations shall not
be taken into account for purposes of the limitation on
the amount of funds that may be transferred under this
section.

